<html>
<title> - THE FISCAL YEAR 2010 BUDGET FOR THE NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION</title>
<body><pre>[Senate Hearing 111-445]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-445
 
                      THE FISCAL YEAR 2010 BUDGET
                        FOR THE NATIONAL OCEANIC
                     AND ATMOSPHERIC ADMINISTRATION

=======================================================================

                                HEARING

                               before the

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 11, 2009

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                  U.S. GOVERNMENT PRINTING OFFICE
54-495                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           DAVID VITTER, Louisiana
AMY KLOBUCHAR, Minnesota             SAM BROWNBACK, Kansas
TOM UDALL, New Mexico                MEL MARTINEZ, Florida
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Chief of Staff
                   James Reid, Deputy Chief of Staff
                   Bruce H. Andrews, General Counsel
   Christine D. Kurth, Republican Staff Director and General Counsel
              Brian M. Hendricks, Republican Chief Counsel
                                 ------                                

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

MARIA CANTWELL, Washington,          OLYMPIA J. SNOWE, Maine, Ranking
    Chairman                         ROGER F. WICKER, Mississippi
DANIEL K. INOUYE, Hawaii             JOHNNY ISAKSON, Georgia
JOHN F. KERRY, Massachusetts         DAVID VITTER, Louisiana
BARBARA BOXER, California            MEL MARTINEZ, Florida
FRANK R. LAUTENBERG, New Jersey
MARK BEGICH, Alaska


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 11, 2009....................................     1
Statement of Senator Cantwell....................................     1
Statement of Senator Begich......................................    10
Statement of Senator Isakson.....................................    12

                               Witnesses

Hon. Jane Lubchenco, Ph.D., Under Secretary of Commerce for 
  Oceans and Atmosphere and NOAA Administrator, National Oceanic 
  and Atmospheric Administration, U.S. Department of Commerce....     2
    Prepared statement...........................................     5

                                Appendix

Hon. John D. Rockefeller IV, U.S. Senator from West Virginia, 
  prepared statement.............................................    25
Hon. Olympia J. Snowe, U.S. Senator from Maine, prepared 
  statement......................................................    26
Response to written questions submitted to Dr. Jane Lubchenco by:
    Hon. John D. Rockefeller IV..................................    27
    Hon. Maria Cantwell..........................................    38
    Hon. Daniel K. Inouye........................................    47
    Hon. Bill Nelson.............................................    50
    Hon. Frank R. Lautenberg.....................................    54
    Hon. Mark Warner.............................................    57
    Hon. Mark Begich.............................................    59
    Hon. Olympia J. Snowe........................................    65
    Hon. Roger F. Wicker.........................................    76
    Hon. David Vitter............................................    77


                      THE FISCAL YEAR 2010 BUDGET
                        FOR THE NATIONAL OCEANIC
                     AND ATMOSPHERIC ADMINISTRATION

                              ----------                              


                        THURSDAY, JUNE 11, 2009

                               U.S. Senate,
Subcommittee on Oceans, Atmosphere, Fisheries, and 
                                       Coast Guard,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 11:02 a.m., in 
room SR-253, Russell Senate Office Building, Hon. Maria 
Cantwell, Chairman of the Subcommittee, presiding.

           OPENING STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. This hearing of the Commerce Subcommittee 
on Oceans, Atmosphere, Fisheries, and Coast Guard, will come to 
order.
    Good morning. I would like to welcome Dr. Lubchenco and to 
tell her I look forward to hearing her testimony this morning 
on the Administration's Fiscal Year 2010 Budget Request for the 
National Oceanic and Atmospheric Administration.
    On Tuesday, this Subcommittee held a hearing on the blue 
economy and the contribution that oceans and coastal resources 
play in the Nation's economy and our health. The hearing made 
three important points.
    First, protecting our oceans and coasts is an environmental 
and economic imperative.
    Second, the blue economy faces an uncertain future due to 
climate change, pollution, and greater demands for marine 
resources.
    And third, the Government must make a greater investment in 
oceans, coastal management and conservation.
    This last point, the need for greater Federal investment, 
is the focus of our hearing this morning. NOAA's work reaches 
from the bottom of our oceans to the surface of the sun. From 
daily weather forecasts to long-term climate monitoring, NOAA 
touches the daily lives of individual Americans. NOAA's 
programs support industries from fishery to maritime commerce 
to aviation. And NOAA is also steward of our oceans and coastal 
resources.
    To highlight a few of the benefits that NOAA brings to the 
United States, the integrated ocean observatory system supports 
ocean and coastal management, reducing the risks of maritime 
accidents and strengthens the search and rescue efforts of our 
Nation. The associated economic benefits to our U.S. coasts are 
estimated at approximately $300 million annually.
    Hydrographic surveys ensure safe, efficient, and 
environmentally-sound marine transportation. Deep draft 
seaports and sea businesses generate approximately 8.4 million 
American jobs and added nearly $2 trillion to our economy in 
2006.
    And one-third of our economy is very sensitive to weather 
and climate, and NOAA's climate service and data are more 
important than ever to the energy and agriculture 
transportation sector of our economy as they work to adapt to 
the effects of climate change.
    Unfortunately, the importance of NOAA's mission and the 
resources it is charged with protecting are not translating 
into the funding for the agency. For Fiscal Year 2010, the 
Administration is proposing a budget of $4.48 billion for NOAA, 
only a 2.5 percent increase over Fiscal Year 2009 enacted 
levels.
    I want to compare NOAA's budget to other agencies. The 
Administration's budget proposal of $12.1 billion for the 
Department of the Interior for 2010 is a 7 percent increase; 
$10.5 billion for the Environmental Protection Agency, a 37 
percent increase; and $18.9 billion for NASA, a 5 percent 
increase. The Department of the Interior, Environmental 
Protection Agency, and NASA deserve these increases, but so 
does NOAA. The Administration needs to recognize the valuable 
science and stewardship that NOAA provides to our Nation and 
double the budget.
    I know that we are going to have a chance to talk about 
many of the specifics that are in this year's NOAA budget 
proposal, but before I do that, I am going to turn it over to 
Dr. Lubchenco to make a statement, and then we will follow that 
by questions. I do see one of my colleagues has arrived, but if 
the Senator from Alaska does not have an opening statement, I 
will turn to Dr. Lubchenco.
    Senator Begich. No.
    Senator Cantwell. And I am sure my colleague from Alaska 
will have some very specific questions for Dr. Lubchenco.
    So, Dr. Lubchenco, please go ahead.

            STATEMENT OF HON. JANE LUBCHENCO, Ph.D.,

             UNDER SECRETARY OF COMMERCE FOR OCEANS

             AND ATMOSPHERE AND NOAA ADMINISTRATOR,

        NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION,

                  U.S. DEPARTMENT OF COMMERCE

    Dr. Lubchenco. Madam Chairwoman, thank you so much for your 
leadership on behalf of NOAA and for your and the Committee's 
generous support of NOAA in the past. We greatly appreciate 
your support for our programs as we work to improve our 
products and the services for the American people.
    I am honored to be here as the Under Secretary of Commerce 
for Oceans and Atmosphere and Administrator of NOAA, one of the 
Nation's premier science and stewardship agencies. I am pleased 
to speak today regarding the President's Fiscal Year 2010 
Budget Request for NOAA.
    The 2010 President's Budget provides a solid foundation to 
advance NOAA's mission. The request, as you noted, is $4.5 
billion, which represents $110 million, or a 2.5 increase over 
the Fiscal Year 2009 omnibus appropriation. This level reflects 
our efforts to reallocate resources, to find efficiencies, and 
to ensure accountability, and fund our highest priority 
programs. This budget supports core mission functions for 
environmental prediction and stewardship, provides key 
investments to address top management challenges for satellite 
acquisition and fisheries management, and it provides a down 
payment for climate research, observations, and services, for 
coastal services, observing, and stewardship.
    For the remainder of my testimony, I would like to share 
with the Committee a selection of important highlights from our 
Fiscal Year 2010 Budget Request in each of the following key 
areas: satellites, fisheries, coasts, and weather.
    Beginning with satellites, one of the greatest challenges 
that NOAA faces today is ensuring continuity of satellite 
operations to provide unbroken coverage of weather forecasts 
and climate measurements into the future. Providing these data 
is increasingly vital as the Nation prepares for the impacts of 
climate change. The uncertainty inherent in climate change 
calls for reliable, consistent sources of data. It is NOAA's 
role to provide accurate science and synthesis products on how 
climate change will affect the Nation.
    With this budget, we are investing in multiple satellite 
acquisition programs. A funding increase of $272 million is 
requested to continue the development of the Geostationary 
Operational Environmental Satellite--Series R program. This 
increase will provide for continued development of the 
satellite instruments, spacecraft, and ground systems. The 
acquisition of NOAA's GOES-R series, in partnership with NASA, 
is progressing well. The new satellite will carry improved 
environmental sensors that will enable NOAA's forecasters to 
enhance the timeliness and accuracy of their severe weather 
warnings.
    There is also $94 million in the request to support the 
National Polar-Orbiting Operational Environmental Satellite 
System, or NPOESS. As this Committee is aware, the development 
of NPOESS continues to face substantial challenges. The NOAA, 
Air Force, and NASA managed program has had a history of cost 
and schedule overruns and other acquisition problems. Should 
NPOESS be delayed or fail, NOAA's current climate and weather 
forecasting abilities will be put in jeopardy.
    Secretary of Commerce Gary Locke and I have made fixing 
NPOESS one of our highest priorities. A recent independent 
review of the NPOESS program has identified significant 
deficiencies in the program's structure and its budgeting and 
cost estimating, indicating the program has a low probability 
of success as currently managed and structured. We are taking 
these results very seriously and are working with our tri-
agency partners and the Administration on a number of options 
to address the independent review team's findings.
    Turning now to fisheries, another challenge facing NOAA is 
to end overfishing and improve fishery management. Continued 
overfishing threatens the viability of the fishing livelihood 
and fishing-dependent communities. NOAA's challenge is to 
balance the long-term conservation of the fish stocks with 
immediate economic needs of fishermen, particularly during the 
difficult economic times we are experiencing now.
    The reauthorized Magnuson-Stevens Fishery Conservation and 
Management Act provides strict regulatory guidelines for ending 
overfishing. This budget provides $56.5 million in new 
increases, for a total of $98.3 million to implement the 
requirements of the revised Magnuson-Stevens Act. This request 
includes funding to establish and monitor annual catch limits 
and accountability measures, expand annual stock assessments, 
increase enforcement, and observing of fisheries efforts, 
promote recreational data collection, and expand cooperative 
research programs.
    A highlight of the Magnuson request is $18.6 million to 
support transition to catch share management in the New England 
groundfish fishery. This funding level builds upon the $16.7 
million provided in Fiscal Year 2009 funds and supports 
improved at-sea monitoring, documentation of catches, increased 
enforcement coverage, additional resources for cooperative 
research projects with the fishing industry, and training for 
fishermen to use newly required logbooks.
    On May 21, 2009, the President submitted a Fiscal Year 2010 
budget amendment that includes a transfer for $50 million of 
our request for species recovery to the Pacific Coast Salmon 
Recovery Fund. The budget amendment also included $11 million 
to expand the national program for endangered and threatened 
species. Both of these programs will support efforts to restore 
habitat and promote the recovery of at-risk stocks, including 
28 salmonid stocks which are listed as threatened or endangered 
under the ESA.
    Climate change is among the greatest challenges of our 
time. NOAA's long history of climate observations and products 
provides a strong foundation for the agency's work to 
synthesize scientific data on climate change and create 
products and services that can be used by the public to guide 
important decisions such as where to build roads, the types of 
crops to grow, and how to protect coastal properties. NOAA's 
climate information, products, and services also play an 
important role in the siting and design of the Nation's 
emerging renewable energy infrastructure--wind, solar, and 
ocean--to help meet the Administration's goal of a clean energy 
economy.
    The Fiscal Year 2010 Budget requests $41.9 million in new 
increases, for a total of $285.7 million for high-priority 
climate initiatives. This represents a good foundation for 
NOAA's climate portfolio.
    Fifty percent of Americans live in coastal areas and sixty 
percent of the country's GDP is generated in coastal 
communities. Coastal populations, estimated at over 160 million 
in 2008, are expected to grow and risks to life, property, 
businesses, and coastal habitats will only increase. One of my 
most important priorities is to advance coastal stewardship 
through the use of ecosystem-based science. NOAA's budget 
request provides key investments to promote this goal.
    The Budget requests $2 million for NOAA to establish a 
Coastal Communities Task Force comprised of key public, 
private, nongovernmental, and university community 
representatives. This task force will chart a new course for 
effective and meaningful action for management and stewardship 
of the Nation's valuable coasts.
    Finally, weather. The United States is the most severe 
weather-prone Nation on Earth. We experience over $11 billion 
in damages due to severe weather incidents each year. Accurate 
weather warnings and forecasts are critical to protect lives 
and property, and our Fiscal Year 2010 request fills critical 
gaps in NOAA's ability to observe and forecast weather events.
    In conclusion, overall NOAA's Fiscal Year 2010 Budget 
Request is a good budget for NOAA and provides a solid 
foundation for our future needs. The overall increase reflects 
the growing need for NOAA's infrastructure and services, 
although we continue to work to reallocate resources and 
identify efficiencies.
    I look forward to working with you and the members of this 
Committee to achieve the goals I have laid out here through the 
implementation of the Fiscal Year 2010 Budget.
    Thank you very much for the opportunity to present some of 
the highlights of our budget, and I am happy to address any 
questions.
    [The prepared statement of Dr. Lubchenco follows:]

 Prepared Statement of Hon. Jane Lubchenco, Ph.D., Under Secretary of 
  Commerce for Oceans and Atmosphere and NOAA Administrator, National 
  Oceanic and Atmospheric Administration, U.S. Department of Commerce

    Madam Chairwoman and Members of the Committee, before I begin my 
testimony I would like to thank you for your leadership and the 
generous support you have shown the National Oceanic and Atmospheric 
Administration. Your continued support for our programs is appreciated 
as we work to improve our products and services for the American 
people.
    I am honored to be here as the Under Secretary of Commerce for 
Oceans and Atmosphere and the Administrator of the National Oceanic and 
Atmospheric Administration (NOAA), one of the Nation's premiere science 
and stewardship agencies and am pleased to speak with you today 
regarding the President's Fiscal Year (FY) 2010 Budget Request for 
NOAA.
    The FY 2010 President's Budget provides a solid foundation to 
advance NOAA's mission. The FY 2010 Request is $4.5 billion, which 
represents a $110 million or 2.5 percent increase over the FY 2009 
omnibus appropriation level. This level reflects our efforts to 
reallocate resources, maximize efficiencies, ensure accountability, and 
fund our highest priority programs. This budget supports core mission 
functions for environmental prediction and stewardship and provides key 
investments to address the top management challenges for satellite 
acquisition and fisheries management. It also provides a down payment 
for climate research, observations, and services; and for coastal 
services and stewardship.

                   FY 2010 Budget Request Highlights

Satellites
    One of the greatest challenges that NOAA faces today is ensuring 
continuity of satellite operations to provide state-of-the art, 
unbroken coverage that enables weather forecasts and climate 
measurements. Satellites provide essential information for accurate 
weather forecasts and warnings about weather-related disasters such as 
hurricanes, tornados and floods. In addition, satellite data are 
increasingly vital to the understanding of climate change and to 
forecasts of climate-related phenomena such as severe droughts. One of 
NOAA's primary roles is to provide reliable, consistent data and 
understanding about weather and climate change and to integrate that 
information into products that are useful to citizens and policy-makers 
alike.
    With the FY 2010 Budget we will invest in multiple satellite 
acquisition programs for the continuity of critical weather, climate, 
and oceanographic data. I will highlight each of our three programs in 
turn.
    1. A funding increase of $272 million is requested to continue the 
development of the Geostationary Operational Environmental Satellite--
Series R (GOES-R) program. This increase will provide for the continued 
development of the satellite instruments, spacecraft, and ground 
systems. The acquisition of NOAA's GOES-R series in partnership with 
the National Aeronautics and Space Administration (NASA) is progressing 
well. The new satellites will carry improved environmental sensors that 
will enable NOAA's forecasters to enhance the timeliness and accuracy 
of their severe weather warnings.
    2. As this committee is aware, the development of the National 
Polar-orbiting Operational Environmental Satellite System (NPOESS) 
continues to face substantial challenges. The NOAA, Air Force and NASA 
managed program has had a history of cost and schedule overruns and 
other acquisition problems. Should NPOESS be delayed or fail, NOAA's 
current climate and weather forecasting abilities will be put in 
jeopardy. Unfortunately, technical and management problems continue.
    The FY 2010 Budget Request provides an increase of $94 million to 
support the NPOESS program. This request represents NOAA's share of the 
tri-agency program. In December 2008, the Air Force, NOAA and NASA 
agreed to a revised baseline for the NPOESS program that added 
resources for on-going technical problems as well as for out-year 
operations and support costs not previously included in the program's 
planning. This new baseline increased the program's total life-cycle 
cost from $12.5 billion in the FY 2009 President's budget to $14 
billion. The FY 2010 President's budgets for both NOAA and the Air 
Force fund to this baseline.
    Secretary of Commerce Gary Locke and I have made fixing NPOESS one 
of our highest priorities. A recent independent review of the NPOESS 
program has identified significant deficiencies in the program 
structure and its budgeting and cost estimating, indicating the program 
has a low probability of meeting the performance and satellite coverage 
requirements for weather and climate monitoring. We are taking these 
results seriously and are working with both our tri-agency partners and 
the Administration on a number of options to address the independent 
review team's findings. In addition, we have added some funding in 2009 
to help mitigate cost and schedule in this program. We will continue to 
consult with you as these options are developed to ensure the 
continuity of the crucial climate and weather data provided by polar 
satellites.
    3. Sea level rise directly threatens coastal infrastructure through 
increased erosion, more frequent storm-surge flooding, and loss of 
habitat through drowned wetlands. NOAA's budget request includes $20 
million for the Jason-3 satellite to provide continuity of sea surface 
height measurements, thus ensuring continuity of a quality climate 
record of over 20 years. Jason-3 is planned as a truly joint U.S.-
European partnership with U.S. and European funding. By sharing costs 
with the Europeans starting in FY 2010, both sides have a cost 
effective way to assure continuity of the sea surface height 
measurement.

Fisheries
    Another challenge facing NOAA is ending overfishing, improving 
fisheries management and putting fisheries on a path to sustainability 
and profitability. Continued overfishing threatens the viability of 
fishermen and fishing-dependent communities. The time has come for a 
paradigm shift in how we manage our fisheries resources. We now need a 
fishery management system that will sustain fishing economies and 
incentivize stewardship and conservation.
    The reauthorized Magnuson-Stevens Fishery Conservation and 
Management Act (Magnuson-Stevens Act) provides strict regulatory 
guidelines for ending overfishing. This budget provides $56.5 million 
in new increases, for a total of $98.3 million, to implement the 
requirements of the revised Magnuson-Stevens Act and begin a transition 
to catch-share fishery management programs. This is the second largest 
increase in the budget, behind satellite acquisitions, and is a 
significant investment in improving management of our fisheries. This 
request includes funding to establish and monitor annual catch limits 
and accountability measures for stocks subject to overfishing, expand 
annual stock assessments to improve the science used for setting 
management measures, increase enforcement and observing of fisheries 
effort, promote recreational data collection, and expand cooperative 
research programs.
    A highlight of the Magnuson-Stevens Act request is $18.6 million to 
support transition fisheries around the country to catch-share 
management. This funding level builds upon $16.7 million provided in FY 
2009 and supports improved at-sea monitoring and documentation of 
catches, increased enforcement coverage, additional resources for 
cooperative research projects with the fishing industry, and fishermen 
training for newly required logbooks.
    NOAA has an ongoing investment in implementing the Pacific Salmon 
Treaty with Canada to ensure conservation and fair harvest-sharing of 
salmon stocks that span the U.S.-Canada border. NOAA requests $16.5 
million to implement the newly revised Chinook salmon provisions. 
Within this request, $7.5 million will support projects to assist the 
recovery of critical Puget Sound salmon stocks listed under the 
Endangered Species Act, including hatchery and habitat projects. An 
additional $7.5 million will help mitigate economic consequences of 
significant catch reductions in the Southeast Alaska fishery. The final 
$1.5 million will bolster the coast-wide coded wire tagging program to 
improve salmon run monitoring in the United States. In addition to 
NOAA's contribution to this treaty, the Department of State will 
request a total of $30 million for Canada Fishery Mitigation--$15 
million in FY 2010 and $15 million in FY 2011--in fulfillment of United 
States commitments under the Pacific Salmon Treaty.
    In addition, on May 21, 2009, the President submitted an FY 2010 
budget amendment that included a transfer of $50 million of our request 
for species recovery to the Pacific Coastal Salmon Recovery Fund 
(PCSRF). The budget amendment also included $11 million to expand the 
national program for endangered and threatened species. Both of these 
programs will support efforts to restore habitat and promote the 
recovery of at-risk stocks, including 28 salmonid stocks which are 
listed as threatened or endangered under the Endangered Species Act.

Climate
    Climate change is among the greatest challenges of our time. It 
will permeate nearly every aspect of our lives. What we choose to do 
about it now will define us for generations to come. NOAA's long 
history of climate observations and products provides a strong 
foundation for the agency's work to synthesize scientific data on 
climate change and create products and services that can be used by the 
public to guide important decisions such as where to build roads, the 
types of crops to grow, and how to protect coastal properties. NOAA's 
climate information, products, and services also play an important role 
in the siting and design of the Nation's emerging renewable energy 
infrastructure--wind, solar, and ocean--to help meet the 
Administration's goal of a clean energy economy. The FY 2010 Budget 
requests an increase of $41.9 million for a total of $285.7 million for 
high-priority climate initiatives.
    NOAA also has made it a high priority to understand climate-
ecosystem interactions, particularly the impacts of ocean acidification 
on biological productivity and distribution. I'd like to thank this 
Committee for including legislation on ocean acidification in the 
Omnibus Lands Act passed earlier this year. Ocean acidification has the 
potential to drastically affect animals that have calcareous shells; 
those changes in turn will likely affect other species that depend upon 
the shelled ones. NOAA's FY 2010 ocean acidification initiative has two 
components: $4 million for ocean acidification monitoring and $1.5 
million for research on ocean acidification's impacts on living marine 
resources. With these funds, NOAA will equip open-ocean and coastal 
moorings with additional sensors to monitor the changes in the pH of 
the global ocean and will conduct studies on the effects of 
acidification on living marine resources.
    Drought is another serious climate problem facing the United 
States. There is an urgent need to be able to provide predictions and 
projections that answer questions such as: Will drought conditions in 
the U.S. Southwest continue over the next decade?, and How will drought 
affect farmers? NOAA's FY 2010 Budget includes $4.6 million for the 
National Integrated Drought Information System to develop drought early 
warning system pilot projects in three diverse geographic areas: 
Colorado River Basin, Southeastern U.S., and California. These funds 
will allow NOAA to develop and implement the next generation Climate 
Forecast System, which will lead to improved drought forecast products.
    The free and open exchange of scientific information, such as 
NOAA's climate model data and products, is critical to the global 
effort to understand and predict global climate change. The President's 
Budget includes $2.5 million for the National Climate Model Portal, 
created by NOAA. This online database will provide archive and user-
access capability for the next generation of climate products that 
utilize major advancements in model physics and coupling across the 
ocean, air and land interfaces. This is an important step in NOAA's 
ability to provide climate products and services to the scientific 
community and the public.

Coasts
    Fifty percent of Americans live in coastal areas and sixty percent 
of the country's Gross Domestic Product (GDP) is generated in coastal 
communities. Coastal populations (estimated at over 160 million in 
2008) are expected to grow, and risks to life, property, businesses and 
coastal habitats will only increase. NOAA's FY 2010 Budget provides key 
investments to promote sustainable and safe use of coastal areas.
    The Budget requests $2 million for NOAA to establish a Coastal 
Communities Task Force comprised of key public, private, non-
governmental, and university community representatives. This task force 
will chart a new course of effective, meaningful action for management 
and stewardship of the Nation's valuable coasts.
    Harmful Algal Blooms (HAB) are one of the most scientifically 
complex and economically significant coastal issues facing the Nation. 
The toxins can cause human illness and death, close waters to 
recreation or seafood harvesting, severely impact tourist economies, 
alter habitats, and adversely impact fish, endangered species, and 
other marine organisms. NOAA is requesting an increase of $2.7 million 
to implement a national system of operational HAB forecasts and a 
national HAB event response capacity. This system will be implemented 
region by region.
    Industry, decision-makers, and the public are demanding more 
accurate maps and charts to benefit the economy, predict coastal 
hazards, and manage coastal habitats. Precise elevation measurements 
are needed, especially in coastal areas and watersheds where a small 
height difference can dictate the need for additional insurance because 
of location within a flood zone. The budget request includes $4 million 
for NOAA to begin a multi-year effort to produce a new national 
vertical datum by 2020 that will improve elevations and height 
information used in a variety of critical applications including 
monitoring sea level rise and coastal subsidence, developing flood 
evacuation maps, and ensuring safe and efficient marine transportation.

Weather
    The United States is the most severe weather prone nation on Earth. 
We experience more than $11 billion in damages due to severe weather 
incidents each year. Weather and climate-sensitive industries, both 
directly and indirectly, account for about one-third of the Nation's 
GDP ranging from finance, insurance and real estate to services, trade 
and manufacturing.\1\ Accurate weather warnings and forecasts are 
critical to protect lives and property and our FY 2010 request fills 
critical gaps in NOAA's ability to observe and forecast weather events.
---------------------------------------------------------------------------
    \1\ Dutton, John A., Opportunities and Priorities in a New Era for 
Weather and Climate Services, Bulletin of the American Meteorological 
Society, September 2002, volume 83, no. 9, pp. 1303-1311.
---------------------------------------------------------------------------
    Hurricanes are responsible for loss of life and billions of dollars 
in property damage annually. The United States has seen an increase in 
both intensity and frequency with recent storms. To improve hurricane 
track and intensity forecast accuracy by 20 percent within 5 years, 
NOAA is requesting an additional $13 million for a total of $17 million 
for its hurricane forecast improvement plan. The additional funds will 
allow NOAA to translate critical research into operations, improve 
processing of key observations, and enhance model accuracy. Funds will 
also be dedicated toward additional computing capacity to improve the 
resolution and accuracy of both global and regional weather forecasts. 
This effort is critical to ensuring evacuation notices are accurate and 
false alarms are avoided.
    NOAA is actively involved in the multi-agency effort to create the 
Next Generation Air Transportation System (NextGen). Federal Aviation 
Administration records indicate that on average, weather is a factor in 
70 percent of flight delays, contributing to losses of over $4 billion 
annually. These delays will only increase as demand for air 
transportation is expected to triple by 2025. As passengers on these 
flights, we want the pilots and commercial airliners to have advance 
warnings and access to the most accurate information concerning severe 
weather, thus mitigating delays. Many of the delays can be avoided with 
enhanced weather information and forecasts. NOAA has requested $6.1 
million to implement this effort through improved aviation model and 
aviation weather forecasts.
    The Budget also includes increases for upgrades and technology 
refresh of weather prediction systems.

Program Support
    Education and outreach are critical for promoting environmental 
literacy. The FY 2010 President's Budget includes $5 million for a 
competitive national environmental literacy program to promote 
excellence in informal and formal education related to ocean, coastal, 
Great Lakes, weather, and climate sciences. This request will allow for 
10 to 14 competitive awards to be issued per year and directly 
addresses the educational mandate this Committee helped establish in 
the America COMPETES Act.
    The NOAA Corps officers play an essential role in NOAA, serving 
across all line offices. They serve at sea aboard NOAA's research and 
survey fleet, in flight aboard research aircraft that probe everything 
from hurricanes to snow cover, and ashore in NOAA's labs and offices 
throughout the United States. The NOAA request of $2.2 million will 
increase the number of officers by 22 from 299 to 321 as authorized by 
law. An expanded NOAA Corps will lower officer attrition rates by 
avoiding particularly long and arduous at-sea assignments.

Conclusion
    Overall, NOAA's FY 2010 Budget Request is a good budget for NOAA 
and provides a solid foundation for our future needs. The overall 
increase reflects the growing need for NOAA's infrastructure and 
services. I look forward to working with you, the members of this 
Committee, to achieving the goals I've laid out here through the 
implementation of the FY 2010 budget.
    Thank you for the opportunity to present NOAA's FY 2010 Budget 
Request. I am happy to respond to any questions the Committee may have.

    Senator Cantwell. Thank you, Dr. Lubchenco. I want to add 
my thanks to you on the recognition of the Doppler system that 
is necessary for the West Coast, particularly the Pacific 
Northwest, and the head of the Weather Service was there to 
basically meet with constituents from the Northwest from a 
whole myriad of industries and described really what is the 
necessary coverage to protect the citizens of the Pacific 
Northwest. So we appreciate including that in the budget this 
year and for the prior Administration's $2 million to work 
toward what is an implementation plan on that.
    Which brings me to the larger point about how NOAA meets 
its necessary obligations, and I think that is what we saw at 
that public meeting in the Northwest was that there was a 
responsibility of the Weather Service to provide adequate 
coverage, and now NOAA is going to live up to that.
    But starting in 2003, NOAA implemented a planning and 
programming budget and execution system for its annual budget. 
This process was to identify the funding required to fill and 
meet the mandate in mission. So this was referred to as their 
100 percent requirement.
    So, I want to ask you to begin with, to what degree do you 
think this 2010 request is sufficient to meet this 100 percent 
requirement for the agency as a whole?
    Dr. Lubchenco. Senator, thank you for the question. I 
greatly appreciate your interest in focusing our attention on 
this very important issue.
    I do believe that the proposed budget is a good budget for 
NOAA. As I mentioned, we have really worked hard to find some 
efficiencies and reallocate resources, where appropriate.
    I have not had an opportunity to go through the entire 
budget and calculate 100 percent of our requirements. I agree 
that that is a very appropriate thing to do. It is beyond the 
time that we have had to really dig into this since I began.
    However, it is very clear to me that as public demand for 
NOAA's environmental services grows from monitoring climate 
change, providing climate services, and improving severe 
weather forecasts, we are going to need significantly greater 
resources to address this demand.
    I think perhaps the most useful thing for me to do in 
response to your question is to provide some examples of 
programs where I have had an opportunity to see the difference 
between what we have in hand and what we think we could be able 
to provide.
    I would like to start with one specific program. The funds 
that were provided in the ARRA for habitat restoration for NOAA 
totaled $167 million. These are competitive projects. We put 
out a request for proposals and received 813 proposals from 34 
States, totaling $3 billion, and obviously, we have only $167 
million to allocate. Of that $3 billion, we deemed that $1 
billion of that was shovel-ready, high impact, and the 
remaining two, very viable projects for which we needed some 
additional information or development.
    A second example that I would highlight. We have a 
wonderful coastal and estuarine lands conservation program. The 
President's budget included $15 million for this CELP project 
or program, and we typically receive between $80 million and 
$100 million in viable high-quality proposals every year.
    On a completely different category, our high-powered 
computing, which provides information for weather, climate, and 
environmental monitoring, is an area where additional resources 
vastly enhance our capacity to provide better forecasts, better 
climate models, especially as we go to finer and finer scales.
    Senator Cantwell. Dr. Lubchenco, so you are giving me some 
specific examples, but I wonder if you could give me the number 
of what a full 100 percent requirement funding would be for 
NOAA.
    Dr. Lubchenco. I do not have that number, Senator.
    Senator Cantwell. But if you could get that number.
    Dr. Lubchenco. I look forward to looking into that and 
doing a complete analysis. As I mentioned, it is clear that 
almost every one of our programs is not at the level--or we 
could use additional resources very, very well, and we will do 
that calculation and get back to you.
    Senator Cantwell. Well, since NOAA implemented this 
process, we want to see if NOAA is living by the process. 
Obviously, you have to go through, just as every agency and 
Executive Branch submitting a budget proposal and a legislative 
process to confirm or concur with that or disagree with that. 
But having the agency do its own homework of what it really 
takes to deliver the resources within the agency is critical 
because otherwise we will never be able to have a discussion 
here if the agency cannot provide an assessment about what an 
accurate 100 percent requirement fulfillment would look like. 
So if you could give us that number, that would be great.
    Dr. Lubchenco. I understand the utility of that.
    Senator Cantwell. OK.
    You know what? I am going to stick with 5 minutes here. So 
I will let my colleagues. We will come back to NPOESS unless 
somebody else has some questions. Maybe my colleague from 
Georgia does, but I will turn to my colleague, Senator Begich, 
the Senator from Alaska.

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you very much, Madam Chair. I do have 
to leave at 11:30 a.m. So we are going to submit some questions 
in writing also.
    But if I can just follow up on the Chair's request, I am 
assuming that you prepared a document. I do not know what the 
rules are here, but I am new, so I get to have that rule that I 
do not know what the rules are, so I can say that. You probably 
submitted a document to OMB of what you thought was necessary 
to fund at 100 percent or at the higher levels. Is that 
document available for us to see and get to the answer that the 
Chairman has asked?
    Dr. Lubchenco. Senator, I apologize. I do not know the 
answer to that question.
    Senator Begich. Well, whoever is right behind you is 
writing that down. That is the question.
    But let me ask you, being parochial, about some Alaskan 
issues but also related to the West Coast. I know one item, the 
Pacific Coast Salmon Recovery Fund, which I think my colleagues 
from the western States are aware of--at one point was zeroed 
out. Then it was put back in, about $50 million, which is still 
below its recent year allocations of $80 million to $90 
million. As you know, the program deals with critical 
management to the West Coast salmon stock which indirectly and 
directly affects Alaska.
    How do you see those dollars and do you believe there is a 
need for additional dollars for that program to be successful?
    Dr. Lubchenco. Senator, let me first say that I have seen 
firsthand how important that program is. Both Secretary Locke 
and I believe the program is valuable and are committed to the 
important goals that it has. It is clear to me that that 
program is making good progress, is doing what it is intended 
to do, and yet there is still much work to be done in terms of 
recovering Pacific Coast salmon.
    I believe that the $50 million that was in the budget 
amendment is a good start. I believe that the $11 million that 
is in the Endangered Species Recovery Fund for the rest of the 
endangered species all around the Nation is an appropriate fund 
to have, but it is clear that $11 million will not begin to 
address all of the endangered species recovery needs that 
exist.
    Senator Begich. Well, you led me right into my second 
question which is the recent General Counsel's opinion. The 
Pacific Coastal Salmon Recovery Fund can only be used on 
endangered stocks. Alaska has no endangered stocks, but the 
management and utilization of the dollars are important. Rather 
than waiting until they are endangered, to actually do work 
ahead of time, I think the words you used were improve 
management, overfishing, and other elements.
    But how will you now use that? Will you follow that very 
restrictive policy, or are you going to recommend to us or are 
you going to do internal changes to allow flexibility as has 
been done in the past? Because that very restrictive really 
shrinks it down, and I think there is going to be a loss of 
capacity down the road. So do you have any comment on that?
    Dr. Lubchenco. When we were constructing the guidelines for 
the national Endangered Species Recovery Fund, we carefully 
chose the words ``at-risk,'' species that are at risk.
    Senator Begich. I did note that you used the word ``at-
risk.''
    Dr. Lubchenco. And that is intended to allow for exactly 
the kind of circumstances that you describe, Senator, where it 
is appropriate to begin activities before species are in the 
emergency room, if you will.
    Senator Begich. Very good. Thank you for that 
clarification.
    This is again strictly an Alaskan issue, but the Ketchikan 
dock where NOAA docks the Fairweather has been condemned, and 
the Alaska-based vessel--no offense to my colleague in 
Washington--is now in Seattle. What are the plans for capital 
improvement to fix that dock so that the Fairweather can come 
back and do its Alaska work from an Alaska base?
    Dr. Lubchenco. Senator, I do not have an answer to that, 
but I would be happy to look into it and get back to you on 
that.
    Senator Begich. That would be great, if you would not mind 
doing that.
    I have about 30 seconds left. So, I am going to ask you 
about a specific--it is basically an erosion of a NOAA facility 
funding in Alaska for the lab at Kasitsna Bay. It is the only 
West Coast lab in NOAA's national center for coastal and ocean 
research programming which partners with the University of 
Alaska. NOAA has just spent about $12.5 million to upgrade the 
facility, but even with that upgrade, they do not have the 
operational staff necessary. They have one staff person there, 
and at one point this year, we were told by the university that 
because of the lack of $50,000--$50,000--that the facility was 
about to be inactive. It is a pretty important facility, as you 
probably know.
    Do you think the budget you have prepared and proposed 
adequately funds and maintains that facility? Again, if you do 
not know the specifics of this, because I am very specific on 
this, you can surely come back in writing on that.
    Dr. Lubchenco. Thank you for that option and I will take 
it.
    Senator Begich. OK, thank you.
    Madam Chair, I apologize but I do have to leave for an 
11:30. But I have had two additional opportunities in--I think 
we keep running into each other in the last 2 days, and I 
appreciate your comments in your statement about climate change 
and that future resources are really going to be needed as we 
move down this path in research, as well as Arctic policy. I 
know that is a huge effort and a huge interest to the Chair of 
this Subcommittee too. So, thank you very much for those 
comments.
    Dr. Lubchenco. Thank you, Senator. And I really appreciated 
the remarks that you gave in Annapolis 2 days ago at the Arctic 
Symposium. I look forward to working with you on Arctic issues.
    Senator Begich. Very good. Thank you.
    Thank you, Madam Chair.
    Senator Cantwell. Senator Isakson?

               STATEMENT OF HON. JOHNNY ISAKSON, 
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Thank you, Madam Chairman.
    Welcome back, Dr. Lubchenco. During your confirmation, I 
told you I was going to extend to you an invitation to dive in 
the Georgia Aquarium. I wanted to give you a progress report. 
They have almost finished the expansion, and that invitation is 
forthcoming. I look forward to you having the opportunity to 
come down. She is a great scuba diver. They have now opened it 
up for that, and I thought it would be a lot of fun.
    In the confirmation hearing, I asked you about the Savannah 
River. In particular, the Corps of Engineers had requested of 
the National Marine Fisheries Services under NOAA, a request to 
lower the cubic-feet-per-second releases at the Savannah River 
down to 3,100 cfs from 3,600, and that was denied because of 
the short-nosed sturgeon. So for a period of time, that 
reduction was denied until the end of January, and then it was 
extended to the end of February. And to the best of my 
knowledge, I think it is still there.
    As I told you at that time, my understanding was that that 
was basically an opinion and there was not a lot of scientific 
data to back up whether or not the difference would affect the 
spawning of the sturgeon. Did you have a chance or have you had 
a chance to look into that?
    Dr. Lubchenco. I did, Senator. Let me share the following 
with you.
    As you know, NOAA is charged with conserving the short-
nosed sturgeon and it is listed as endangered. We are required 
by ESA to use the best available science in making our 
determinations. In situations where the best available science 
is not available and the information is not definitive, the 
benefit of the doubt has to be given to the conservation of the 
species. So that is just the context in which we are having 
this discussion.
    In the recent issue of the Corps of Engineers ESA 
consultation with NOAA on water release rates in the Savannah 
River, NOAA did apply the best available scientific 
information, consistent with the ESA. It is, I think, relevant 
to note that NOAA does not have its own capacity to conduct 
research on the short-nosed sturgeon, and what we did in this 
case was to depend on the research that has been done by 
academic scientists, State conservation agencies, NGO's, and 
other Federal agencies. So that was the base of information on 
which we drew in making the determination.
    NOAA continues to collaborate with the Corps and the Nature 
Conservancy. Since the recent consultation was completed, to 
develop better information on the areas that may support short-
nosed sturgeon spawning beneath the new Savannah Bluff Dam--and 
that dam, obviously, blocks or is blocking access to the 
spawning areas. One of the findings of that continuing research 
is that the spawning sturgeon did arrive at the dam shortly 
after the predicted start of the spawning season.
    So, I believe that we are using the best available science 
in making this determination. That said, I think additional 
scientific information would only be helpful in this case.
    Senator Isakson. Well, thank you for that answer. At the 
beginning of the answer, you said if the best scientific advice 
was not available, the preservation of the species governs your 
decision. Is that correct?
    Dr. Lubchenco. That is according to the Endangered Species 
Act.
    Senator Isakson. Which allows me, Madam Chairman, to raise 
a question, and you do not have to respond to this, but it 
allows me to say something. In Georgia, we have had two 
category-4 droughts: one in the Savannah River basin and one in 
the Apalachicola-Chattahoochee flat and the Apalachicola-
Chattahoochee-Tallapoosa. Level 4 droughts, as the doctor 
knows, are very severe.
    In fact, Atlanta, which has 5.5 million people--the 
reservoir that it depends on almost totally for its water was 
down 22 feet as far back as just about 6 months ago. And we had 
severe restrictions and severe problems. The increased cfs 
withdrawals from that reservoir were because of a mussel in the 
Apalachicola Bay.
    And it just seems to me, like in the Endangered Species 
Act, that when the endangerment of homo sapiens, which in this 
case, the citizens of northeast Georgia, and their water supply 
are in danger, there ought to be some judgment applied in these 
judgments on endangered species. I do not want any species to 
go away, but because of the mussels--fortunately, the good Lord 
gave us a lot of rain. The reservoir is filling up. The crisis 
is over. That is not true in the Savannah River basin yet.
    But somewhere along the way smarter people than me--and I 
think you are one of those--need to think about how we might 
take the Endangered Species Act and amend it so as to provide 
equal flexibility of judgment depending on all species affected 
by the waterway, not just the one in which there is litigation. 
That is the only comment I wanted to make.
    Dr. Lubchenco. Senator, I greatly appreciate many of the 
very challenging issues associated with implementation of the 
Endangered Species Act, and I think in this case we, in fact, 
were fortunate that the rains--it did not turn out as badly as 
it might have. The rains started, and in fact, as you 
mentioned, the reservoirs are filling up. So in this particular 
case, that was lucky, but I think the issues will remain 
challenging.
    Senator Isakson. Thank you very much.
    Senator Cantwell. Thank you, Senator Isakson.
    Dr. Lubchenco, I would like to talk about the National 
Polar-Orbiting Environmental Satellite System, known as NPOESS. 
An independent review team has said that the NPOESS program has 
an extraordinary low probability of success and cannot be 
successfully executed within the restraints of cost, schedule, 
and performance with the current management construct. So I am 
assuming you are familiar with that independent review team 
report. Is that correct?
    Dr. Lubchenco. More than I would care to be.
    Senator Cantwell. And I know that you mentioned that you 
and Secretary Locke are going to make it one of the highest 
priorities. But how will the Administration address the 
recommendations in the report?
    Dr. Lubchenco. Senator, you will recall that at my 
confirmation hearing, there was keen concern expressed about 
the NPOESS program, and I indicated that it would be one of my 
highest priorities. As you accurately note, Secretary Locke is 
keenly interested in helping to find a solution to this 
program.
    We now have the final report from the independent review 
team, and its conclusions are, indeed, sobering. I note that 
they begin by pointing out that this system is a critical 
national asset for both climate and weather information, and so 
there is a lot at stake here. It is clear that action is 
needed. The program as currently structured, as you note, has a 
very low probability of success.
    The findings and recommendations from the independent 
review team included assessing the priority and the level of 
participation from each agency, making launch adjustments, 
changes to the budget and cost estimates, and recommendations 
for the VIIRS instrument.
    What we have done is to engage in intense discussions with 
the other agencies that are involved in this program, the 
Department of Defense and NASA, and also with the Office of 
Science and Technology Policy to look critically at the 
recommendations of the independent review team and find a way 
forward.
    I believe that the discussions have been very honest and 
straightforward. I think we are making good progress to finding 
the right resolution. There are a number of options that are on 
the table now. So there is no final decision that is imminent. 
I think it is appropriate to say simply that as we continue 
these discussions, our intent is to work with the Committee and 
the other relevant committees and to identify the solution that 
actually will put this program back on track.
    I am more optimistic than I was when we first began looking 
into these challenges. I think the guidance from the 
independent review team is invaluable, and there is increased 
awareness that the current situation is simply not acceptable. 
So the funds that we have in the current budget are intended to 
keep us on track, but we are assuming throughout that we will 
be resolving the range of different issues identified by the 
independent review team, both the tri-management structure, the 
costs, the way the cost estimates are budgeted, and a number of 
the other issues that they identified.
    Senator Cantwell. Well, if I could probe more because, 
obviously, the report was pretty damning of the current 
process. This Committee, obviously, has oversight of a couple 
of different areas where acquisition programs are not going in 
the direction that we would like them to go and have had huge 
cost overruns and delivery of assets that have either not met 
specification, been delayed, or had to be adjusted. So this 
Committee clearly does not want to deal with another situation. 
In this instance, it has a new opportunity with the new 
Administration to move in a more direct route on this.
    I personally believe it is hard to get any kind of 
acquisition program done by committee. That is a very tough 
challenge.
    So who in the White House is responsible for the 
interagency coordination?
    Dr. Lubchenco. The original tri-management structure was 
set up through a Presidential decision directive through the 
Office of Science and Technology Policy. So Dr. Holdren, as the 
head of the Office of Science and Technology Policy, is 
intimately involved in helping facilitate the tri-agency 
dialogue to find a solution.
    OMB has been involved.
    Senator Cantwell. So, he is leading this effort?
    Dr. Lubchenco. He is leading this effort.
    Senator Cantwell. So the White House has a coordinated 
effort, and Dr. Holdren is the lead on that.
    Dr. Lubchenco. That is correct.
    Senator Cantwell. So we should call him to the next hearing 
we want to have about the NPOESS satellite? We should call him 
as the lead in the coordination of this?
    Dr. Lubchenco. That is obviously your call, but this is an 
interagency issue and OSTP is taking the lead.
    Senator Cantwell. My point is to get one point of contact 
and leadership about the problems. I want, obviously, each of 
the individual agencies to help in the resolution of this, but 
part of the problem is a $12.5 billion acquisition program 
divided by three agencies is not the way to get the oversight 
and leadership to make sure that the asset acquisition goes 
correctly for the American taxpayers and for the research that 
is needed out of the NPOESS system, which is, obviously, across 
these various agencies, very distinct and necessary needs for 
both military, for weather, for climate change, and for the 
future.
    Dr. Lubchenco. Senator, I think the intent of the tri-
agency structure was a good one in recognizing that there are 
legitimate civilian and military needs and it would seemingly 
make sense to have those be combined into a single program. But 
I think the evidence is very clear and the IRT, the independent 
review team, is very clear in its conclusion that the tri-
agency structure is not working and is not serving the program 
or the Nation and it really needs to be fixed.
    Senator Cantwell. So, how will you establish clear program 
priorities?
    Dr. Lubchenco. Within NPOESS, there are important military 
needs for weather to inform military operations. That is the 
portion of the program the Department of Defense is responsible 
for. NOAA's responsibility lies with information that feeds 
both weather and climate, and the orbits that are required for 
that information are different. And as the independent review 
team points out, so too is the quality of the data that are 
required by the Department of Defense and NOAA. As I understand 
it and as the independent review team points out, the 
Department of Defense's requirements are lower in terms of the 
quality of the data that suffices for their operations.
    The independent review team suggests--and I concur--that 
priority needs to be given to the higher requirement needs 
which in this case are for both continuity of climate 
information, as well as state-of-the-art information to inform 
weather forecasting, and that that priority is--that that is a 
higher bar and that if the program is to succeed, that bar 
needs to be met. So that has been one of the tensions in the 
tri-agency structure that has been addressed by the independent 
review team and for which we have some good recommendations.
    Senator Cantwell. For example? So strengthening the 
management of the program, besides having the White House and a 
key person in the White House taking the lead, what else are 
you doing? We just talked about clear program priorities, but 
what else are you doing to strengthen?
    Dr. Lubchenco. Program priorities are important, but so too 
is having a better decisionmaking process, a better management 
process, and there are four different options that are on the 
table that are currently being reviewed in terms of different 
configurations that would result in clear management authority 
and responsibility. Those four have not yet been resolved. 
There is an active discussion. There are pros and cons of 
different ones.
    Currently the decisionmaking process involves an Executive 
Committee, a so-called EXCOM. And there are three individuals 
that sit on the Executive Committee. That committee should have 
authority to make decisions. That was the way it was set up. 
That was the intent. In reality, one of the three people who 
sits on that committee does not have authority to make 
decisions. So that has been one of the areas that the 
independent review team has pointed out has been problematic. 
So that clearly has to be resolved if the current configuration 
stands.
    Senator Cantwell. Could you inform us at the time that you 
are narrowing in on this process so the Committee can be 
informed about that? Because, obviously, this is a budget 
increase of 30-some percent, and while we want to make sure 
that the program is developed, at the same time asking for the 
additional resources without the improved structure and 
decisionmaking will be a disaster. So, if you will get us that 
information. I am assuming that new alignment is going to 
happen shortly. I think we should have Dr. Holdren come back at 
some point in time, given the importance of this system for so 
many different national needs.
    Dr. Lubchenco. Senator, let me say that the reason that we 
are moving ahead with the budget request in this year's budget 
for NPOESS, in parallel to fixing these problems, is simply 
that any delay in the program, any further delay in the 
program, puts it at risk because of the loss of continuity of 
the climate and weather data.
    Senator Cantwell. Well, this Committee is very well aware 
of Coast Guard needs that are part of the Nation's national 
security, but when we are presented with boats that don't float 
or holes that have to be realigned, no one has been served by 
that process. So, this Subcommittee is very well aware in the 
acquisition process of the many challenges. So, we want to make 
clear that as we are going through with the budget process, 
that the new structure and oversight of this process is not 
done by committee where no one individual feels the key 
responsibility.
    I think the hierarchy that you have outlined of a key White 
House contact with each of the agency's tightening up their 
line of responsibility I think is a good plan. We would like to 
hear more about it. So as your agency works with this, if you 
would inform the Committee on the process and decision you are 
going to follow, that would be very helpful.
    Dr. Lubchenco. I would be happy to.
    Senator Cantwell. Great. Thank you.
    Dr. Lubchenco. And thank you for your interest in helping 
us fix this.
    Senator Cantwell. Thank you. Well, we believe very much in 
the importance of the data that needs to be collected and the 
missing gap that we think is currently there on climate change, 
and only this kind of satellite structure will be able to give 
us that information in addition to the very important day-to-
day functionality that it provides to us on weather and other 
issues.
    Speaking of climate, if I could switch gears to that and 
the priorities of the agency because NOAA, obviously, has a 
very important role in both helping us understand climate 
change and managing the impacts on the oceans. There are 
countless research topics in which NOAA could invest, and 
obviously, with the budget that you have now, that makes it 
very challenging.
    So I wanted to find out about phytoplankton which, 
obviously, is very key because in the ocean it produces 90 
percent of the world's oxygen. So loss of that phytoplankton 
will literally have an unbelievable impact.
    So is NOAA conducting research now on how phototrophs are 
being impacted by climate change and what it means for the 
oceans and what else we need to be doing?
    Dr. Lubchenco. Senator, there are both direct impacts of 
climate change on the microscopic plants of the oceans, the 
phytoplankton, but there are also impacts mediated through 
ocean acidification, and NOAA has research activities looking 
at impacts of both climate change and ocean acidification on 
these phytoplankton. You are absolutely correct that they are 
critically important to all of life in the oceans as the base 
of the food web, and in addition, they do, indeed, provide most 
of the oxygen that we breathe as well as other critical 
services.
    This is an area where we do have good viable research. It 
is not at the level or scale that it needs to be to be 
maximally effective. So this is another area that could benefit 
from enhanced resources.
    Senator Cantwell. And what would that be? What would the 
advantages be and what would the additional needs be?
    Dr. Lubchenco. Let me focus on ocean acidification just as 
a little more concrete piece. The ocean acidification 
currently--this is a new problem that we have not really been 
aware of until relatively recently. Anything that has a shell 
or a skeleton is affected by changes in the acidity of the 
ocean. Many of these microscopic plankton have shells, and 
therefore changes in the level of acidity and changes in other 
aspects of ocean chemistry affect how productive ocean waters 
are.
    This year's budget has essentially a down payment on ocean 
acidification research, if you will. And I am looking for my 
actual numbers here. Thank you. We have requests for $9.9 
million for research on ocean acidification, and that is an 
increase of $5.5 million. And it goes to both ability to 
actually monitor how the acidity is changing. That is one 
fraction of that, and the other is laboratory research to 
actually look at the impacts of those changes in ocean 
chemistry on phytoplankton and other species that have shell or 
skeleton.
    So that amount is as much as we could manage within the 
constructs of this year's budget, but there is a lot more 
research that would give us a much better understanding of what 
is likely down the road. It is not just the microscopic plants, 
but there are animals that have shells or skeletons that are 
also affected, and some of those animals, for example--one is 
called terrapods--are the food for salmon and the food for 
pollack. So understanding how changes in the food sources are 
going to affect those species is critically important.
    Senator Cantwell. How they are already affecting the 
species.
    Dr. Lubchenco. They are already, undoubtedly.
    Senator Cantwell. Let me ask it differently then. If the 
health of the oceans was ranked on a scale of A being the 
healthiest, F being failing, where would we be right now in 
your assessment, given the gravity of this situation with 
acidification?
    Dr. Lubchenco. At the global scale, oceans are seriously 
depleted and disrupted. I have not actually thought about 
giving them a letter grade. It is clear that they are not 
healthy and that----
    Senator Cantwell. So not passing.
    Dr. Lubchenco. Not passing. They are definitely not 
passing.
    Different parts of our coastlines and oceans are in trouble 
more than others, and one of the needs is to have more 
cohesive, comprehensive ways of bringing oceans back to health 
instead of managing activities one sector at a time; a more 
comprehensive marine spatial planning, for example, on an 
ecosystem basis which can provide a blueprint to recovering, 
restoring coastal and ocean areas to a healthy state. I cannot 
give you a dollar amount for what that would cost, but it is 
not just a research enterprise. It is also integrating across 
management and policy decisionmaking that is in order and is 
being recommended.
    Senator Cantwell. Well, what I am interested in is your 
mention of further research that could be helpful. Our Tuesday 
hearing definitely illuminated this issue, many of the 
panelists saying that more information about the impacts would 
help us in moving forward on conclusive findings that this 
acidification is happening and the problems with it so that we 
could actually do more in tackling it. Now, obviously, we need 
to pass climate legislation to reduce the CO<INF>2</INF> impact 
that is creating this problem as it relates to the oceans.
    But we are seeing this in the Pacific Northwest today, and 
it is alarming. To have a $100 million shellfish industry 
literally be brought to its knees by the bacteria and problems 
that we are seeing as a result of this--it is overnight. It is 
instant. It is not like you are having a degradation of--it 
would be like having an entire wheat or corn crop just wiped 
out in 1 year, not you losing 15 percent, but if you cannot get 
the seeding, you are not going to have a shellfish industry. So 
the impacts of this we are seeing now, and they are 
devastating.
    So what else do we need to do on the research side to prove 
to people that we are at this state? I would definitely give 
that an F. And I would say that if this is an indicator of 
where this is heading where we have these viable aquaculture 
industries, then we are going to see even more dramatic--it is 
not going to be isolated in the Pacific Northwest. We are going 
to see this kind of economic impact all over the country.
    Dr. Lubchenco. I think that is a prime example of many of 
the changes that are already underway.
    Another one that is off your coast is the appearance, the 
novel appearance of dead zones off the coast of Oregon and 
Washington, for which the evidence is most likely that this is 
a result of climate change. Those have appeared in the last 7 
years, and before that, at least the 60-year record for which 
we have good information, that is completely unprecedented. So 
there are, indeed, changes underway already and more likely 
down the road.
    And we do not have the research enterprise that we need to 
completely understand, predict the likely consequences, and 
have that be better informing management and policy. I think 
what we have is good. It is just not at the scale that is 
needed.
    Senator Cantwell. Well, I think we should attempt, given 
this situation being at a crisis level, to get that and get to 
that point.
    Well, let me ask you about adaptation because I think we 
will come back and talk to you about this from an acidification 
perspective and research. On adaptation, are there programs now 
that people like these shellfish farmers and others can turn to 
for adaptation?
    Dr. Lubchenco. There are small programs that are intended 
to help advise shellfish growers, for example, through the Sea 
Grant program and other research program that has been 
informing the shellfish industry. But that has not been focused 
so much on adaptation to climate change, and this is a whole 
new arena for which we really do not have the priorities 
identified or the scale identified that would be appropriate.
    It is clear that because climate change is already underway 
and there are more changes down the road, thinking about 
adaptation is best done sooner rather than later. There is 
currently an interagency working group that the Administration 
has set up to think about adaptation to climate change, and 
that is intended to focus not only on adaptation of human 
infrastructure, especially in coastal areas, but also 
adaptation for agriculture, for aquaculture, for fisheries, and 
for other parts of the natural world.
    That dialogue is in its very early stages. It is an effort 
that is co-chaired by the Chair of the Council on Environmental 
Quality, Nancy Sutley, by John Holdren, the head of OSTP, and 
by me. I am hopeful that it will be a productive dialogue about 
where do we need to go with adaptation, but it is just in the 
early stages.
    Senator Cantwell. Well, on this individual instance, 
obviously, we are going to be requesting help on behalf of this 
industry, but you can imagine we would rather have a process 
that NOAA is working with managers and decisionmakers who can 
help us in the risk assessment and vulnerabilities and with the 
research on the science that is necessary to help in this area. 
So I would encourage you to formalize that and to move forward 
with it as quickly as possible.
    I wanted to ask a couple more questions, if I could, on 
various topics. One of them is about NOAA's oil spill response 
office and the current backlog of its ecological sensitivity 
maps. These are used in decisionmaking. I do not want to let 
your spatial comment go unnoted. I think you are right. I think 
we need to move more toward ecosystem-based restoration and 
management, and that kind of spatial planning will help us. In 
doing so, we really are running into cross purposes where 
people are wanting to site renewable energy facilities in the 
same place that are critical fishing and aquaculture areas. So 
all sorts of, I think, decisions could be better facilitated 
with the kind of mapping.
    But ecological sensitivity maps are important for our oil 
spill response as well, and during the Cosco Busan spill in San 
Francisco, responders relied on NOAA's maps to identify the 
areas needed. But NOAA's maps for some of the outer coasts are 
very outdated, 25 years old.
    So what do we need to do to increase the efficiency and 
effectiveness of this mapping system and the backlog?
    Dr. Lubchenco. The hydrographic surveys that NOAA conducts 
are, I think, not happening at the pace that they need to. So 
we have an exclusive economic zone that is 3.4 million square 
nautical miles, and NOAA's goal is to survey 10,000 square 
nautical miles each year. With the funds that we have in the 
2010 budget, we will do 32 percent of that stated goal; i.e., 
we will be able to survey 3,200 square nautical miles. So 
clearly, we are not even keeping pace with our own goals, our 
own aspirations for the rate at which we think we need to be 
doing this. So you have identified, I think, an important 
challenge.
    The Office of Response and Restoration has activities above 
and beyond just the mapping, and using that technology to 
identify where oil spills are likely to go and what the 
appropriate responses are is, obviously, the goal of that 
program. The current budget request includes $19 million for 
the Office of Response and Restoration. I think this funding 
level creates very serious challenges for the program, and I 
think this is yet another area where it would be appropriate to 
work with you to identify the level that would be appropriate.
    Senator Cantwell. Thank you.
    I have a couple of other questions about efforts on 
regional cooperation and partnerships. My colleague from 
Alaska, obviously, talked about the Pacific Coastal Salmon 
Recovery Fund, and I just want to make sure that NOAA is 
committed to funding this program in future years.
    Dr. Lubchenco. Secretary Locke and I are committed to this 
program.
    Senator Cantwell. In future years.
    Dr. Lubchenco. In future years.
    Senator Cantwell. Thank you. Obviously, what is being 
currently requested is a cut from the 2009 level, and so as you 
can see from my colleague, this is very much a regional issue 
and one that we are going to, obviously, try to address here in 
the process. But it has been very successful, and we hope that 
it will get the focused attention from NOAA that it deserves.
    The Puget Sound partnership. I asked you during your 
confirmation hearing about this because it has also been a very 
innovative and collaborative science-based effort to manage the 
Puget Sound environment. I could be asking this question for my 
colleague from Virginia about the Chesapeake or other regions 
of the country.
    But will NOAA invest in these kinds of efforts to continue 
the partnerships so that they can be effective in implementing 
the kinds of resolutions that are about these parts of our 
waterways and ocean systems?
    Dr. Lubchenco. NOAA has been an active participant in the 
Puget Sound Partnership and, I believe, is doing some very 
innovative and useful work to provide much of the science 
underpinning the development of the management plans and the 
implementation. I think that is a very appropriate partnership. 
I think it is a model for other places around the country. I 
think the relationships and the work that is being done is 
actually very exciting. A lot of the science is very cutting-
edge and is really, I think, providing good guidance for the 
decisions that are being made.
    Could it be ramped up to a higher level? Yes. Would that 
increase be helpful to the project? Undoubtedly.
    Senator Cantwell. Well, would it not be better if we had a 
specific pool of funding--if NOAA was able to support this work 
in a more coordinated way? I mean, I look at these issues from 
the Great Lakes, as I said, to the Chesapeake, to Puget Sound, 
to these other waterways, and their importance to their regions 
economically and environmentally. Would a more specific program 
not be better able to target and then target how you 
specifically as an agency could best help?
    Dr. Lubchenco. I do not have an answer to that. The 
challenge, I believe, is that each of those areas has slightly 
different issues, and the partnerships are structured in a 
different way. I think the way that NOAA relates to each needs 
to be appropriate to whatever that particular partnership is. 
That said, it does not preclude having a dedicated program for 
those kinds of interactions. I have not thought about the pros 
and cons of that approach.
    Senator Cantwell. And scalability.
    Dr. Lubchenco. And scalability.
    Senator Cantwell. And oversight and science. I mean, some 
of the numbers that come out on these things and on resources 
are very different to what the Great Lakes is focused on and 
funded at. So I think having something that is a more formal 
program helps in establishing what are our national objectives. 
They are regional resources with huge national economic impact.
    Dr. Lubchenco. And huge leveraging capacity.
    I think the discussion might be broadened to include many 
of the coastal regional programs that are developing around the 
country in, I think, a very exciting fashion where States are 
working together to create management and policies for the 
waters adjacent to their shores, in the Gulf of Mexico, the 
Mid-Atlantic States, the Gulf of Maine, the West Coast, the 
West Coast Governors Agreement, for example, on ocean health. 
Those, too, are regional efforts that should be supported by 
good Federal-regional partnerships.
    Senator Cantwell. I agree. I guess what I am getting at is 
that--this Committee definitely is going to be more focused on 
elevation of the oceans and waterways and the health of the 
oceans and waterways and trying to focus our national attention 
at what a critical--as you said, not a passing grade that they 
currently have and what we need to do to really restore them to 
their health. So we are definitely going to shine a bright 
light on that, and this is just one of the examples where we 
think a more coordinated effort at the national level would be 
helpful.
    If I could, there is another program my colleague, Senator 
Murray, has been very involved in for many years. It is another 
example of innovation and coordination, and that is the 
Northwest Straits program. It is an initiative, and it is 
basically a community-based program for restoration activities. 
So it really focuses on the science-based conservation and 
restoration.
    What do you see those kinds of programs at the regional 
level--what kind of potential do you see for those like the 
Northwest Straits and other community-based programs where we 
are working to coordinate these many resources to address our 
shortcomings?
    Dr. Lubchenco. That particular program is often held up as 
a nice model of local citizens' action in partnership with 
counties, States, and tribes in the region. I think that that 
program has made very good progress in doing habitat 
restoration, the kinds of things that have been identified by 
locals as useful and relevant and that they want to work on.
    I think its utility and effectiveness could be enhanced 
with stronger connection to science-based information and 
transfer of information from one program like that to another. 
I think there are a number of different areas where there could 
be significant improvement in the effectiveness of programs 
like that. I think it is a really nice beginning on which one 
could build.
    Senator Cantwell. Well, I think the interest that we have 
from a Northwest perspective is that these collaborative 
efforts, given the solutions to our problems are more often 
than not the coordination of theses various entities taking on 
new roles and responsibilities or cutting back on current 
activities and reshaping them--we have found much leverage in 
the up-front addressing of those issues by that collaborative 
process. We have gotten much more to the resolution of a 
solution and implemented that resolution as opposed to, I would 
say, other regions who followed a traditional court or legal 
battle and then, consequently, years or decades before they 
implement anything. So, I hope the agency would continue to 
look at these as very collaborative efforts within regions and 
getting many entities, various government entities, and 
communities to do the right things as it relates to the health 
of our oceans and waterways.
    Well, Dr. Lubchenco, I think that is the questions that I 
have today. We might have some more that will be submitted from 
our colleagues. Again, we thank you for being here to testify 
about the NOAA budget.
    As I mentioned, we believe that we should move more toward 
an organic act here so we can formalize this process even more. 
If we are really, truly to get to the level of addressing the 
needs of our oceans, I think we are going to have to do so by 
proving the validity of programs and the basis for why we are 
requesting the increase. So we will look forward to working 
with you on that in the future.
    So this hearing is adjourned.
    [Whereupon, at 12:12 p.m., the hearing was adjourned.]

                            A P P E N D I X

          Prepared Statement of Hon. John D. Rockefeller IV, 
                    U.S. Senator from West Virginia

    This has been an exciting week for our oceans, starting out on 
Monday with World Oceans Day, and celebrating Capitol Hill Ocean Week. 
As Chairman of this Committee, I am very proud that we have taken the 
time, with Senator Cantwell's leadership, to highlight the great 
economic and environmental wealth that our oceans and coasts hold.
    I am very pleased that the Committee will be hearing from The 
Honorable Jane Lubchenco, Administrator of NOAA, today as we discuss 
our oceans, climate change, and many other important issues in the 
context of the National Oceanic and Atmospheric Administration's Fiscal 
Year 2010 budget hearing.
    This past Tuesday, the Committee discussed the importance of the 
blue economy to our Nation. We discussed the critical jobs and economic 
opportunities that emerge from our oceans, Great Lakes, and coastal 
resources. We started a dialogue that we will continue here today about 
the need to preserve the value of our ocean and coasts in the face of 
climate change.
    Simply put--our oceans are in peril. Pollution harms the animals 
that live in the sea, the foods we eat, and the beaches that Americans 
hold dear. There are areas of the ocean that are now so oxygen-depleted 
that animals can no longer exist.
    The oceans are also becoming more acidic, which reduces the 
productivity of our fisheries and shellfish harvests by literally 
dissolving organisms and disrupting the food web. Climate change is 
further exacerbating all of these problems and threatens the economic 
and environmental viability of the oceans--a critical global resource 
that covers seventy percent of the surface of the Earth.
    We rely on NOAA to take these threats head-on to help Americans 
respond to climate change and to maintain the U.S. economy. Dr. 
Lubchenco, your leadership and your insight are critical to the 
Nation's well being. NOAA is the Nation's premier science agency 
charged with managing, restoring, and conserving our coastal and marine 
resources, in addition to understanding and predicting changes in our 
weather and atmosphere.
    The President's FY 2010 Budget Request for NOAA was $4.48 million. 
I do not believe this request is adequate. The agency needs to meet its 
current mandates and prepare the Nation for the impacts of a changing 
climate. The current budget number will not get us there.
    NOAA is the premier ocean-science resource in the United States. 
The agency is critical to our understanding of climate change and 
helping communities adapt. This is a time for action to make sure we 
are protecting our oceans and coasts and the wealth of resources that 
they provide for the future. I hope the Administration will take bold 
action and answer the call to double the NOAA budget.
    NOAA must have additional resources to:

  <bullet> Better predict, monitor, model, and understand the effects 
        of increasing carbon dioxide emissions on the oceans, rising 
        sea levels, and other climate impacts;

  <bullet> Establish a National Climate Service to provide the tools to 
        help our communities and industries adapt to climate change; 
        and,

  <bullet> Create new blue jobs in oceans and human health, 
        aquaculture, renewable energy, and ocean science and 
        management.

    Dr. Lubchenco, thank you for your testimony before the Committee. I 
look forward to leading the charge to strengthen NOAA's budget and to 
working with you this Congress.
                                 ______
                                 
  Prepared Statement of Hon. Olympia J. Snowe, U.S. Senator from Maine

    Thank you, Madam Chair, for calling this hearing today to address 
the issue of the National Oceanic and Atmospheric Administration's 
budget request for Fiscal Year 2010. It is only appropriate that we 
convene today, as we approach the end of Capitol Hill Oceans Week, to 
discuss the financial future of NOAA, and I thank Dr. Lubchenco for 
being here.
    Just this past Tuesday, this Subcommittee held a hearing on the 
future of the ``Blue Economy''--focusing on the ocean's contributions 
to our National economic well-being. The figures that emerged in the 
course of that discussion were staggering: the 80 percent of Americans 
living in coastal and Great Lakes states generate fully 83 percent of 
America's economic output, contributing $11.4 trillion to our GDP. Yet 
despite the mounting pressure on these resources, Federal spending on 
ocean programs has decreased nearly sixty percent in real dollars since 
1970. Testimony at the hearing detailed the need for greater funding 
for baseline data such as that gathered by the Integrated Ocean 
Observing System, as well as continued and enhanced evaluation of the 
economic contribution of our oceans' ecosystem level services. We must 
be able to articulate the dollar value of beaches as a tourism 
destination, estuaries as buffers from violent storm surges, and 
healthy reefs as nurseries for our fisheries. Until we understand our 
oceans' true contributions to the National economy, critical programs 
will remain underfunded.
    I recognize that the President's $4.48 billion request for NOAA in 
Fiscal Year 2010 represents an increase of 2.5 percent over last year's 
appropriated levels. This is a clear improvement, yet current funding 
levels are simply insufficient to deal with the problems of climate 
change and increased population pressure on coastal regions. That is 
why Senator Cantwell and I sent a letter to our colleagues on the 
Senate Appropriations Committee last month asking that they support 
funding for NOAA this year of $5 billion. Today, I lend my support to 
the growing call to double NOAA's budget by 2012. It is high time that 
investment in our Nation's oceans reach a level consummate with their 
contribution to our economy.
    With that in mind, Dr. Lubchenco, I commend you for your early 
efforts to bolster your agency's funding levels. In particular, I want 
to thank you for your commitment to our Nation's fisheries. This budget 
requests $911 million to fund the National Marine Fisheries Service. 
$98.3 million is flagged for Magnuson-Stevens implementation, more than 
double last year's total. Landings of all U.S. fisheries in 2007 
exceeded $4.1 billion--more than NOAA's entire budget for that Fiscal 
Year, so this effort is clearly warranted. Specifically, I thank you 
for all your efforts to help defray the costs of organizing and 
monitoring the new sector management system in the New England 
groundfishery by allocating $16 million from the FY 2009 budget, and 
now $18.6 million of the President's request for FY 2010. I hope you 
will urge the Administration to approve your spend plans immediately so 
this funding along with the $170 million in habitat restoration and all 
of NOAA's funding allocated in the American Reinvestment and Recovery 
Act.
    Stimulus funding will also be integral to our efforts to rebuild 
our populations of wild Atlantic salmon. NOAA, along with the U.S. Fish 
and Wildlife Service, is currently in the final stages of determining 
whether to list Atlantic salmon in the Penobscot, Kennebec, and 
Androscoggin Rivers, the three largest rivers in the State of Maine, as 
threatened or endangered. If the agencies find an endangered listing is 
warranted, it would place great economic strain on the state of Maine, 
as these rivers would likely be designated as critical habitat, 
severely restricting industrial activity in two-thirds of the state.
    Ultimately, all NOAA's efforts must be supported by sound, 
consistent science, and I am disappointed that funding for the 
Integrated Ocean Observing System--which provides data to bolster 
NOAA's work across all line offices and all geographic boundaries--was 
cut more than 20 percent below 2009 enacted levels from an already 
paltry $26.5 million in 2009 to just over $21 million. In March, 
President Obama signed a bill into law authorizing IOOS. Unfortunately, 
this budget fails to capitalize on the remarkable opportunity to 
demonstrate a commitment to this program that benefits all Americans. 
In our meeting last week, Dr. Lubchenco, you stated that, as a 
scientist, you recognize the value of IOOS and share my concerns. I 
expect that in future years, we will see that concern reflected in 
NOAA's budget requests.
    The bottom line is NOAA cannot continue to do more with less. We 
must instead take the next step, reach for the necessary commitment of 
resources, and at long last, enable NOAA to do more with more. Once 
again, I thank you, Dr. Lubchenco for appearing before us today, and I 
thank the Chair for convening this hearing.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                         to Dr. Jane Lubchenco

    Question 1. What is the current state of knowledge on the role of 
black carbon and other aerosols in climate change?
    Answer. Aerosols (fine particles suspended in air) generally lead 
to cooling of the atmosphere and are estimated to be currently 
offsetting as much as 35 percent of atmospheric warming from greenhouse 
gases, such as carbon dioxide, methane, nitrous oxide, and tropospheric 
ozone. Black carbon (or soot) aerosols are of particular importance to 
climate because, in contrast to most other types of aerosol, they have 
an overall warming effect on the Earth. The net effect of aerosols on 
climate is determined by the combined presence of both cooling and 
warming particles; climate studies must therefore consider both black 
carbon and other aerosols together when evaluating the overall 
contribution of aerosols to climate change.
    Aerosols are very short-lived in the atmosphere and their abundance 
(and hence their influence on climate) decreases rapidly if their 
emissions are reduced. Black carbon is implicated in the rapid warming 
of the Arctic because it darkens the color of sea ice, which causes 
more heat to be absorbed and generally leads to greater melting. Black 
carbon is also a pollutant, with direct negative effects on human 
health.
    In order to better understand the role of black carbon and other 
aerosols in climate change, there are several key questions that will 
need to be addressed:

        (1) How much of the emissions are natural and how much are 
        human influenced;

        (2) How much of the human-influenced emissions come from which 
        specific sources (information that is essential for any 
        regulatory action);

        (3) What are the other influences of black carbon and other 
        aerosols, particularly, their ability to alter clouds (and thus 
        alter heating or cooling) and precipitation; and

        (4) What are the spatial distributions and properties of black 
        carbon and other aerosols, and how do these properties change 
        in the atmosphere?

    Question 2. What is NOAA currently doing to study, measure, and 
monitor black carbon and other aerosols?
    Answer. NOAA's on-going activities related to black carbon and 
other aerosols include:

        (1) Sponsorship of an international effort to review the 
        current state of the scientific understanding of the role of 
        soot in climate change;

        (2) Monitoring variability and trends of aerosols and their 
        climate-forcing properties at non-urban ground stations;

        (3) Quantifying abundances, properties, and composition of 
        aerosols using NOAA's aircraft and ships via period intensive 
        field campaigns;

        (4) Research measurements of emissions of black carbon from 
        ships and quantifying the emission factors from ships;

        (5) Quantifying optical, small-scale physical, and chemical 
        properties and transformations of black carbon and other 
        aerosols in the atmosphere and in the laboratory;

        (6) Research measurements of the vertical distribution of 
        aerosols using aircraft-based and remote-sensing instruments;

        (7) Development and field testing of highly sensitive and 
        selective instruments for measurement of black carbon in the 
        atmosphere;

        (8) Calculating the climate warming from black carbon using 
        climate models and data that is available; and

        (9) Calculating the effects of black carbon and other aerosols 
        on clouds and climate using a variety of advanced computer 
        models.

    As one example, NOAA carried out a major field study to investigate 
the role of black carbon in the Arctic as a part of the International 
Polar Year studies (March 2007-March 2009). This study included 
measurements of soot emissions from ships, measurement of vertical 
distribution of soot, and monitoring black carbon from a few monitoring 
sites. NOAA's research efforts have resulted in scientific 
breakthroughs, communicated in a paper published by NOAA scientists 
tracing springtime haze in the Arctic to wildfires in Siberia and 
agricultural burning in Kazakhstan. Scientists studied 50 haze plumes 
during an airborne field experiment known as ARCPAC, the Aerosol, 
Radiation, and Cloud Processes Affecting Arctic Climate, conducted in 
April 2008. These examples demonstrate the feasibility and promise of 
NOAA's research efforts and these results can help answer the many 
outstanding questions concerning the climate effects of aerosols.
    NOAA's demonstrated capability in climate and chemistry modeling is 
essential for providing information about why past changes have 
occurred, what the ``climate baseline'' is now, and what can be 
expected when emissions are altered. NOAA's models can quantify the 
effect of changes in emissions of black carbon and other aerosols on 
both climate and air quality. These models can also be useful in 
predicting what will happen in the future, with and without emission 
regulations--providing critical information for decision-makers.

    Question 3. Does NOAA require any additional capacity to study 
black carbon and other aerosols?
    Answer. The President's Budget request for FY 2010 supports NOAA's 
capability to continue to investigate the impact of black carbon and 
other aerosols on climate and air quality. With respect to performance, 
these investments will help reduce uncertainty in model simulations of 
how North American aerosols influence climate.
    Aerosols tend to stay in the lower atmosphere for a week or so, and 
hence they are highly variable in space and time. Further, they undergo 
transformations in the atmosphere that alter their effects and 
residence time. NOAA's ongoing efforts, supported by the FY 2010 
President's request, include: intensive field studies; continued long-
term monitoring of aerosols; improved measurement methods; a robust 
emission inventory of aerosols and their precursors; modeling, 
predicting and analyzing the impacts of proposed mitigation actions on 
climate change; and an integrated evaluation of aerosol forcing of 
climate.

    Question 4. What efforts are underway within NOAA to monitor and 
measure the carbon cycle in the oceans, atmosphere, and on land? How 
much funding does NOAA dedicate to this effort?
    Answer. NOAA has conducted sustained efforts to monitor and measure 
the carbon cycle in the atmosphere and oceans for 40 years. Today, NOAA 
spends approximately $13 million annually on monitoring and measuring 
the carbon cycle in the atmosphere. Efforts include taking observations 
from the ground, air, and tall towers. Ground-based, high-accuracy 
measurements include weekly samples from approximately 80 sites 
globally and an intensive effort to measure vertical profiles from 9 
tall (1,000 ft) towers in North America. The latter of these efforts is 
in support of the U.S. Global Change Research Program North American 
Carbon Program (NACP). Flasks of air are analyzed for over 50 
greenhouse gases and tracers to aid in this analysis. Vertical profiles 
from aircraft are obtained bi-weekly at 14 sites over the United States 
as part of the NACP, and to help validate emerging NASA satellite 
retrievals of greenhouse gases (currently limited to carbon dioxide and 
methane).
    NOAA maintains the World Meteorological Organization World (WMO) 
Calibration Center for carbon dioxide, methane, and other greenhouse 
gases and is considered the world's leader in this effort. NOAA's 
measurements of greenhouse gases constitute about \2/3\ of the global 
network for monitoring these gases through the WMO's Global Atmospheric 
Watch program. NOAA's CarbonTracker tool harmonizes these measurements 
into useful regional-to-global mapped information, including estimates 
of regional sources and sinks, and is widely considered the best 
available analysis to date.
    The Global Ocean Observing System includes ocean carbon networks, 
and NOAA currently spends approximately $3.4 million on sustained ocean 
observations directed specifically at monitoring the ocean's role in 
the global carbon cycle. In addition, the FY 2010 President's Budget 
includes an increase of $4 million for ocean acidification monitoring 
efforts. This activity will equip existing data buoys with additional 
sensors to monitor changes in the pH of the global ocean that result 
from the uptake of emissions, in particular carbon dioxide.
    In addition to the sustained observations discussed above, NOAA 
also competitively awards funds for global carbon cycle research, and 
the amount spent on this research in FY 2008 was approximately $4.5 
million. Competitive funding for such projects continues in FY 2009 and 
is planned for FY 2010.

    Question 5. Is there a need for a comprehensive greenhouse gas 
monitoring and measuring system? If so, what are the benefits of such a 
system and what would be necessary to develop such a system?
    Answer. Yes, there is a need for a comprehensive greenhouse gas 
monitoring and measuring system, particularly in light of national 
goals to reduce greenhouse gas emissions. No large-scale emission 
reduction effort has ever succeeded without reliable, independent 
verification of current emissions. This was true for reduction of 
chlorofluorocarbons, which were contributing to the ozone hole. Routine 
monitoring of the atmosphere and scientific assessments informed 
policymakers at the national and international levels on the degree of 
success in reducing emissions. This is also true for emission reduction 
efforts for air quality, where ozone is monitored and assessed, and 
also for acid rain, where the acidity of rain and lakes is monitored 
and assessed. Efforts to reduce greenhouse gas concentrations will be 
far more complex than previous emission reduction efforts. Because 
climate change is a global problem, addressing it through greenhouse 
gas emission reductions and offsets will necessarily involve 
coordinated efforts at the international, national, state, and regional 
levels. This issue cuts across political divisions and economic 
sectors, such as energy, transportation, forestry, and agriculture. The 
Nation and world need an objective, authoritative, and consistent 
source of consolidated, reliable, and timely climate information to 
evaluate which efforts are effective and which efforts need 
improvement.
    Current greenhouse gas monitoring systems implemented by Federal 
science agencies are designed to support research to understand the 
role of the carbon cycle and gases and aerosols in climate change. 
However, the growing need for scientific verification and support for 
efforts to mitigate climate change requires a more comprehensive 
monitoring system. Such a system would combine space-based and ground-
based assets, self-reporting, carbon-cycle modeling, fossil-fuel use 
data, land-use data, meta-analysis, and an extensive distribution 
system to provide information about sources and sinks of greenhouse 
gases at policy-relevant temporal and spatial scales. Such a system 
would need to be developed over the next decade with cooperation among 
Federal agencies, such as the National Aeronautics and Space 
Administration, National Science Foundation, Environmental Protection 
Agency, Department of Transportation, Department of Energy, Department 
of Agriculture, Department of the Interior, and international partners. 
NOAA, with its extensive experience in long-term global monitoring of 
greenhouse gases, is capable of providing leadership to such an effort.

    Question 6. How will the Administration address the recommendations 
in the NPOESS Independent Review Team (IRT) report?
    Answer. NOAA is working with the Department of Defense (DOD) and 
the National Aeronautics and Space Administration (NASA) to address the 
issues raised by the Independent Review Team's recommendations. The 
tri-agency (NOAA, NASA, DOD) NPOESS Executive Committee intends to 
develop a consensus agreement on actions needed to strengthen the 
program. White House offices, led by the Office of Science and 
Technology Policy, are actively engaged in this activity and are 
providing coordination for the effort.

    Question 7. Who in the White House is responsible for interagency 
coordination and responding to the IRT recommendations? What is the 
time-frame for action?
    Answer. The Office of Science and Technology Policy (OSTP) is 
leading a task force with representation from the Office of Management 
and Budget and the National Security Council that is working with NOAA, 
the Department of Defense (DOD), and the National Aeronautics and Space 
Administration (NASA) to analyze and review options going forward with 
regard to the NPOESS program. We anticipate that a decision on a path 
forward for the program will be made in time to inform the FY 2011 
budget process.
    OSTP is taking into account the IRT recommendations as it proceeds 
forward with the goals as laid out for the task force.

    Question 8. Specifically, how is NOAA fixing NPOESS management, 
cost, and schedule problems based on the recommendations of the IRT?
    Answer. NOAA, DOD, and NASA are working closely with a task force 
led by the Office of Science and Technology Policy (OSTP) with 
representation from the Office of Management and Budget, and the 
National Security Council to develop and analyze options for 
strengthening program management and addressing the program's 
challenges with cost overruns and schedule slips.

  <bullet> Additionally, NOAA, DOD and NASA are examining ways to 
        modify and adjust the current planned NPOESS constellation of 
        satellites to better mitigate potential coverage and data gaps.

    NOAA, DOD and NASA will revise the NPOESS Acquisition Program 
Baseline this fall, which details the NPOESS budget baseline for 
current and future years. In addition, NOAA has allocated $26 million 
of American Recovery and Reinvestment Act funding for NPOESS to perform 
critical development activities and address risk mitigation within the 
program.
    OSTP is taking into account the IRT recommendations as it proceeds 
forward with the goals as laid out for the task force.

    Question 9. If NPOESS fails, what contingency plans do NOAA, NASA, 
and the Department of Defense have to make sure we have continuity of 
data?
    Answer. Contingency for possible NPOESS failures is an area of 
concern for NOAA, which was also highlighted in the findings of the 
NPOESS Independent Review Team.
    The ability to use the NPOESS Preparatory Project data 
operationally, as well as data from our European partner, EUMETSAT, 
will help to mitigate a potential gap between NOAA-19 and the first 
NPOESS satellite. DOD has several Defense Meteorological Satellite 
Program satellites available to mitigate gaps in the early morning 
orbit. NOAA is also exploring other contingency options, for example, 
pursuing the use of additional international and interagency assets as 
well as potential development of a backup imaging instrument.
    A tri-agency working group is reviewing the use of a series of 
smaller alternative satellites, and the inclusion of sensors on 
commercial spacecraft as possible contingencies.

    Question 10. How is NOAA working toward improving their delivery of 
climate information and climate services to both resource managers and 
the average citizen?
    Answer. In 2008, NOAA began an effort to improve its integrated 
climate services to, among other things, develop and deliver a broader 
range of operational climate information products and services in 
partnership with other Federal agencies with trust resource mandates.
    Given its stewardship responsibilities for marine fisheries, 
coastal and ocean habitat and ecosystems, NOAA is both a producer and 
consumer of climate change information and is actively adapting its 
management approaches to changes in climate. In addition, NOAA supports 
other Federal agencies, state and local governments, and the private 
sector as they use climate change information to make decisions about 
coastal planning and development efforts, maritime transportation, 
water resource management, and other issues like insurance, energy and 
agriculture.
    Understanding the potential impact of climate variability and 
change on natural resources and the American public is central to 
adapting to climate change. As made clear by of the 2007 assessment of 
the Intergovernmental Panel on Climate Change, developing an 
understanding adaptation and vulnerability is far more complex and 
challenging than simply demonstrating that the global average climate 
is changing. In the face of this emerging challenge to decision-making 
at a variety of levels, NOAA and its partners are working to expand the 
ongoing assessment of user needs. NOAA is targeting the following areas 
for improvements in the delivery of climate information and services:

  <bullet> observations;

  <bullet> research;

  <bullet> predictions and projections;

  <bullet> climate change information products;

  <bullet> decision support tools, maps, and visualizations; and

  <bullet> greater coordination and integration of climate science and 
        information services at national and regional levels.

    Question 11. Would you describe NOAA's ability to translate and 
deliver the climate science information from the agency to stakeholders 
as a user-friendly or user-driven process?
    Answer. The community of current and potential users of climate 
information is as complex as society itself and many potential sectors 
are only beginning to understand how climate change may influence their 
industry. As a consequence, NOAA programs are taking a multi-tiered 
approach to developing and providing climate information that is useful 
and relevant to a wide array of users and potential users. NOAA 
programs are working with users in some sectors (e.g., fisheries 
managers and coastal managers) to provide basic information about the 
causes and potential impacts of climate in an effort to help these user 
communities understand the problem and articulate their possible needs 
for tailored climate information. In other sectors (e.g., water 
resource managers), NOAA is working to provide information in response 
to widely established, user-specified information requirements. NOAA 
also works with decisionmakers to understand how they use and interpret 
climate forecasts. This information is then fed back into NOAA's 
operations to improve the presentation of forecasts to the public, 
ensuring they are user-friendly.
    While it remains NOAA's goal to deliver user-friendly climate 
science information to stakeholders, and to utilize a user-driven 
process to determine the information needs of those stakeholders, it 
will take a concerted, sustained effort over several years to achieve a 
broadly useful level of climate service.

    Question 12. Do resource managers and decisionmakers have adequate 
assessments for risk and vulnerability of climate impacts available to 
them?
    Answer. In June, the U.S. Global Change Research Program released a 
landmark report, Global Climate Change Impacts in the United States. 
This body of work, a product of Federal agency and outside experts with 
leadership from NOAA, provides concrete scientific evidence that the 
climate is unequivocally changing, and gives a comprehensive picture of 
future impacts on specific regions and sectors. We are seeing the 
impacts of this change in our own backyards in every region of the 
country, from extreme weather and coastal impacts to drought and 
wildfire trends.
    NOAA has been supporting the development of risk and vulnerability 
assessments for weather- and climate-related impacts for states, 
tribes, and communities nationwide in fulfillment of our existing 
mandated responsibilities (coastal zone management, fisheries, National 
Weather Service mandates, etc). NOAA has engaged with resource managers 
and other stakeholders in the development of decision support products 
and related services (e.g., training; outreach and educational 
materials) through current programs like Regional Integrated Sciences 
and Assessments, Sectoral Applications Research Program, National 
Integrated Drought Information System, and Coastal Zone Management, 
along with NOAA's regional engagement through Regional Climate Centers, 
National Weather Service Weather Forecast Offices and River Forecast 
Centers, National Estuarine Research Reserve System sites, Sea Grant 
programs, Coastal Services Center offices, and other regional staff.
    Despite the efforts discussed above, the need for climate 
information to support resource managers and other decision-makers in 
climate sensitive sectors currently outstrips the capacity of NOAA and 
other Federal agencies. This demand has been articulated through 
meetings with decision-makers, and recent studies by the National 
Research Council (see the 2009 report, ``Informing Decisions in a 
Changing Climate'').

    Question 13. If not, are risk and/or vulnerability assessments 
unavailable due to resource limitations within the agency?
    Answer. Through ongoing engagement with state, tribal, local, and 
private-sector stakeholders, we know the diversity and complexity of 
information needs are growing rapidly as communities and individuals 
become increasingly aware of the threats and opportunities posed by 
climate variability and change. A sustained effort over time will be 
required from NOAA and the broader Federal climate enterprise, in 
partnership with other levels of government and the private sector, to 
conduct the necessary research and development activities to allow us 
to meet the evolving demands of resource managers and decision-makers 
for risk and vulnerability information concerning climate impacts.
    Resource managers and decision-makers would benefit from a 
coordinated Federal approach to providing climate services. Such an 
approach could also ensure Federal agencies more effectively respond to 
requests for climate information and services to aid climate 
adaptation.

    Question 14. How much funding is NOAA providing in FY2010 for 
climate research and climate services?
    Answer. NOAA requested $292 million for climate activities in FY 
2010. This request focuses on NOAA's highest priority climate 
activities, and will allow NOAA to: (1) conduct critical research 
activities, (2) initiate new activities that address currently unmet 
gaps in the NOAA service missions, and (3) meet the information needs 
of our Nation's environmental decisionmakers.
    NOAA's FY 2010 Budget Request includes increases for:

        (1) the National Integrated Drought Information System to 
        implement three regional early warning system pilot projects 
        and to improve climate forecast products related to drought;

        (2) development of decadal climate predictability;

        (3) ocean acidification research and monitoring;

        (4) implementation of a portal to generate and house model-
        based data records;

        (5) deployment of the U.S. Climate Reference Network in Alaska; 
        and

        (6) development of the Jason-3 satellite altimetry mission.

    Question 15. The National Climate Program Act directed NOAA to 
establish a National Climate Program Office and to establish and 
maintain an interagency Climate Program Policy Board. The Program was 
required by Congress to establish mechanisms for intergovernmental 
climate-related studies and services. What is the current status of the 
National Climate Program Office and the Climate Program Policy Board? 
How is NOAA addressing its obligations under the National Climate 
Program Act and how much funding is NOAA providing for the Program?
    Answer. NOAA's climate service work is authorized through existing 
statutory responsibilities under the National Climate Program Act of 
1978 (15 U.S.C.  2901-2908). NOAA has a long history of producing 
climate information, delivering products and services, and building the 
capacity of others through established networks and partnerships at all 
levels. In FY 2010, NOAA requests $292 million on climate activities 
across the agency.
    Today, multiple elements throughout NOAA contribute to climate 
science and services. NOAA's efforts include:

        (1) global data collection;

        (2) research to improve the understanding of climate processes;

        (3) management and dissemination of climate data;

        (4) development and improvement of climate forecasts;

        (5) participation in assessments of the effect of climate on 
        the natural environment;

        (6) efforts to increase international cooperation in climate 
        research, monitoring, analysis and data dissemination; and

        (7) mechanisms for intergovernmental climate-related studies 
        and services including participation by universities, the 
        private sector and others concerned with applied research and 
        advisory services.

    The interagency U.S. Global Change Research Program coordinates and 
integrates Federal research on changes in the global environment and 
their implications for society. The U.S. Global Change Research Program 
began as a Presidential initiative in 1989 and was authorized by 
Congress in the Global Change Research Act of 1990 (P.L. 101-606), 
which called for ``a comprehensive and integrated United States 
research program which will assist the Nation and the world to 
understand, assess, predict, and respond to human-induced and natural 
processes of global change.'' Thirteen agencies participate in the U.S. 
Global Change Research Program, including NOAA.

    Question 16. There is growing interest in NOAA's proposal to 
establish a National Climate Service. How does NOAA's FY 2010 budget 
support this effort? Is there specific funding for the National Climate 
Service? What steps is NOAA currently taking to develop a climate 
service?
    Answer. A National Climate Service should be the bridge between 
decisionmakers and climate change science and information, providing 
timely and authoritative information, such as predictions of changing 
temperatures and water availability, and assessments of associated 
impacts, risks, and vulnerabilities. NOAA already provides a wide array 
of climate information and services including ground, ocean and space-
based observations, climate assessments, drought early warning 
information, and climate predictions and projections. NOAA currently 
works with a broad spectrum of users to provide climate change 
information to help inform resource management decisions. NOAA is well-
positioned and already moving forward to provide strong Federal 
leadership, in partnership with other agencies, to meet the growing 
demand for climate services.
    NOAA envisions a National Climate Service as a partnership that 
would be established with other Federal agencies, various levels of 
government, and the private sector. While there is no specific request 
for the National Climate Service in FY 2010, NOAA's Budget Request 
provides a foundation for strengthening climate services and building a 
broader national effort.
    NOAA requested $292 million for climate activities in FY 2010. The 
FY 2010 request supports and enhances NOAA's integrated program of 
climate observations, research, modeling, prediction, decision support, 
and assessment. These capabilities, along with NOAA's history of data 
stewardship and service delivery, will enable NOAA to provide valuable 
insight and leadership for the development of a National Climate 
Service in partnership with other Federal agencies, service providers, 
users, partners, and stakeholders.
    NOAA has taken several near-term actions within its existing 
authorities to improve how it delivers climate science and services. 
NOAA has been evaluating climate services activities within the agency, 
and has actively engaged its partners and the user community to 
determine their specific information needs and the contributions these 
groups may bring to the development of climate services. NOAA looks 
forward to engaging in these dialogues with the Congress, its Federal 
agency partners, and the range of public and private-sector interests 
in climate services, as the Administration moves forward to develop a 
National Climate Service.

    Question 17. What is NOAA's budget request for FY 2010 for climate 
change research, and how is NOAA targeting their research efforts and 
dollars at the key climate change issues?
    Answer. NOAA requested $292 million for climate activities in FY 
2010. The request for climate funding is targeted to: (1) sustain 
critical research activities, (2) initiate new activities that address 
currently unmet gaps in the NOAA service missions, and (3) meet the 
information needs of our Nation's environmental decisionmakers.
    NOAA's FY 2010 Budget Request includes increases for:

        (1) the National Integrated Drought Information System to 
        implement three regional early warning system pilot projects 
        and to improve climate forecast products related to drought;

        (2) development of decadal climate predictability;

        (3) ocean acidification research and monitoring;

        (4) implementation of a portal to generate and house model-
        based data records;

        (5) deployment of the U.S. Climate Reference Network in Alaska; 
        and

        (6) development of the Jason-3 satellite altimetry mission.

    Question 18. Is NOAA conducting research into how phototrophs are 
being impacted by climate change and what it means for oceans and 
humankind?
    Answer. NOAA is developing systems and methods for assessing the 
future effects of climate change on marine ecosystems, including those 
resulting from elevated oceanic carbon dioxide levels, increased 
temperature, and nutrient limitation, through a combination of research 
and development efforts.
    NOAA conducts numerous ecosystem monitoring and research programs 
in support of ecosystem-based approaches to management. These programs 
document changing ocean conditions, and the responses of marine 
ecosystems and living marine resources to these changes. Phototrophs, 
organisms such as phytoplankton that carry out photosynthesis to 
acquire energy, are evaluated through NOAA's programs that take 
measurements of chlorophyll, primary production, and phytoplankton 
species composition. In addition, models are beginning to be applied to 
project the ecological effects of climate change, including those 
affecting phototrophic species composition and primary productivity. 
Parts of these studies examine how phototrophs are currently and will 
likely be affected by climate change, and what effects any changes in 
the composition or distribution of phototrophic species will have on 
living marine resources and, ultimately, on human uses of these 
resources.
    NOAA also conducts studies of the oceanographic factors that 
contribute to the development of harmful algal blooms (HABs) in coastal 
waters. HABs are termed harmful because they can produce potent toxins, 
which cause illness or death in humans and marine organisms, or they 
can produce so much biomass that they overgrow corals, shade 
seagrasses, or cause water to become oxygen depleted. Currently NOAA is 
interested in determining if a warmer and more stratified ocean waters 
contribute to an increased incidence of HABs. NOAA is also particularly 
interested in how climate change is affecting HABs, which are composed 
of phototrophs. Climate change is likely to change the frequency and 
geographic location of HAB events.
    In coordination with our Federal partners, NOAA has made 
considerable progress in the ability to detect, monitor, assess, and 
predict HABs and hypoxia in coastal ecosystems. This progress has been 
accomplished through a mix of extramural and intramural research, long-
term regional ecosystem-scale studies supported by short-term targeted 
studies, collaborations between academic and Federal scientists, and 
multiple partnerships with Federal, state and tribal managers. Advances 
in our ability to detect, monitor, assess, and predict HABs and hypoxia 
have helped coastal managers take short- and long-term actions to 
reduce, and ultimately prevent, detrimental effects of these phenomena 
on human health and coastal resources.

    Question 19. What are NOAA's top three priorities for ocean and 
coastal scientific research, and for ocean and coastal management?
    Answer. NOAA conducted an extensive public process to envision the 
future of coastal management, which was used to develop a set of 
principles for reauthorization of the Coastal Zone Management Act. In 
addition, NOAA has been developing a broader Coastal Strategy focused 
on three priority issues to serve as the basis for better coordination 
and integration of NOAA's diverse coastal programs. These efforts have 
yielded a remarkably consistent set of recurring themes and priorities 
for ocean and coastal management:

        1. Supporting the resiliency of coastal communities, ecosystems 
        and economies to storms/hazards and climate change;

        2. Resolving competing coastal uses and stemming habitat loss; 
        and

        3. Reducing and reversing coastal pollution and human health 
        effects.

    In support of these priority issues, top needs in the area of 
coastal science include:

        1. Coastal climate research, e.g., predicting future 
        shorelines, potential for storms, sea level rise, inundation, 
        storm surge, changes in fisheries and coastal ecosystems, etc., 
        including more robust modeling and integrated assessments. This 
        information could lead to better analyses of the vulnerability 
        and risk of coastal communities and ecosystems to climate 
        change and facilitate adaptation to climate and mitigation of 
        coastal hazards.

        2. Better understanding and predictive capabilities of coastal 
        public health risks, such as harmful algal blooms (HABs) and 
        other vectors for human and animal diseases in coastal and 
        ocean ecosystems.

        3. Social science including economic studies to support coastal 
        community resiliency, improved coastal and fisheries management 
        and ability to adapt to climate change.

    Question 20. The U.S. Commission on Ocean Policy recommended a 
three-phase approach to improve governance. Phase I recommended 
solidifying NOAA's role as the Nation's lead civilian ocean agency 
through the enactment of an organic act that codifies the agency's 
establishment, clarifies its mission, and strengthens execution of its 
functions. The Committee is interested in enactment of a NOAA organic 
act. What is the Administration's position on a NOAA organic act? Will 
the Administration be submitting proposed legislation for a NOAA 
organic act?
    Answer. At this time, the Administration has not taken a position 
on a NOAA Organic Act.

    Question 21. On June 12, 2009, President Obama sent a memorandum to 
the heads of executive departments and agencies titled ``National 
Policy for the Oceans, Our Coasts, and the Great Lakes''. What is 
NOAA's role in the Interagency Ocean Policy Task Force?

    Question 22. How will the Task Force include public input in the 
development of the national policy and its implementation strategy and 
the framework for coastal and marine spatial planning?

    Question 23. How will the Administration involve the Senate in 
development of the national policy and framework?
    Answers 21-23. On June 12, 2009, President Obama proclaimed that 
June 2009 was National Oceans Month and concurrently issued a 
Presidential Memorandum entitled, National Ocean Policy for the Oceans, 
Our Coasts, and the Great Lakes. This memorandum established an 
Interagency Ocean Policy Task Force with senior policy officials from 
18 different agencies and departments to develop an integrated and 
comprehensive approach for a national oceans policy that, among other 
things, incorporates ecosystem-based science and management and 
emphasizes our public stewardship responsibilities.
    Dr. Jane Lubchenco, Under Secretary of Commerce for Oceans and 
Atmosphere and NOAA Administrator, sits on the Task Force as the 
Department of Commerce representative. The Task Force is chaired by the 
Council on Environmental Quality (CEQ). Since the Presidential 
Memorandum was signed on June 12, CEQ has met or talked with a number 
of interested Senate offices, including representatives of at least 19 
separate offices who participated in a briefing that CEQ held on June 
13, 2009 (and to which all Senate offices were invited). Some offices 
provided letters to CEQ on their specific interests in the Task Force 
efforts and CEQ has made available to Task Force members all letters 
received from Members of Congress. The Task Force is also holding a 
series of regional public meetings around the country so they can 
benefit from on-the-ground feedback. The first hearing was held in 
Anchorage, Alaska on August 21, 2009.

    Question 24. The Hydrographic Services Improvement Act Amendment of 
2008 (P.L. 110-386) increased the total number of commissioned officers 
from 321 to 379 when the Secretary of Commerce submits to Congress the 
ship recapitalization plan, the aircraft remodernization plan, and 
supporting workforce management plans. When will NOAA submit the 
aircraft remodernization plan and the supporting workforce management 
plans to Congress?
    Answer. The NOAA Aircraft Recapitalization Plan is in the final 
stages of NOAA review and is scheduled to be submitted to Congress 
through the Department of Commerce by 1st Quarter FY 2010. The NOAA 
Corps Workforce Management Plan is scheduled to be submitted by the 1st 
Quarter FY 2010 as well.

    Question 25. Is the current authorization of 379 NOAA Corps 
officers sufficient? Please offer justification.
    Answer. Yes, the authorization of 379 NOAA Corps officers is 
sufficient based on the current scope of the NOAA Corps mission and the 
size of the NOAA Corps fleet. The NOAA Corps strength is dependent on 
the size of the fleet, structure of shore-based billets to sea/air 
billets, and the Corps' ability to respond to national emergencies 
(hurricane response and recovery, oil spills, etc.).

    Question 26. How will the current number of officers affect NOAA 
operations?
    Answer. Currently the NOAA Corps is staffed at approximately 299 
officers, with authorization of up to 321 officers. With the enactment 
of the Hydrographic Services Improvement Act Amendment of 2008 (P.L. 
110-386), NOAA is now authorized up to 379 officers.
    The FY 2010 President's Budget requests the additional resources 
necessary to fund a NOAA Corps end strength of 321 officers. NOAA Corps 
Officers typically serve in three functional areas to meet 
organizational requirements: (1) Planning (long-term planning to 
determine future needs for operations, logistics, resources, and 
technologies), (2) Preparation (near-term activities that support data 
collection, training, and missions) and (3) Execution (collection of 
data at sea or in the air such as ship, aircraft, and field 
assignments). These additional officers will enable NOAA to maintain 
the current level of support to the Line Offices. The increase will 
also provide to appropriate balance of officers at each rank and allow 
Junior Officers to full training billets to acquire the necessary 
technical and leadership skills. Finally, the additional requested 
officers will provide a surge capability in times of natural disasters 
or other emergency situations.

    Question 27. What are the top challenges facing the NOAA Corps and 
how is NOAA addressing those challenges?
    Answer. The NOAA Corps' principal challenges are: (1) the current 
shortage of NOAA Corps officers overall and (2) an experience gap that 
exists due to a lack of sufficiently experienced officers to serve in 
critical leadership and operational roles.
    The FY 2010 President's Budget requests an increase to increase the 
number of NOAA corps officers from 299 to 321 by FY 2011. To date, the 
Office of Marine and Aviation Operations has implemented the following 
actions to address the NOAA Corps officer shortage and experience gap:

  <bullet> Requested resources to increase the number of NOAA Corps 
        officers

  <bullet> Improved training by:

    --Establishing Professional Mariner Qualifications (A, B, C, and D 
            school)

    --Providing Potential Senior Ship Officer training (management, 
            risk assessment training)

    --Providing Leadership Development Training

  <bullet> Hired civilian Mates

  <bullet> Recruited inter-service transfers

  <bullet> Implemented mandatory augmentation policy

  <bullet> Improved Corps administration and recruiting strategy by:

    --Defining competencies in the Leadership Development Framework

    --Developing a new NOAA Corps recruiting video

    --Revising the recruiting action plan

    --Establishing Core Values

    Question 28. The Administration's Budget Request for OMAO is $197 
million, which is an $18.2 million (8.5 percent) decrease from FY 2009 
enacted levels. More specifically, there were $17.5 million reductions 
for terminations, $4.3 million reduction in program changes, $3.6 
million increase to adjustments to base (labor and inflation). Can you 
explain the $17.5 million in terminations in the FY 2010 OMAO budget?
    Answer. The $17.5 million in terminations in the Office of Marine 
and Aviation Operations' FY 2010 Budget are associated with funding 
Congress provided in the FY 2009 Omnibus Appropriations Act above the 
FY 2009 President's request. During FY 2009, OMAO allocated these funds 
consistent with Congressional intent as described in the FY 2009 
Omnibus Conference Report: to ensure continuity of ship operations and 
proper manning levels and to offset fuel cost increases to maintain 
operating days and flight hours. These funds were considered one-year 
funding in FY 2009; consequently, they were reduced from OMAO's FY 2010 
Budget. The President's FY 2010 Budget requests $164.2 million for the 
Office of Marine and Aviation Operations for ship and aircraft 
operations and maintenance, an increase of $3.6 million over the FY 
2009 request.

    Question 29. Does the FY 2010 Budget allow NOAA to meet aviation 
remodernization needs?
    Answer. Yes. The FY 2010 President's Budget provides necessary 
funds to operate and maintain newly-acquired and reconditioned aircraft 
(King Air and a third P-3 aircraft).

    Question 30. Does the $3 million in new vessel construction allow 
NOAA to continue with the ship recapitalization plan?
    Answer. Yes. The $3 million in new vessel construction allows NOAA 
to continue with its ship recapitalization plan by supporting the 
initial design process for Fishery Survey Vessel 5, the replacement to 
NOAA ship Oregon II.

    Question 31. Is the current number of NOAA vessels adequate to meet 
the growing mission requirements for the service? If not, how many 
ships are necessary?
    Answer. Yes, the FY 2010 President's Budget Request provides 
support for approximately 3,400 ship operating days for the NOAA fleet, 
plus an additional 400 operating days via outsourcing/charter.
    This request also provides support for the operation and 
maintenance of NOAA's fleet of active ships and shoreside support 
facilities.

    Question 32. Has NOAA conducted a study to determine the optimal 
number and mix of its NOAA fleet of ships and aircraft?
    Answer. Yes. NOAA's Ship and Aircraft Recapitalization Plans, which 
are currently undergoing agency review, establish the optimal number 
and mix of platforms to replace NOAA's aging fleet to meet current 
requirements. The plans analyzed the capability and cost effectiveness 
of different platforms to identify an optimal number and mix of ships 
and aircraft. NOAA continues to explore new technologies and 
alternatives to address NOAA's mission needs.

    Question 33. Are there plans to standardize NOAA operations and 
maintenance procedures?
    Answer. Yes. OMAO established the Fleet Standardization Office to 
develop and implement a fleet-wide management system. The development 
phase adapted best practices from maritime industry and government 
organizations' safety management systems and blended them with the 
Office of Marine and Aviation Operations' organizational requirements. 
The developed model is called the ``Fleet Operations Management 
System,'' which integrates safety and environmental requirements with 
operational management components. The management system is in the 
implementation phase.
    OMAO is developing the plans to implement a Shipboard Standardized 
Maintenance program to ensure a high degree of readiness. Though 
catastrophic failure of equipment can never be eliminated, it can be 
reduced through effect oversight and standardized maintenance practices 
to minimize ship down time. A Maintenance Logistics Manager position 
will be established which will be responsible for over-arching NOAA 
maintenance strategy and to develop policy and procedures for a 
maintenance improvement plan. The Maintenance Logistics Manager will 
conduct maintenance effectiveness reviews to inventory current 
maintenance practices and issue administrative guidelines, instructions 
and policies that implement and govern changes in procedures to ensure 
best practices are followed.

    Question 34. In 2000, Congress passed, and President Clinton signed 
into law, the Shark Finning Prohibition Act of 2000 (Pub. L. 106-557). 
Although this statute prohibits shark-finning in U.S. waters, the 
prohibition applies only to fishing vessels. Earlier this year, Senator 
Kerry introduced S. 850, the Shark Conservation Act of 2009, which 
would expand and enhance this anti-shark-finning language in the 
Magnuson-Stevens Act to prohibit all U.S.-flagged vessels from having 
custody, control, or possession of shark fins not naturally attached to 
their corresponding carcasses. A companion bill to S. 850, H.R. 81, has 
already been passed by the House of Representatives. Does NOAA support 
the expanded shark-finning prohibition contained in S. 850 and H.R. 81?
    Answer. NOAA supports the proposed amendments to the Magnuson-
Stevens Fishery Conservation and Management Act contained in S. 850 and 
H.R. 81, which would explicitly prohibit transfer or receipt-at-sea of 
shark fins that are not naturally attached to their corresponding 
carcasses. The proposed amendments help to clarify the scope of the 
government's enforcement authority, and effectively reverse the Ninth 
Circuit's decision in U.S. v. Approximately 64,695 Pounds of Shark 
Fins, 520 F.3d 976 (9th Cir. 2008). In that case, a U.S. vessel was 
caught engaged in the at-sea transfer of thousands of pounds of fins, 
purchased from fishing boats, with the intention of landing them in 
Guatemala for shipment to Hong Kong. The vessel was charged with 
violating the Shark Finning Prohibition Act under the broad definition 
of ``fishing vessel'' contained in the Magnuson-Stevens Fishery 
Conservation and Management Act. The District Court found for the 
government, but the 9th Circuit reversed that ruling holding, in 
relevant part, that the vessel was not a ``fishing vessel'' under the 
Magnuson-Stevens Fishery Conservation and Management Act. Transshipment 
of fins-at-sea presents a significant threat to the sustainability of 
shark stocks and the new prohibitions contained in S. 850 and H.R. 81 
squarely addresses this activity.
    NOAA believes the requirement contained in S. 850 and H.R. 81 that 
prohibits the removal of shark fins at sea and requires all sharks to 
be landed with the fins naturally attached would greatly increase the 
at-sea enforceability of the finning ban. Because identifying sharks 
can be difficult without the carcasses attached to the fins, this 
change would also improve the ability of fishermen, dealers and 
enforcement personnel to identify sharks at the species-level, thereby 
improving the accuracy of reporting and enhancing our ability to 
enforce prohibitions on the harvest of protected sharks. In 2008, NOAA 
took action in the Atlantic Ocean, including the Gulf of Mexico and the 
Caribbean, that now requires all shark fins, including the tail, must 
remain naturally attached to the shark carcass until that carcass has 
been offloaded. This new requirement seems to be promoting improved 
compliance with the finning ban.
    The legislation also retains the rebuttable presumption that 
illegal finning has occurred whenever shark fins are landed from a 
fishing vessel and the weight of the fins, after landing, exceeds 5 
percent of the weight of the carcasses. The rebuttable presumption is a 
critical tool for dockside enforcement when enforcement officers are 
unable to monitor an entire offload, and enhances shark conservation 
efforts by allowing NOAA to utilize dealer landing records to detect 
potential shark finning violations post-landing for subsequent follow-
up investigation. The legislation also provides a rebuttable 
presumption that an illegal transfer has occurred when fins are found 
onboard a vessel, other than a fishing vessel, that are not naturally 
attached to the corresponding carcass. This rebuttable presumption is 
also critical for at-sea enforcement of the shark finning ban. While 
those in the legal shark trade could easily document the legitimacy of 
fins onboard, this provision is critical to addressing the illegal 
shark fin market because it obviates the requirement that would 
otherwise exist that the vessel be caught in the act of transferring 
fins illegally.
    NOAA supports the amendment of the rebuttable presumption from the 
Magnuson-Stevens Fishery Conservation and Management Act contained in 
S. 850 and H.R. 81. This amended rebuttable presumption will 
significantly enhance dockside and at-sea enforcement by enabling us to 
detect a violation even when enforcement personnel are not present to 
observe the entire offload or transfer. Although NOAA supports the 
intent of this amendment, NOAA recommends clarifying the language in 
section 3(2) by replacing the ``and'' after ``such fin was transferred 
in violation of subparagraph (P)(iii)'' with ``, or'', so that section 
3(2) would read as follows:

        ``by striking the matter following subparagraph (R) and 
        inserting the following:

        ``For purposes of subparagraph (P), there shall be a rebuttable 
        presumption that if any shark fin (including the tail) is found 
        aboard a vessel, other than a fishing vessel, without being 
        naturally attached to the corresponding carcass, such fin was 
        transferred in violation of subparagraph (P)(iii), or that if, 
        after landing, the total weight of shark fins (including the 
        tail) landed from any vessel exceeds 5 percent of the total 
        weight of shark carcasses landed, such fins were taken, held, 
        or landed in violation of subparagraph (P).''.''

    NOAA recommends including a definition of ``naturally attached'' to 
mean shark fins that remain attached to the shark carcass via at least 
some portion of uncut skin. The addition of a definition of ``naturally 
attached'' would both clarify the intent of the amendment and would 
also allow fishermen to process and transport the shark in a manner 
that maintains the quality of the meat.

    Question 35. In recent years, organizations such as the United 
Nations Food and Agriculture Organization and the International Union 
for Conservation of Nature have observed population declines in scores 
of different shark species worldwide. S. 850 and H.R. 81, the Shark 
Conservation Act of 2009, would amend the High Seas Driftnet Fishing 
Moratorium Protection Act (Title VI of Pub. L. 104-43) to allow the 
United States to take appropriate action against countries that do not 
have in place a shark conservation regulatory regime comparable to that 
of the U.S. Does NOAA support the proposed amendment to the High Seas 
Driftnet Fishing Moratorium Act contained in S. 850 and H.R. 81?
    Answer. NOAA does not support the amendments to the High Seas 
Driftnet Fishing Moratorium Protection Act contained in section 2 of 
H.R. 81. First, the amendments imply there is a single identifiable 
standard of shark conservation and management in the United States, and 
fail to recognize the differences between state and Federal approaches 
to shark management. Thus, as drafted, H.R. 81 could pose 
implementation challenges and add to the litigation risks of defending 
the U.S. in the face of potential challenges alleging that the U.S. 
failed to properly identify nations engaged in shark fishing that had 
not adopted a regulatory conservation program.
    Second, the newly proposed requirements to the High Seas Driftnet 
Fishing Moratorium Protection Act in H.R. 81, to address shark harvest 
and bycatch, represent sometimes duplicative additions to the existing 
requirements of that Act. For example, amendments to the High Seas 
Driftnet Fishing Moratorium Protection Act, enacted as part of the 
Magnuson-Stevens Fishery Conservation and Management Reauthorization 
Act, require a biennial report to Congress that identifies nations 
whose vessels have been engaged in illegal, unreported, or unregulated 
fishing or bycatch of protected living marine resources, including 
sharks.
    Third, the amendments to the High Seas Driftnet Fishing Moratorium 
Protection Act contained in H.R. 81 appear to be broader in geographic 
scope, relative to the current provisions in that Act, and may extend 
into areas within the jurisdiction of other countries. NOAA would not 
support such a provision insofar as it could require the United States 
to take action against other nations for activities within their own 
waters.
    Finally, the United States succeeded in inserting strong new 
language regarding shark conservation and management into the 2007 
United Nations General Assembly Resolution A/RES/62/177. This language 
calls on states and regional fisheries management organizations to, 
among other things: ensure the long-term conservation, management, and 
sustainable use of sharks; prevent further declines of vulnerable or 
threatened sharks; and take immediate and concerted action to improve 
the implementation of, and compliance with, existing international and 
national shark conservation measures, including those prohibiting the 
practice of shark finning. NOAA is committed to carrying this 
Resolution's call for action to the regional fisheries management 
organizations of which the United States is a member, with the goal of 
adopting legally-binding conservation measures where appropriate. NOAA 
has determined that this multilateral approach will be a more effective 
means of improving nations' efforts to conserve and manage sharks than 
the amendments proposed in H.R. 81 to the identification and 
certification process authorized in the High Seas Driftnet Moratorium 
Protection Act.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                           Dr. Jane Lubchenco

    Question 1. I can tell you that the people of Washington State 
greatly appreciate the $7 million NOAA included in its budget for a new 
coastal radar. Given the weather-sensitivity of so much of the region's 
economy, wouldn't you agree that this radar is in many ways a piece of 
economic infrastructure?
    Answer. Yes, NOAA agrees. This new radar will provide important 
data to improve our ability to forecast and provide more advanced 
warning of high-impact weather events. These events affect all sectors 
of the economy, including the transportation and marine industries. 
Improved forecasts and increased warning lead times will allow for 
appropriate mitigation actions that will benefit the region's economy. 
Residents will also benefit from increased warning lead times, which 
will support effective decisions that impact their lives and 
livelihoods.

    Question 2. If the full $7 million is not appropriated for the 
radar in this Fiscal Year (2010), wouldn't we have to either sacrifice 
the radar's capabilities or potentially delay the acquisition?
    Answer. Yes. Appropriations of less than $7 million will cause 
either a delay in the acquisition or a reduction in the capabilities of 
the radar.

    Question 3. Earlier this year, we enacted a number of ocean bills 
as part of the omnibus public lands package. One of these bills, the 
Federal Ocean Acidification Research and Monitoring Act, establishes 
the first-ever national research program on ocean acidification. I 
appreciate the funding in NOAA's 2010 budget for ocean acidification 
research, but this funding is not designed to implement the ocean 
acidification program created by our recently-enacted legislation. What 
are NOAA's plans and timeline for implementing the Federal Ocean 
Acidification Research and Monitoring Act?
    Answer. NOAA looks forward to working with Congress to implement 
the recently-passed Federal Ocean Acidification Research and Monitoring 
Act, which creates an ocean acidification program within NOAA. NOAA 
maintains a continued leadership role in this issue area, as we work 
with our interagency partners to coordinate the development of the 
required interagency working group and ocean acidification plan through 
the Joint Subcommittee on Ocean Science and Technology. NOAA is 
currently developing a coordinated plan to monitor and conduct research 
on the effects of ocean acidification on marine organisms and 
ecosystems. NOAA is also developing a set of options for evaluation, as 
we work to develop the structure of the ocean acidification program 
within NOAA. Finally, NOAA scientists met in March 2009, to draft a set 
of priorities for ocean acidification research, based on the 
anticipated ecosystem and socioeconomic impacts (at both regional and 
national scales) that will likely result from increased ocean 
acidification. Writing teams are currently drafting these priorities, 
and implementation actions will be carried via a prospective 
interagency plan.

    Question 4. How soon will Congress see the bill's implementation 
reflected in NOAA's budget?
    Answer. Although the FY 2010 President's Budget was crafted before 
passage of the Federal Ocean Acidification Research and Monitoring Act, 
it does include a request for $9.9 million for research on ocean 
acidification, which is an increase of $5.5 million. The additional 
funds include $4 million to implement long-term monitoring of ocean 
acidification, and $1.5 million for efforts to understand, monitor and 
forecast how ocean acidification affects the Nation's ecosystems and 
living marine resources. NOAA looks forward to implementing the 
recently passed Federal Ocean Acidification Research and Monitoring 
Act, which creates an ocean acidification program within NOAA, and it 
will continue to assess and evaluate the budget that will be needed to 
allow NOAA to carry out this important work.

    Question 5. In Washington State, we are lucky enough to have the 
Olympic Coast National Marine Sanctuary--a unique, pristine area that 
is one of America's most productive marine ecosystems and spectacular 
undeveloped shorelines. Over the past several years, I have pushed NOAA 
and the Coast Guard to conduct a much-needed Safe Seas oil spill drill 
in this Sanctuary to prepare for how to protect it in the event of an 
oil spill. Why has NOAA not been able to conduct a Safe Seas drill in 
the Olympic Coast Sanctuary yet?
    Answer. The FY 2008 enacted appropriation for the Office of 
Response and Restoration (ORR) was $5.2 million below the President's 
FY 2008 Budget Request of $16.8 million, causing a significant impact 
on the office. The FY 2009 appropriation provided the full President's 
Request for ORR ($17.3 million) for the first time since FY 2003. These 
funds enabled ORR to begin to restore the capacity and capabilities 
lost over the past several years, but did not include resources to 
conduct Safe Seas drills.

    Question 6. Don't you think this would be a valuable step in 
protecting Washington's vulnerable outer coast?
    Answer. Yes, previous Safe Sea exercises have demonstrated the 
value of advanced planning coordination between different response 
agencies in training personnel and testing and implementing response 
capabilities.

    Question 7. How much would this cost?
    Answer. An exercise on the Outer Coast of Washington is estimated 
to cost about $700,000. This estimate includes funds to plan and 
evaluate the exercise, provide training to response personnel and 
volunteers, support tribal participation, conduct field operations, and 
support contingency plan updates based on the lessons learned during 
the exercise.

    Question 8. In Washington State, we have recently seen the 
emergence of the Puget Sound Partnership--an innovative, collaborative, 
science-based effort to manage the Puget Sound environment based on an 
ecosystem-based management approach. Will NOAA invest in this important 
effort in Washington State, which is already being seen throughout the 
country as a model for regional ocean governance and ecosystem-based 
management?
    Answer. We agree the Puget Sound Partnership is an important 
initiative to prioritize restoration efforts and coordinate Federal, 
state, local, tribal and private entities. The Partnership has helped 
to implement salmon recovery plans, which outline specific management 
actions needed to ensure listed species and their ecosystems are 
restored. Implementation of these specific management actions has been 
one of the Partnership's highest priorities. NOAA has invested in this 
effort through numerous avenues including the Pacific Coast Salmon 
Recovery Fund (PCSRF), Endangered Species Act Recovery Plans, and the 
American Recovery and Reinvestment Act of 2009.
    Since 2000, through PCSRF, NOAA Fisheries has provided almost $70 
million to projects in Puget Sound, which leveraged $22 million in 
state matching funds as well as other critical funds from tribes and 
local entities. This investment goes toward projects throughout Puget 
Sound to protect, restore, and conserve Pacific salmon populations and 
their habitats.
    Under the American Recovery and Reinvestment Act of 2009, NOAA has 
selected high-quality, high-priority projects to restore wetlands, salt 
marsh, oyster and coral reefs, as well as remove fish passage barriers 
on coastal rivers and streams. Puget Sound will receive $16.5 million, 
or nearly 10 percent, of the funding awarded through a national 
competition to support six projects from the Puget Sound Partnership's 
Action Agenda to clean up Puget Sound.

    Question 9. The work that NOAA does each and every day helps 
support the science and conservation needed by the Puget Sound 
Partnership. I worry, though, that in terms of its budget, NOAA can 
only fund efforts to support the Puget Sound Partnership when it is 
work the agency is already doing. Isn't there a ``budget flexibility'' 
problem when it comes to this state/Federal partnership?
    Answer. The Puget Sound Partnership represents a special 
opportunity for NOAA to demonstrate that the agency has the expertise 
to assist in making ecosystem-based management a reality for the 
largest estuary in the Pacific Northwest. NOAA is uniquely capable of 
delivering and using science to inform restoration and conservation 
actions on an ecosystem scale.
    As noted above, NOAA uses a variety of funding mechanisms in order 
to participate in the recovery of the Puget Sound. Within current 
funding, NOAA is expanding its role in delivering the science to better 
understand the Puget Sound ecosystem and the stresses it faces by 
developing the tools, such as an Integrated Ecosystem Assessment, to 
support science-based risk assessments and decisionmaking. NOAA will 
continue to play an integral and important role in efforts to recover 
the Sound by 2020.

    Question 10. Wouldn't NOAA have the flexibility to more effectively 
support the work of the Puget Sound Partnership if it had a pool of 
funding devoted specifically to this effort?
    Answer. As outlined above, NOAA has been actively supporting the 
Puget Sound Partnership and believes we currently have the necessary 
tools to continue to do so effectively.

    Question 11. A small program called ``Mussel Watch'' will be 
reduced under the NOAA 2010 budget to $295,000 (down from $395,000 for 
FY 2009). This program analyzes mussel tissues to monitor water quality 
and chemical contaminants. In April, NOAA released a major report based 
on Mussel Watch data that found flame retardant chemicals in all U.S. 
coastal waters and Great Lakes. I'm deeply concerned about NOAA's 
proposed cuts to the Mussel Watch program. The 24-year-old program has 
collected data on over 120 contaminants along Washington's shorelines, 
and has been instrumental in demonstrating the Puget Sound's toxic 
problems--a long-term data set that I'm sure you can appreciate as a 
scientist. Although the program is small, it is instrumental in 
monitoring water quality in Washington. As a scientist, wouldn't you 
agree that long-term data sets like the Mussel Watch program are 
crucial for monitoring our environment?
    Answer. Yes, long-term data sets like the Mussel Watch program are 
crucial for monitoring our environment. NOAA's Mussel Watch is the 
longest continuous, nationwide contaminant-monitoring program in U.S. 
coastal and Great Lakes waters, and is counted among NOAA's ``Top 10 
Foundation Data Sets.'' The program analyzes chemical and biological 
contaminant trends in sediment and bivalve tissue for a suite of more 
than 130 organic and inorganic contaminants; Clostridium perfringens 
(pathogen) concentrations; and trace metals. In addition, Federal, 
state, and local authorities rely on the program to provide baseline 
data or evaluate impacts of extreme events such as oil spills, tropical 
storms, and hurricanes. Program data are called upon to evaluate the 
efficacy of environmental regulation and coastal and Great Lakes 
remediation efforts. Mussel Watch also provides critical baseline data 
to NOAA's Office of Response and Restoration in their efforts to 
respond to a wide range of events across the Nation each year, and to 
evaluate the environmental impacts of these events.

    Question 12. Will NOAA continue support for this successful and 
important program in future years?
    Answer. NOAA will continue to support the Mussel Watch program, and 
fully recognizes the importance of continuity of operations.

    Question 13. Will you commit to working with me to restore this 
funding to a more appropriate level?
    Answer. NOAA is committed to working with Congress on this program.

    Question 14. The Recovery Plan for Puget Sound Southern Resident 
Orcas released by NOAA earlier last year says the cost to delist 
southern resident orcas will be at least $50 million over 28 years. 
Your 2010 budget, however, only includes just over $1 million for these 
efforts. At these funding levels, doesn't NOAA risk failing to delist 
the species within 28 years as the recovery plan states?
    Answer. NOAA must balance many priorities for recovering threatened 
and endangered species when developing budget requests. Based on the 
life history of killer whales and the nature of the threats, progress 
toward recovery will be a long-term effort that could take 28 years or 
more. Although NOAA is responsible for developing recovery plans, the 
plan for Puget Sound Southern Resident Orcas guides the actions of many 
agencies, and while some of the costs identified in the recovery plan 
are attributable to actions for which NOAA is the lead responsible 
party, many of the actions include other responsible parties as well. 
NOAA strives to identify the highest priority and most cost-effective 
research and recovery actions to fund within available resources, to 
ensure the agency is contributing to the recovery of the Southern 
Residents and moving toward the goal of delisting. NOAA has already 
designated critical habitat, completed the Recovery Plan, and begun 
implementing recovery actions.

    Question 15. The Orca Recovery Plan states that recovery efforts 
over the first 5 years will cost $15 million. Under this budget, aren't 
we failing to make the initial up-front gains called for by the 
Southern Resident Orca Recovery Plan?
    Answer. While some of the $15 million is attributed to actions for 
which NOAA is the lead responsible party, many of the actions include 
other responsible parties as well. Recovery of the Southern Resident 
Orcas will require contributions from a variety of government agencies 
and stakeholder groups as identified in the Recovery Plan. NOAA has 
made gains in establishing a recovery program, including designating 
critical habitat, completing the Recovery Plan, and implementing 
recovery actions. For example, NOAA has made significant progress 
working with the Washington Department of Fish and Wildlife on oil 
spill response planning and reducing vessel impacts through enforcement 
presence on the water and through education. Orca recovery is part of 
the Puget Sound Partnership Action Agenda, and NOAA is coordinating 
with salmon recovery programs. In coordination with the Washington 
Department of Fish and Wildlife, the U.S. Coast Guard, and the 
Department of Fisheries and Oceans Canada, NOAA has developed proposed 
vessel regulations to protect the whales. In addition, an active 
research program including NOAA, universities, and private research 
organizations is working to help fill in data gaps and guide recovery. 
NOAA has developed many valuable partnerships to leverage available 
funding from a number of sources to maximize our resources for the 
benefit of the whales.

    Question 16. The Pacific Salmon Stronghold Conservation Act of 
2009, S. 817, would establish a new regional Salmon Stronghold 
Partnership program that provides Federal support and resources to 
protect a network of the healthiest remaining wild Pacific salmon 
ecosystems in North America. The bill promotes enhanced coordination 
and cooperation of Federal, tribal, state and local governments, public 
and private land managers, fisheries managers, power authorities, and 
non-governmental organizations in efforts to protect salmon 
strongholds. This Act will complement efforts to recover threatened and 
endangered stocks by directly supporting public-private incentive-based 
efforts to maintain strong ``seed'' stocks, sustaining the economic, 
ecological, cultural, and health benefits of wild Pacific salmon for 
future generations. What are the benefits to investing public resources 
in areas where populations are healthy?
    Answer. Pacific salmon conservation requires a prioritized, yet 
multi-pronged approach. This includes restoring those habitats and 
populations that are most imperiled, managing fisheries and hatcheries 
effectively, and promoting sound stewardship of watersheds that are 
home to the most robust populations and habitat. Protecting healthy, 
properly functioning habitat can provide a buffer against extinction 
and may provide habitat for listed species as populations rebound due 
to conservation efforts or migrate through or past these areas. Robust 
populations from stronghold areas could also serve to help repopulate 
degraded habitats as conditions are improved through recovery efforts.

    Question 17. What is the economic value of commercial and 
recreational salmon fisheries in the U.S.?
    Answer. In 2007, U.S. commercial dockside value of salmon landings 
was $381 million, or 9 percent of total U.S. landings and 19 percent of 
West Coast and Alaska landings. Salmon ranked in the ``top five'' 
species by both landings and dockside value in 2007. When using 
economic multipliers, in 2007 U.S. commercial salmon fisheries 
generated $5 billion in sales and $2.2 billion in income, and supported 
over 77,000 jobs. The overall economic value of recreational marine 
fishing in 2007 was $5.2 billion.

    Question 18. What is the value of these fisheries to coastal 
communities, in particular?
    Answer. A significant portion of the $5 billion in sales, $2.2 
billion in income, and over 77,000 jobs from commercial salmon fishing 
is generated in coastal communities.
    The recreational value of salmon fishing to coastal communities is 
believed to be substantial. It was estimated by Ted L. Helvoigt and 
Diane Charlton in The Economic Value of Rogue River Salmon (2009) that 
a single recreationally caught salmon or steelhead is worth 
approximately $245 in economic benefits. Add tourism and other 
secondary benefits of salmon conservation and it becomes apparent that 
by investing in natural resources, the United States is sustaining 
economic drivers as well.

    Question 19. What is the relationship between climate change 
adaptation and mitigation and the salmon stronghold approach?
    Answer. Climate change will affect salmon in a variety of ways, 
including temperature changes in riverine habitat and changes in 
freshwater timing, quality and quantity. Identifying and protecting 
habitats before they become degraded could help mitigate the potential 
negative impacts of climate change on salmon. The Intergovernmental 
Panel on Climate Change predicts that 30 percent of species may become 
extinct as a result of climate change, but that some species may 
benefit. Although NOAA's ability to predict climate change-related 
effects is greatest at the global and regional scales, NOAA is 
developing the ability to predict climate change effects at 
increasingly finer scales. This ability will ultimately be used to 
identify and protect habitats that will continue to support various 
life stages of salmon under warming conditions. Other effects, such as 
changing ocean conditions, are more difficult to address. But these 
effects can be managed by understanding the role ocean conditions play 
in the growth and survival of juvenile fish, recruitment of fish to 
fisheries, and maturation of fish into returning spawners and then 
using this information to increase production in natural freshwater 
habitats or to reduce harvest rates during poor conditions.

    Question 20. Does global climate change suggest a greater need for 
the Pacific Salmon Stronghold Conservation Act?
    Answer. Protecting salmon habitat is important, especially in light 
of the threat posed by global climate change and changing ocean 
conditions. NOAA manages a number of existing programs that could 
support land acquisition and restoration in salmon strongholds, such as 
the Pacific Coastal Salmon Recovery Fund, Coastal and Estuarine Land 
Protection program, and Community Based Restoration program. The 
Department of the Interior manages other applicable programs.

    Question 21. Describe how the Pacific Salmon Stronghold 
Conservation Act would complement the Pacific Salmon Coastal Recovery 
Fund.
    Answer. As indicated in the recovery plans for listed species, 
additional large investments will be required over the coming decades, 
not only to reverse the significant degradation of salmon habitat that 
has occurred but to preserve the healthiest intact salmon habitats that 
remain. The Pacific Coastal Salmon Recovery Fund is currently focused 
on listed and at-risk salmon, and targets funds on restoring degraded 
habitats to help recover them to the point that Endangered Species Act 
protections are no longer needed. We believe recovering these stocks is 
the highest priority at this time. However, we recognize the importance 
of preserving healthy stocks as well. The Pacific Salmon Stronghold 
Conservation Act offers a conservation tool that would benefit 
populations of both listed and non-listed species, including stocks 
that are in good condition.

    Question 22. How will this Act help us measure our overall 
effectiveness in recovering and protecting Pacific salmon populations?
    Answer. Habitats in good condition and species that are not listed 
under the Endangered Species Act can provide baseline and other 
information on how to prevent future listings and on factors that are 
affecting all populations, such as ocean conditions.

    Question 23. Do you have suggestions of ways to improve the Pacific 
Salmon Stronghold Conservation Act?
    Answer. NOAA believes that the Pacific Coastal Salmon Recovery Fund 
and other existing programs, including NOAA's programs for salmon 
management, habitat restoration, and land protection, have the 
flexibility to focus on the highest priorities with respect to salmon 
recovery, but recognizes the importance of the PSSCA's focus on 
preserving high quality salmon habitats. Nonetheless, there is a risk 
that funding for a new program would compete with existing high 
priorities. If a new source of funding is established, NOAA would want 
to ensure that it truly is targeted to the most important and effective 
uses.
    NOAA has reservations about the difficulty of designing and 
implementing a program that compensates land holders based on the 
ecosystem services provided by their property. Program requirements 
would have to be developed to ensure landowners were not being 
compensated for mitigation obligations required by state or Federal law 
or that landowners were not compensated multiple times by different 
programs for the same land. NOAA, the U.S. Fish & Wildlife Service, and 
the National Fish Habitat Board would need to ensure that ecosystem 
service payments do not overlap with other conservation payments by 
working and communicating closely with other agencies and programs that 
already do, or might in the future, provide such payments.
    In addition, because some grants might pass through the National 
Fish and Wildlife Foundation (NFWF), it could be difficult to retain 
consistency in how the program is administered. Taking advantage of 
NOAA's existing relationships would be a more effective way to 
implement the grant program for habitat protection, rather than 
establishing a new, dedicated stronghold initiative solely with NFWF.
    Finally, NOAA would prefer the Salmon Stronghold Partnership Board 
include a balanced representation across the coastal western states. 
Currently, the structure of the board includes both the Bonneville 
Power Administration and the Northwest Power and Conservation Council, 
as they provide and help direct a significant amount of salmon funding 
in the Columbia basin. Given that salmon are in critical condition 
along the entire West Coast, NOAA recommends that the legislation 
structure the Board to contain additional representatives from across 
the region.

    Question 24. Late last month, the National Marine Fisheries Service 
announced that it will open public comment on a proposed Fishery 
Management Plan by the North Pacific Fishery Management Council for the 
possible development of commercial fishing in the Arctic. Just 3 years 
ago, the North Pacific Council considered options for fishery 
management in the Arctic and ultimately voted to prohibit commercial 
fishing there until researchers gather sufficient information on fish 
and the Arctic marine environment. In your opinion, do we really have 
sufficient information at this point to make a well-informed decision 
on Arctic fishery management?
    Answer. The North Pacific Fishery Management Council began 
considering Arctic fisheries management in 2006. After a series of 
Council meetings and review of analyses for the action, the Council 
unanimously recommended the Fishery Management Plan for Fish Resources 
in the Arctic Management Area in February 2009. This plan includes 
measures designed to ensure sustainable fisheries management in the 
Arctic Management Area. The management measures include a prohibition 
on commercial fishing until more information is available to identify 
sustainable harvest levels, and a review process that specifies the 
information to be analyzed if the Council chooses to consider allowing 
commercial fishing in the Arctic Management Area. A plan amendment and 
revisions to the regulations would be required before commercial 
fishing could be allowed in the Arctic Management Area. The public 
comment period on the proposed plan and rule ended July 27, 2009. The 
plan and rule are expected to be effective some time in the Fall of 
2009.

    Question 25. Coastal economies generate nearly 60 percent of the 
Nation's Gross Domestic Product, are home to 157 million Americans and 
employ 69 million people. Unfortunately, funding for the Coastal Zone 
Managements grants has stagnated at a time when these communities need 
more help with building resilient communities to adapt to climate 
change, mitigating pollution into our watersheds, and helping to 
conserve land. How does the NOAA budget reflect the Administration's 
priorities for coastal issues?
    Answer. The President's FY 2010 Budget requests significant funds 
to address coastal priorities. Within the Office of Ocean and Coastal 
Resource Management (OCRM) a total of $121.6 million is requested, 
which includes:

  <bullet> $66.1 million for coastal zone management grants;

  <bullet> $26.1 million for the National Estuarine Research Reserves;

  <bullet> $15 million for the Coastal Estuarine Land Conservation 
        Program;

  <bullet> $10.4 million for coastal stewardship including a new 
        Communities Task Force;

  <bullet> $2.1 million for marine protected areas; and

  <bullet> $1.9 million to assist the States with energy licensing.

    In addition to the $121.6 million requested for OCRM, NOAA's FY 
2010 Budget Request also includes additional funding to support coastal 
priorities, including: $20.6 million for the Coastal Services Center, 
to provide technical assistance to states and other partners; $6 
million for implementation of the coastal near-term priority of the 
Ocean Research Priorities Plan; $2.9 million for the Coastal Storms 
Program; $52 million for the National Centers for Coastal Ocean 
Science; $55 million for the National Sea Grant College Program; and 
$44 million for the Office of Habitat Conservation. The funds requested 
for these offices and programs support NOAA's coastal activities, 
including efforts to understand and predict changes in the coastal 
environment, conserve and manage coastal and marine resources, and 
interpret and deliver tools and products to enhance coastal management.

    Question 26. The FY 2010 Budget Request provides level funding for 
the Coastal Zone Management grants. If I do my math correctly: $66 
million divided by 156 million Americans then we are investing 42 cents 
per person in our coastal counties while these economies are generating 
$5,000 per person in GDP. This does not seem equitable. How can coastal 
states meet the growing demands placed on them and continue to generate 
wealth for our country if their Federal partner is not proposing a 
realistic budget to support their needs?
    Answer. NOAA provides support to coastal states through a variety 
of programs, in addition to providing funding through Coastal Zone 
Management grants. NOAA's Office of Ocean and Coastal Resources 
Management, which has primary responsibility for coastal management, 
also includes the National Estuarine Research Reserve System, Marine 
Protected Areas Center, Coastal and Estuarine Land Conservation 
Program, and Coral Reef Conservation Program--all of which respond to 
the needs of coastal managers. NOAA also provides non-monetary support 
to coastal managers, including policy and technical assistance to the 
states.
    NOAA has been working to address new challenges in coastal 
management, such as climate change, and to develop new approaches to 
these issues. Over the past several years, NOAA has worked with the 
states to develop a new vision for coastal management as part of 
reauthorization of the Coastal Zone Management Act. NOAA's vision is 
for a stronger program that will set challenging goals while using 
resources efficiently and effectively to meet them. Building upon this 
new vision, NOAA has begun to develop its own internal coastal 
strategy, as a way to better integrate our programs and our abilities 
to deliver needed products, services, and assistance to our coastal 
management partners.
    Ensuring healthy, resilient, and vibrant coastal ecosystems, 
communities and economies is a priority for NOAA. NOAA looks forward to 
working with coastal states to address these challenges, and to ensure 
that our existing resources are used strategically and efficiently to 
meet the most pressing needs.

    Question 27. The Northwest Straits Initiative takes a grassroots 
approach to marine conservation and leverages Federal, state, and 
foundation dollars to carry out protection and restoration projects at 
the local level. While NOAA is a Federal agency with regulatory powers, 
the Northwest Straits Initiative is a small, non-regulatory 
organization that functions through consensus and builds capacity at 
the county levels. Both approaches are necessary and complimentary, and 
many relationships and partnerships already exist between NOAA and the 
Initiative. What are your thoughts on collaboration and partnerships 
between NOAA and the Initiative, and other successful grassroots 
programs? What can be done to encourage such partnerships?
    Answer. As noted, NOAA and the Northwest Straits Initiative 
(Initiative) collaborate in several ways. NOAA's Marine Debris Program 
has funded a number of projects proposed by the Initiative, and 
additional projects were recently supported with American Recovery and 
Reinvestment Act funding. In addition, the Initiative staff is housed 
at the Padilla Bay National Estuarine Research Reserve, a NOAA-funded 
partnership program with the Washington State Department of Ecology.
    NOAA has many other examples of successful partnerships with 
grassroots programs. Most of the National Estuarine Research Reserves 
were supported by grassroots organizations during their designation 
phase, and reserves continue to enjoy support from grassroots ``friends 
of the reserve'' organizations. Similarly, NOAA's Community-Based 
Restoration Program involves numerous grassroots and community 
organizations in its restoration projects. NOAA's Coastal Zone 
Management Program has partnerships at the community level in special 
area planning, urban waterfront redevelopment, and public access 
development. As NOAA increases regional collaboration efforts, it will 
become easier to identify local partnerships and leverage NOAA 
resources for partnership opportunities that address NOAA's mission. 
NOAA programs with significant local components such as the National 
Estuarine Research Reserves and other community-based restoration 
programs help support these types of partnerships. Continued support 
for these NOAA programs can help encourage partnership activities.

    Question 28. The Magnuson-Stevens Act put in place clear deadlines 
to end overfishing by 2011 by requiring annual catch limits set by 
science, coupled with accountability measures intended to ensure their 
effectiveness. What do you anticipate NOAA's budget needs will be over 
the next several years to end overfishing, as required by the MSA?
    Answer. NOAA's FY 2010 Budget includes $98.3 million to implement 
the 2006 amendments to the Magnuson-Stevens Fishery Conservation and 
Management Act, an increase of $56.5 million over the amounts provided 
for implementation in the FY 2009 enacted budget. This amount includes 
$12 million for NOAA and $4 million for the Regional Fishery Management 
Councils to implement annual catch limits and accountability measures 
to end overfishing. The FY 2010 request focuses on species that have an 
overfishing determination. NOAA will continue to focus on implementing 
its Magnuson-Stevens Fishery Conservation and Management Act mandates.

    Question 29. NOAA is the primary Federal agency charged with 
managing our Nation's fisheries in Federal waters. Further, under the 
Magnuson-Stevens Act, it has been determined that NOAA has the 
authority to regulate aquaculture, in addition to our wild fish stocks. 
Dr. Lubchenco, will you affirm this point?
    Answer. Yes, I will affirm that NOAA has the authority to regulate 
aquaculture in Federal waters, in addition to our wild fish stocks. 
NOAA's longstanding position has been that ``fishing'' encompasses 
aquaculture under the Magnuson-Stevens Act. This position is based on a 
1993 legal opinion issued by NOAA's Office of General Counsel, which 
concluded in part:

        . . . The Act contains an exceptionally broad definition of the 
        term ``fishing'' encompassing not only the catching or taking 
        of fish, but also the ``harvesting'' of fish and ``any other 
        activity'' expected to result in, or ``other operations at 
        sea'' in support of, ``the catching, taking or harvesting of 
        fish.'' Use of the tem ``harvesting'' is particularly 
        significant since it adds an additional concept beyond 
        ``catching'' or ``taking''--harvesting connotes the gathering 
        of a crop--which brings within the purview of the Act any 
        aquaculture facility located in the EEZ.

    Question 30. Given the developments in the Gulf of Mexico Fishery 
Management Council, and the interest among many nationwide to pursue 
offshore aquaculture development, how does NOAA plan to manage this 
sector of the fishing industry going forward?
    Answer. NOAA plans to manage this sector of the aquaculture 
industry as part of a comprehensive national framework for domestic 
marine aquaculture. On September 3, 2009, the agency announced its 
intent to develop a new national policy for marine aquaculture in the 
coming months, including aquaculture activity in Federal waters. The 
national policy will build on NOAA's significant work to date to 
safeguard U.S. coastal and ocean environments, while enabling 
sustainable domestic aquaculture that adds to the U.S. seafood supply 
and supports important commercial and recreational fisheries. The 
policy also will include development of coordinated Federal standards 
for permitting aquaculture facilities in Federal waters and strategies 
to provide the scientific information needed for permitting decisions. 
This approach will ensure that offshore aquaculture proceeds in an 
environmentally responsible manner that is consistent with NOAA's 
stated policy to protect wild stocks and the quality of marine 
ecosystems and is compatible with other uses of the marine environment. 
The new national policy also will provide context for the Fishery 
Management Plan (FMP) for Regulating Offshore Aquaculture in the Gulf 
of Mexico, which took effect on September 3, 2009, by operation of law.

    Question 31. At our hearing on May 9, Alexandra Cousteau said that 
if we are to take ocean policy serious, we need to take it to the land. 
Land-based pollution is one of the biggest threats to our oceans, how 
will the Administration help communities and local business address 
this threat if it is proposing to zero out the non-point pollution 
implementation grants?
    Answer. The Administration has not included specific funding for 
non-point pollution implementation grants within NOAA's budget. 
However, the Administration has requested funding for non-point 
pollution efforts in the budget requests for both the Environmental 
Protection Agency and U.S. Department of Agriculture.
    Within the NOAA budget, existing Coastal Zone Management Act (CZMA) 
funding mechanisms can be used to support non-point pollution efforts. 
States can use a portion of their CZMA Section 306 funding for non-
point pollution control. While there is no specific request for non-
point pollution, other programs including the National Centers for 
Coastal Ocean Science, the Coastal Services Center, and the National 
Estuarine Research Reserve System, develop and disseminate management 
tools and scientific research on non-point source pollution problems 
and responses.

    Question 32. At the confirmation hearing for you and Dr. Holdren, I 
asked both of you how to ensure that NOAA and the National Marine 
Fisheries Service had adequate say in the environmental decisions 
regarding offshore oil and gas drilling in the Arctic. In particular, I 
was concerned that the agency's scientists had been ignored by Minerals 
Management Service in the past, and want to make sure that mistake is 
not repeated. What steps have you taken within NOAA, and the Obama 
Administration taken throughout the Federal Government, to ensure that 
environmental agencies' concerns are given the deference they deserve?
    Answer. NOAA, the Minerals Management Service (MMS), and other 
Federal agencies involved in Arctic oil and gas development issues 
coordinate our views at the field level and coordinate on policy issues 
at the headquarters level, with significant national issues handled 
through the Council on Environmental Quality (CEQ). For example, NOAA 
recently provided input to CEQ on the Department of the Interior's 
review of its 5 year plan for outer continental shelf exploration and 
development.
    For Arctic issues in particular, NOAA Fisheries Service's staff in 
Alaska routinely meet with MMS to discuss the potential effects of oil 
and gas exploration and development on fish stocks, marine mammals, 
human users, and other components of the ecosystem. This is done 
through a variety of avenues. Examples include coordination and review 
of MMS's Annual Studies Plans; consultations under the Endangered 
Species Act and the Magnuson-Stevens Fishery Conservation and 
Management Act on lease sales, exploration (both seismic and 
exploratory drilling), and development plans; and coordination of oil 
spill response plans.

    Question 33. What is NOAA's current involvement in the Department 
of Interior's reevaluation of arctic oil and gas drilling plans?
    Answer. NOAA recently provided comments to the Minerals Management 
Service (MMS) on the Draft Environmental Impact Statement for the 
Beaufort and Chukchi Sea Planning Areas--Oil and Gas Lease Sale Areas 
209, 212, 217, and 221, and continues to work with MMS to address 
resource issues.
    NOAA also works with the Department of the Interior to develop oil 
spill contingency plans. These plans include ensuring environmentally 
sensitive areas are mapped and strategies are prepared to protect 
marine resources.
    The week of July 20, 2009, NOAA and MMS held a Strategy Retreat in 
Anchorage, Alaska to discuss upcoming Arctic oil and gas activities.

    Question 34. What steps are you taking to ensure that as the 
Department of Interior reevaluates its arctic oil and gas drilling 
plans, NOAA's scientists are free to give their professional scientific 
evaluations and that those evaluations are given the weight they 
deserve?
    Answer. NOAA's primary role in these matters is to provide 
scientific information and resource management advice to minimize 
adverse effects of oil and gas drilling on the marine mammals and fish 
that rely on the fragile Arctic environment. NOAA also has a role in 
authorizing the incidental take of marine mammals that may result from 
oil and gas activities authorized by the Minerals Management Service 
(MMS). NOAA scientists are encouraged to provide their professional 
advice on these issues, providing MMS with the best available 
information to support informed decisionmaking.
    NOAA will continue to work with agencies such as MMS to ensure 
sound management decisions by:

  <bullet> Participating in the environmental impact analysis of 
        proposed actions that may adversely affect living marine 
        resources and their habitats;

  <bullet> Consulting with the Federal action agencies under the 
        Endangered Species Act and Magnuson-Stevens Fishery 
        Conservation and Management Act;

  <bullet> Recommending measures to avoid, minimize, or offset adverse 
        effects;

  <bullet> Providing technical assistance, sharing available data, and 
        identifying data gaps; and

  <bullet> Working with the oil and gas industry applicants during the 
        Marine Mammal Protection Act process to prescribe measures to 
        effect the least practicable impact on marine mammal species 
        that may be harassed by oil and gas activities.

    Question 35. Last Congress, the Subcommittee led the successful 
effort to reauthorize the National Sea Grant College Program Act at 
substantially higher funding levels. It was disappointing to see that 
the program was level-funded in NOAA's recent budget proposal. How can 
we work together to build on Sea Grant's more than 40 years of success 
in marine and coastal research, education and outreach?
    Answer. NOAA appreciates Congressional support for the National Sea 
Grant College Program. Sea Grant is NOAA's primary university-based 
program in support of coastal resource use and conservation. Sea 
Grant's research and outreach programs promote better understanding, 
conservation, and use of America's coastal resources, addressing issues 
from local to global concerns.
    The President's FY 2010 Budget requests approximately $55 million 
for the National Sea Grant College Program, consistent with 
Administration priorities and FY 2009 levels; the FY 2010 request also 
provides an additional $88,000 for an Adjustment to Base (ATB). The ATB 
for Sea Grant is part of a larger NOAA ATB request within the 
President's request for Fiscal Year 2010. Across NOAA, increases for 
ATBs will enable NOAA to fund the estimated FY 2010 Federal pay raise 
of 2.0 percent and annualize the FY 2009 pay raise of 3.9 percent. This 
request is critical to sustain the current operations level and support 
the estimated number of full-time employees in 2010. Without these 
funds, NOAA will not be able to support inflation for labor and non-
labor activities including service contracts, utilities, field office 
leases and rent charges from the General Services Administration.

    Question 36. How can the Sea Grant network be better used by NOAA 
to achieve its mission responsibilities?
    Answer. NOAA and Sea Grant are aligning their strategic objectives 
to new and emerging NOAA and regional mission priorities and 
responsibilities. The Sea Grant program's network is being relied upon 
to help NOAA better connect with stakeholders at the regional level.
    As one example, NOAA is working to better utilize the Sea Grant 
program's networks to provide climate services to key stakeholders. 
NOAA is expanding regional coordination and communication efforts by 
integrating program activities to more effectively address NOAA's 
mission at both the national and regional scales. In FY 2010, NOAA is 
seeking to advance priority climate engagement strategies throughout 
the agency through climate engagement mini-grants. These climate 
engagement projects will serve to catalyze collaboration and 
cooperation between Sea Grant and the NOAA regional teams and will 
jumpstart NOAA's ability to provide climate services to key 
stakeholders. These projects will also serve as internal models for all 
regions, line offices, and agency programs.

    Question 37. What is your vision of Sea Grant's role in the 
National Climate Service?
    Answer. The impacts of climate change are imminent for coastal and 
island communities, which are home to over fifty percent of the U.S. 
population, contribute to one-third of the U.S. gross domestic product, 
and produce one-half of the Nation's jobs. The Sea Grant extension 
network offers a conduit to provide climate services to key 
stakeholders, including immediate assistance to mayors and coastal 
communities. In addition, Sea Grant can work to develop community 
knowledge and expertise related to: renewable production and efficient 
use of energy; adaptation to the impacts of climate change; sustainable 
approaches to building-scale and community development.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                           Dr. Jane Lubchenco

    Question 1. The Coral Reef Conservation Act of 2000 (CRCA) 
established the Coral Reef Conservation Program (CRCP) within NOAA and 
authorized appropriations to NOAA for coral reef protection and 
management through 2004. The CRCA provided NOAA with the authority to 
undertake a number of activities to understand, manage, and protect 
coral reef ecosystems by authorizing five major activities including 
the National Coral Reef Action Strategy (NAS); a granting program for 
coral reef conservation projects in the states and territories; the 
establishment of the Coral Reef Conservation Fund in partnership with 
the non-profit National Fish and Wildlife Foundation; additional 
authority for NOAA to implement a national program to conserve coral 
reef ecosystems; and authority for the NOAA Administrator to provide 
grants to state and local governments to respond to unforeseen or 
disaster-related coral reef emergencies.
    NOAA's CRCP is a valuable program that should be reauthorized in 
order to ensure that these authorities are preserved and updated. It is 
my understanding that NOAA currently has a draft bill in preparation. I 
look forward to working with the Administration in crafting a bill for 
consideration. To this end, when do you estimate the Administration's 
proposed bill will be made available?
    Answer. NOAA will not be forwarding an Administration proposal to 
reauthorize the Coral Reef Conservation Act to Congress for 
consideration in the 111th Congress. We intend to work with the Senate 
and the House on any introduced legislation to ensure it meets the 
needs of the Administration. To that end, NOAA generally supports the 
direction taken in S. 1580, which was considered in the 110th Congress. 
We look forward to working with the Senate Committee on Commerce, 
Science, and Transportation when similar legislation is introduced this 
Congress.

    Question 2. More than 80 percent of seafood consumed in this 
country is imported--often from nations that do not have stringent 
environmental and conservation regulations. More than half of that 
imported seafood is farm-raised, again with little environmental 
regulation. In my home state of Hawaii, we are fortunate to have 
environmentally-responsible aquaculture as part of our economy, but 
many other states and territories are moving their operations abroad 
because of the inability to obtain permits in the U.S. Unfortunately we 
will lose important jobs in the process. What is your position on 
establishing a national framework for domestic aquaculture, fostering a 
viable domestic industry, and keeping both environmentally-sustainable 
jobs and food supply here in the U.S.?
    Answer. NOAA supports establishing a national framework for 
domestic marine aquaculture. On September 3, 2009, the agency announced 
its intent to develop a national policy in the coming months, including 
a comprehensive framework for addressing aquaculture activity in 
Federal waters. The national policy will build on NOAA's significant 
work to date to safeguard U.S. coastal and ocean environments, while 
enabling sustainable domestic aquaculture that adds to the U.S. seafood 
supply and supports important commercial and recreational fisheries. 
The policy also will include development of coordinated Federal 
standards for permitting aquaculture facilities in Federal waters and 
strategies to provide the scientific information needed for permitting 
decisions. The new national policy also will provide context for the 
Fishery Management Plan (FMP) for Regulating Offshore Aquaculture in 
the Gulf of Mexico, which took effect on September 3, 2009, by 
operation of law.
    The new national policy for aquaculture will help foster a more 
robust domestic aquaculture industry that provides safe and sustainable 
seafood and jobs for our Nation. At the same time, the policy will 
ensure effective management of the industry through reasonable 
regulations and policies that protect and conserve marine species and 
habitats and ensure that the industry operates in a manner consistent 
with NOAA's stewardship responsibilities.

    Question 3. What role will aquaculture play, in partnership with 
the Magnuson-Stevens Act, in the broad mandate to end overfishing? What 
level of funding would be required for such an effort?
    Answer. One of NOAA's missions is to manage the sustainable use of 
marine resources to provide safe and sustainable seafood and create 
jobs in coastal communities. Marine aquaculture and traditional harvest 
fisheries together achieve both of these goals. With wild capture 
harvest at or above sustainable levels for many fisheries, and with 
demand for seafood growing, wild capture fisheries should be rebuilt 
and domestic marine aquaculture should grow to provide safe seafood and 
economic opportunities for struggling coastal towns. The President's FY 
2010 Budget requests $7.7 million for the NOAA Aquaculture Program.
    Two key areas where aquaculture can help to end are: (1) using 
demonstration projects to assist interested fishermen in adopting 
aquaculture practices, and (2) using stock enhancement to help rebuild 
overfished stocks.
    Demonstration Projects: NOAA is currently exploring options to 
develop a network of near-shore and onshore aquaculture demonstration 
projects with state, local, academic, and traditional fishing and 
aquaculture industry partners. These projects would build on lessons 
learned from similar projects in Puerto Rico, New Hampshire, and Hawaii 
by testing new technologies and serving as ``learning laboratories'' to 
further monitor and minimize environmental impacts. These projects 
could act as floating classrooms to train interested fishermen in 
adopting sustainable marine aquaculture practices.
    Stock Enhancement: Stock enhancement is a type of aquaculture that 
has shown promise for reducing the natural rebuilding time required for 
some depleted fish stocks. NOAA-sponsored stock enhancement research is 
underway to help achieve fishery management and habitat restoration 
goals around the Nation--such as rebuilding stocks of Alaskan king 
crab, Pacific groundfish, and salmon, restoring oyster reefs, as well 
as protecting and enhancing depleted near-shore fishery resources in 
Hawaii.

    Question 4. What role will the Marine Spatial Planning (MSP) tool 
have in assisting with proper siting for aquaculture?
    Answer. NOAA plans to build on past work as well as the ongoing 
work of the Ocean Policy Task Force to create a comprehensive framework 
for marine aquaculture that facilitates safe and sustainable U.S. 
operations. Within this context, Marine Spatial Planning would provide 
an analytical and decision-making tool to help determine where 
aquaculture facilities could be located in the context of multiple 
other uses. Importantly, in addition to informing where facilities 
should avoid siting aquaculture operations, Marine Spatial Planning can 
also identify locations where potential synergies could arise from co-
location. For example, a symposium scheduled this Fall in Rhode Island 
will explore the idea of co-locating wind farms with aquaculture 
operations to achieve multiple benefits and reduce the environmental 
footprint of such an operation.

    Question 5. Will the lack of a current regulatory framework for 
offshore aquaculture prevent it from being an active part of the MSP 
process?
    Answer. NOAA has funded several Marine Spatial Planning research 
projects (now underway) to look at aquaculture siting and carrying 
capacity in Federal and state waters. NOAA Aquaculture Program staff is 
actively engaged in Marine Spatial Planning discussions within NOAA to 
make sure aquaculture is considered in the process. However, a 
comprehensive aquaculture regulatory framework in Federal waters, as a 
complement to the new national aquaculture policy that the agency is 
developing in the next several months, would provide a stronger basis 
for consideration of the emerging needs of this sector.

    Question 6. U.S. fisheries are among some of the most stringently 
managed fisheries globally. However, as mentioned above, more than 80 
percent of all seafood consumed in the U.S. is imported. Many of these 
countries do little to ensure that their fisheries are sustainable, and 
in some cases even fail to comply by their own or international fishery 
management measures. In my home state we are facing the challenge of 
maintaining a stake in the Pacific domestic tuna market as a result of 
the non-compliance of other Pacific nations, and I have explored with 
you some creative ideas on how to level the field for U.S. fisherman 
and how to preserve our competitiveness in the market. To this end, I 
would appreciate your thoughts on how we can work together to move this 
issue forward and level the playing field for U.S. fishermen.
    Answer. The United States actively supports the adoption of 
measures to ensure an ecosystem approach to fisheries management in 
multilateral fora, including measures to stop overfishing, rebuild 
overfished stocks, and reduce bycatch and bycatch mortality. Given the 
highly migratory nature of many of our important U.S. fish stocks, it 
is crucial for the United States to work cooperatively with its 
international partners to develop sustainable fisheries. NOAA believes 
that by working collaboratively through the multilateral process, 
agreements can be reached on measures that will have a wide-ranging 
impact on marine stewardship.
    In addition to these multilateral efforts, NOAA is working through 
the new measures in the 2006 reauthorization of Magnuson-Stevens 
Fishery Conservation and Management Act to identify countries whose 
fishing vessels have been engaged in illegal, unreported and 
unregulated fishing and bycatch, and to build capacity in developing 
countries to address these issues. Under the international provisions 
of the Magnuson-Stevens Fishery Conservation and Management Act, 
subsequent to consultations with each identified nation, the Secretary 
of Commerce is required to certify whether the Nation has taken 
corrective action or whether the relevant international organization 
has implemented effective measures to address the illegal, unreported, 
and unregulated or bycatch activities of concern. The absence of 
sufficient steps to address illegal, unreported, and unregulated 
fishing or bycatch may lead to the denial of port privileges for 
vessels of an identified nation, prohibitions on the importation of 
certain fisheries products into the United States from that nation, or 
other measures.
    In January 2009, NOAA submitted its first report to Congress under 
this new authority. The report identifies six nations as having vessels 
engaged in illegal, unreported, and unregulated fishing during 2007-
2008: France, Italy, Libya, Panama, the People's Republic of China, and 
Tunisia. The U.S. Government has informed each nation of their 
identification and has sought or initiated formal consultations. To 
date, the U.S. Government has met with government representatives from 
all of the previously mentioned countries, except Tunisia, to discuss 
these issues. These meetings were productive and will help open the way 
for continued consultations between the U.S. Government and officials 
of these nations to encourage these nations to take corrective actions 
to stop illegal, unreported, and unregulated fishing by their vessels. 
These meetings also served as an invitation for these nations to work 
cooperatively with the U.S. Government to address illegal, unreported, 
and unregulated fishing on a bilateral basis and through international 
fishery management organizations.
    One of the most effective ways to promote sound practices is to 
provide other nations with tools, training, and resources to increase 
their capacity for sustainable fisheries management and enforcement. To 
this end, NOAA has hosted several international workshops and training 
sessions including bycatch reduction techniques, cooperative research, 
and observer programs. There has been a tremendous response to these 
successful efforts, and demand for assistance continues to grow. In 
addition to improving the capabilities in the developing world, these 
collaborative activities can strengthen relations with other countries 
and thereby enhance U.S. ability to successfully negotiate at meetings 
of international fishery management organizations.

    Question 7. Many of the employees in your agency participate in the 
Program Planning, Budgeting, and Execution System (PPBES) process to 
calculate the needs of their programs over the short- to mid-term in 
accordance with NOAA's long-term goals. This information is carefully 
derived and will be valuable to you as you continue to come up to speed 
about the broad, diverse range of programs within your NOAA portfolio, 
and the specific financial resources required. These data also provide 
a direct link between NOAA's career employees and the priority-setting 
process. Upon review of the system, what do you envision as the future 
role of PPBES or other similar system?
    Answer. I am still evaluating the PPBES process NOAA uses and need 
to better understand the strengths and weakness of the system. I 
appreciate the performance measures and justifications that come from 
the process, but I feel work needs to be done to better align the 
budget process with the strategic process. The current system is 
adequate for evaluating the efficiencies of existing resources before 
asking for new or additional funding.

    Question 8. How do you plan to use these PPBES data?
    Answer. PPBES data is useful for evaluating the efficiencies of 
existing resources before asking for new or additional funding. It will 
continue to be used to calculate the needs of the programs in 
accordance with NOAA's goals and missions.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                           Dr. Jane Lubchenco

    Question 1. The Gulf longline grouper fishery recently closed due 
to interactions with loggerhead sea turtles; best case scenario, it 
will reopen in the Fall with a reduced fleet. This fishery provides 
over 2,000 jobs not just for fishermen, but also for restaurants and 
fish houses. It also generates about $88 million for Florida's economy 
along with the tilefish fishery. In order to gain more comprehensive 
data about turtle interactions, we need to drastically increase 
observer coverage in this fishery. Unfortunately, observer coverage as 
a whole historically has been underfunded. How does the President's 
budget address this crucial component of fisheries management, and how 
will it provide the commercial grouper fishery in the Gulf of Mexico 
with the observer coverage it needs?
    Answer. The number of sea turtle interactions observed in the 
bottom longline fishery was sufficiently high to trigger an Emergency 
Rule prohibiting bottom longline gear inside the 50-fathom contour in 
the eastern Gulf of Mexico. Estimates of sea turtle interactions were 
derived by observing only a small percentage of the bottom longline 
fishery. Improved coverage would allow greater confidence in the 
estimate of sea turtle interactions. The President's budget for FY 2010 
requests an additional $330,000 over the FY 2009 funding level for 
observer coverage in the Gulf of Mexico Reef fish fishery. This 
increase will provide an additional 315 observer sea days necessary to 
achieve greater precision in the turtle interaction estimate. This 
increased coverage will allow for more extensive data collection and 
documentation of such factors as fishing gear, bait modifications, and 
environmental variables that may provide insights into strategies for 
reducing bottom longline and sea turtle interactions.

    Question 2. I am pleased to see that the FY 2010 Budget Request 
includes an increase of $13 million for Hurricane Forecast System 
Improvements to accelerate improvements in hurricane track and 
intensity forecasting. Senator Martinez and I will be introducing a 
bill to support hurricane research and mitigation. In what ways is NOAA 
working to build partnerships with the external hurricane research 
community, in this effort to improve our collective understanding of 
and operational forecasting of hurricanes?
    Answer. NOAA is building partnerships with the external hurricane 
research community in following ways:

        (1) NOAA builds partnerships with the external hurricane 
        research community through cooperative agreements in which NOAA 
        scientists are substantially involved in the research and 
        science.

                a. Through the National Hurricane Center's (NHC) Joint 
                Hurricane Test Bed, NOAA is funding the transfer of 
                promising research in both academia and other 
                government labs directly into forecast operations at 
                NHC. The identification of the most promising research 
                is done collaboratively between NOAA, academic, and 
                Department of Defense (DOD) researchers. NOAA has been 
                investing $1 to $1.5 million per year in this research 
                since 2001.

                b. In partnership with the Office of Naval Research 
                (ONR), NOAA is actively funding research in the 
                external community to improve our capability to 
                forecast hurricane intensity changes through the 
                National Ocean Partnership Program. NOAA and ONR are 
                each investing $1 million in this effort.

                c. The NOAA Atlantic and Oceanographic Laboratory's 
                Hurricane Research Division is sponsoring hurricane 
                modeling and coastal observation research at the 
                University of Miami's Rosenstiel School of Marine and 
                Atmospheric Sciences (RSMAS), Naval Post Graduate 
                School, and at the University of South Alabama.

                d. NOAA's National Weather Service is also supporting 
                research at RSMAS to improve our understanding and 
                prediction of hurricane intensity changes.

                e. Florida International University is conducting 
                hurricane storm surge research on NOAA's behalf.

                f. NOAA supports the Florida Hurricane Mitigation 
                Alliance of 7 public universities research of various 
                topics related to land falling hurricanes and their 
                socioeconomic impact.

                g. NOAA's Office of Oceanic and Atmospheric Research is 
                jointly sponsoring research with the National Science 
                Foundation on the mitigation of socioeconomic impact of 
                hurricanes and tropical cyclones.

        (2) In partnership with the National Science Foundation, United 
        States Navy, National Aeronautical and Space Administration, 
        and the University Corporation for Atmospheric Research, NOAA 
        is working to develop a National Hurricane Research Alliance to 
        coordinate hurricane research and mitigation efforts. NOAA and 
        the Navy are jointly leading a taskforce of government research 
        leaders and managers, through the Office of the Federal 
        Coordinator for Meteorology and Supporting Research, to 
        coordinate the overall Federal hurricane research efforts.

        (3) NOAA is actively collaborating with the external scientific 
        community through a visiting scientist program administered at 
        NHC. This program enables at least 12 scientists to become 
        familiarized with NHC forecast capabilities and limitations and 
        to exchange ideas on possible enhancements to forecast 
        operations.

        (4) NOAA's Hurricane Forecast Improvement Project is actively 
        supporting collaborative research at a number of universities, 
        including Pennsylvania State University, University of 
        Wisconsin, Colorado State University and the University of 
        Arizona, to improve the modeling of hurricanes and improved 
        hurricane forecast guidance. NOAA is funding collaborative 
        efforts with the National Center for Atmospheric Research's 
        Research Applications Laboratory and university scientists to 
        improve hurricane intensity models. This partnership provides a 
        collaborative modeling environment for use by the broader 
        academic community.

    NOAA's scientists are actively collaborating with the broader 
research community on numerous externally funded projects and in 
scientific and administrative workshops, committees, and meetings such 
as the American Meteorological Society's Conference on Hurricanes and 
Tropical Meteorology.

    Question 3. Coastal communities require accurate land elevation 
data and water depth data to build levees and flood protection 
infrastructure; to ensure safe and efficient marine transportation; to 
plan evacuation routes; to estimate storm surge; and to monitor the 
impact of sea-level rise.
    Dr. Lubchenco, the 2010 President's Budget provides additional 
funding to improve elevation and height information throughout the 
United States. What is the importance of this initiative to the 
National Spatial Reference System, which NOAA manages and maintains?
    Answer. The FY 2010 President's Budget requests an increase of $4 
million to improve elevation information as a foundation for better 
commerce, economic efficiencies, and to better protect the public from 
coastal hazards and flooding. This requested funding supports the NOAA 
``Gravity for the Redefinition of the American Vertical Datum'' (GRAV-
D) initiative.
    The GRAV-D initiative will allow NOAA to enhance the vertical 
component of the National Spatial Reference System (NSRS). The NSRS 
includes a network of permanently marked points; a consistent, 
accurate, and up-to-date national shoreline; a network of continuously 
operating reference stations which supports three-dimensional Global 
Navigation Satellite System positioning activities (such as using the 
global positioning system or GPS); and a set of accurate models 
describing dynamic, geophysical processes that affect spatial 
measurements.
    The GRAV-D initiative will improve elevation and height information 
through the collection of high resolution gravity data and will 
establish a new vertical datum for the country. This new vertical datum 
will provide the baseline for a more accurate NSRS that will improve 
transportation and infrastructure planning and repair, shoreline 
mapping and charting for commerce and safety, and a multitude of 
scientific and engineering applications.
    According to a 2009 socioeconomic study,\1\ refining and 
modernizing the NSRS by measuring elevation through GRAV-D has the 
potential to provide an additional $522 million in annual economic 
benefits to the U.S. economy.
---------------------------------------------------------------------------
    \1\ Levenson, Irving (2009) Socio-Economic Benefits Study: Scoping 
the Value of CORS and GRAV-D, Final Report. Report available at http://
www.ngs.noaa.gov/PUBS_LIB/Socio-EconomicBenefitsofCORSandGRAV-D.pdf).

    Question 4. How will this initiative improve our ability to plan 
for and adapt to challenges such as inundation from hurricanes, 
flooding and sea-level rise?
    Answer. The Global Positioning System (GPS) yields accuracies of a 
few yards. To improve this accuracy NOAA provides additional 
information in the form of Continuously Operating Reference Stations, 
and a differential processing service called, ``Online Positioning User 
Service.'' These systems allow processing of GPS data to achieve 
accuracies of less than one-half inch horizontally.
    Even with this additional processing, GPS is currently incapable of 
providing accurate elevations, or heights, relative to sea level. Once 
GRAV-D is completed, the new gravity-based vertical datum for the U.S. 
will, for the first time, enable transformation of ellipsoid (GPS) 
heights to orthometric (Sea Level) heights for the entire country and 
provide national elevations with GPS to an accuracy of under an inch, 
compared to a range of 16 inches to six feet or more today.
    The lack of accurate orthometric data is a nationwide problem, and 
coastal regions are especially concerned about using current, 
unreliable elevation data as the basis for public safety decisions, 
evacuation route planning, flooding and storm surge prevention efforts, 
and coastal restoration. Improving vertical data through this 
initiative will reduce elevation errors in floodplain mapping. This 
information will support improved decision-making regarding planning 
for building structures, highways, public safety requirements, levee 
construction, and evacuation routes, and may subsequently affect 
insurance rates. Once completed, the new national vertical datum will 
also help users better anticipate the potential damage associated with 
coastal storms, river flooding, sea level rise, and climate change that 
a home, road, or other structure might incur. The 2009 socioeconomic 
study estimated that this new initiative could save the Nation an 
estimated $240 million in costs annually through improved floodplain 
management alone. If appropriated, the increase requested in the FY 
2010 President's Budget will enable NOAA to provide the accurate 
orthometric elevation data throughout the United States, beginning in 
coastal and at-risk areas prone to flooding after extreme weather 
events.

    Question 5. How will this initiative support marine spatial 
planning efforts?
    Answer. Effective marine spatial planning will rely on many sources 
of data and information, including accurate geodetic and tidal datum 
reference system. The National Spatial Reference System, as enhanced by 
the NOAA ``Gravity for the Redefinition of the American Vertical 
Datum'' (GRAV-D) initiative, will provide the necessary framework, at 
the appropriate accuracy level, for marine and coastal mapping and 
delineation of uses.
    Because most maritime boundaries were defined without this 
framework, many of the world's nautical charts, treaties, and 
regulations may contain marine boundary descriptions that are 
insufficiently defined for use in effective and accurate marine spatial 
planning efforts. These discrepancies can negatively affect many ocean 
related activities, including marine managed areas, resource and 
alternative energy development, open ocean disposal zones, and 
enforcement of fishing and environmental laws. If appropriated, the 
increase requested in the FY 2010 President's Budget Request will 
enable NOAA to improve the geodetic infrastructure used for marine 
spatial mapping and planning throughout the Nation, beginning in 
coastal areas.
    Improved data providing accurate information regarding water depth 
and land elevation will support effective marine spatial planning. In 
addition to navigation, accurate and detailed water depth data is vital 
to support decisions, such as those related to the development of 
offshore renewable energy infrastructure. Data collected through the 
GRAV-D initiative will support efforts to map the character of the 
seabed at a resolution currently unavailable on the outer continental 
shelf, and will therefore help to address one of the challenges for 
siting and permit review currently limiting infrastructure development. 
Data produced through the GRAV-D initiative will also allow for 
accurate determination of state and Federal boundaries, on which 
revenue sharing for offshore energy depends. Because these boundaries 
are measured from baseline points at the mean low-tide line, it is 
important to monitor sea-level rise at the finest possible resolution 
as these boundaries will move relative to the rising seas. As a final 
example, the data collected through the GRAV-D initiative will support 
planning for new energy infrastructure to ensure connection points on 
land are not placed in areas vulnerable to sea-level rise and its 
related impacts.

    Question 6. Florida is at the front lines of climate change. From 
2003 to 2008, for example, the coastal populations in St. Johns River, 
FL, Cape Canaveral, FL, and Santa Ana, CA, all grew by over 70 percent. 
These communities will be directly impacted by sea level rise. 
Satellite sensors are indispensable tools for monitoring sea height 
globally. The Jason/OSTM satellite missions, jointly led by NASA-NOAA-
EUMETSET, are important for tracking ocean circulation patterns, for 
measuring sea-surface heights, and for modeling tropical cyclone 
intensity and storm surge. This is a proven technology, and we need to 
ensure overlap with Jason-2 for calibration and validation, and for 
maintaining data continuity.
    During Governor Gary Locke's nomination hearing, I asked Governor 
Locke where the Jason satellite mission fell within Commerce's budget 
priorities for 2010 and beyond. I am pleased to see that an additional 
20 million dollars has been included for the Jason-3 Altimetry mission 
in the FY2010 Budget Request. Dr. Lubchenco, perhaps you could briefly 
comment on the importance of the Jason-3 mission, and the scientific 
research it will support?
    Answer. The importance of the Jason-3 satellite altimeter mission 
is perhaps best considered in the context of understanding how 
maintaining continuity of the satellite record of sea surface height 
will help coastal states, like Florida. The data from Jason-3 will help 
to inform coastal states about two different climate-related threats, 
primarily the threat of an acceleration in the rate of sea level rise 
caused by global warming, and possible changes in the number and 
intensity of hurricanes.
    Sea Level Rise: Sea level rise directly threatens people who live 
in coastal areas and coastal infrastructure through inundation; 
increased erosion; more frequent storm-surge flooding; and loss of 
habitat through drowned wetlands. The only feasible way to resolve the 
spatial variability needed to accurately determine global sea level 
rise is by means of satellite altimetry, specifically the systematic 
collection of sea level observations initiated by TOPEX/Poseidon in 
1992 and being continued today by the on-going Jason series of 
satellite missions. A complementary global network of tide gauges, each 
with geodetic positioning to estimate vertical land motion, provide 
essential cross-validation for sea level rise. Together, these 
observations indicate that global sea level has been rising nearly 
twice as fast over the past 1.5 decades as over the past century (3.1 
mm/yr vs 1.7 mm/yr). Whether this increase reflects a true long-term 
acceleration or decadal variability remains to be determined. It is 
important to note, however, that altimeter observations of global sea 
level rise overlay the mid-point of the Intergovernmental Panel on 
Climate Change (IPCC) projections for the late 21st century (2090-
2099).
    The IPCC projections of global sea level rise during the 21st 
century range between 18 and 59 cm, and local changes could be 
substantially different. In order to understand and improve the 
projections of sea level rise, it is necessary to continue the Jason 
series of sea level observations and also monitor the major 
contributors to change--thermal expansion due to the warming oceans, 
and the addition of melt water due to the warming of terrestrial ice 
sheets and glaciers (and, to a lesser extent, changes in terrestrial 
water storage by lakes, reservoirs and aquifers). Thermal expansion 
estimates, previously based on sparse coverage by ship observations, 
now principally come from the Argo array of profiling floats. Initiated 
in 2000 and having achieved full coverage with 3,000 floats in late 
2007, Argo is systematically observing the temperature and salinity in 
the upper half of the global, ice-free oceans on a continuing basis.
    A number of research programs are directed at estimating the 
addition of melt water. For example, these programs measure changes in 
the gravity of the ice sheets and oceanic water masses, as well as 
changes in the topography and flow rate of glaciers and ice sheets to 
help determine how much the additional water is contributing to sea 
level rise. Jason-3 and Argo observations will contribute to this 
research by providing continuing baseline measurements of the amount of 
global sea level rise, as well as estimates of the thermal expansion 
component to determine how much of the sea level rise is due to ocean 
warming. Together, these estimates can be used to infer a contribution 
from melting glaciers and ice sheets as a consistency check for these 
research efforts, as well as help assess the performance of climate 
models projecting sea-level rise.
    Hurricane Intensity Prediction: The Jason-3 mission will also serve 
a critical operational function, helping to improve the prediction of 
hurricane intensity. Hurricanes feed on heat energy stored in the upper 
layer of the ocean and can dramatically increase in strength when 
passing over patchy areas of high heat content, such as those often 
found in the Gulf of Mexico. The evolution of Hurricane Katrina as it 
traversed the Loop Current in the Gulf is a good example of this 
process. Professor Lynn Shay of the University of Miami, in 
collaboration with NOAA researchers, has developed a method for mapping 
the location and magnitude of ocean heat anomalies using altimeter 
observations, supplemented with in-ocean temperature measurements. This 
information is presently employed by the National Hurricane Center to 
initialize their Statistical Hurricane Intensity Prediction Scheme 
(SHIPS) for intensity forecasts. The use of Jason altimeter data in 
this fashion has been shown to reduce SHIPS forecast errors between 5 
to 22 percent. A Jason-3 mission will enable the continued use and 
refinement of this important forecast capability.
    The Jason series is in the process of being transitioned as a 
research endeavor from NASA and CNES (the French Space Agency) to NOAA 
and EUMETSAT (NOAA's operational satellite counterpart in Europe) for 
joint implementation as a sustained operational capability. This 
process has started, as NOAA and EUMETSAT are currently responsible for 
the ground system and operation of the Jason-2 satellite launched in 
June 2008. The launch of Jason-3 will complete the transition. By 
sharing costs with the Europeans starting in FY 2010, both Europe and 
the United States have a cost-effective way to assure continuity of sea 
surface height measurement.

    Question 7. The National Polar-Orbiting Environmental Satellite 
System (NPOESS) system is considered a critical system for forecasting 
the weather, including path and intensity of hurricanes, and for 
monitoring global climate change. The NPOESS Independent Review Team, 
led by the well-respected Tom Young, will be releasing a report that 
calls for an immediate restructuring of the NPOESS program. What are 
the best options for NPOESS?
    Answer. The Office of Science and Technology Policy (OSTP) is 
leading a task force with representation from the Office of Management 
and Budget and the National Security Council that is working with NOAA, 
the Department of Defense (DOD) and the National Aeronautics and Space 
Administration (NASA) to analyze suitable options for strengthening the 
NPOESS program.
    OSTP is taking into account the IRT recommendations as it proceeds 
forward with the goals as laid out for the task force.

    Question 8. What immediate steps are being taken by NOAA and the 
Administration to address this problem, and who ultimately will be 
responsible for making the decisions?
    Answer. The Office of Science and Technology Policy (OSTP) has 
formed a task force with representation from the Office of Management 
and Budget and the National Security Council that is working with NOAA, 
the Department of Defense (DOD), and the National Aeronautics and Space 
Administration (NASA) to determine suitable options to help make the 
NPOESS mission more successful and avoid potential gaps in coverage or 
data availability.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                           Dr. Jane Lubchenco

    Question 1. Changes in ocean chemistry caused by carbon dioxide 
will affect our food supply and the health of our oceans, yet research 
on ocean acidification is still in its infancy. I wrote a bill that 
recently became law requiring NOAA to lead an effort to study the 
effects of ocean acidification. Is this budget adequate to allow NOAA 
to carry out this important work?
    Answer. The FY 2010 President's Budget includes a request for $9.9 
million for research on ocean acidification, which is an increase of 
$5.5 million. The additional funds will implement long-term monitoring 
of ocean acidification, and an integrated Ocean Acidification 
initiative to understand, monitor and forecast how ocean acidification 
affects the Nation's ecosystems and living marine resources. NOAA looks 
forward to working with Congress to implement the recently passed 
Federal Ocean Acidification Research and Monitoring Act, which creates 
an ocean acidification program within NOAA, and it will continue to 
assess and evaluate the budget that will be needed to allow NOAA to 
carry out this important work.

    Question 2. What progress has been made in implementing the ocean 
acidification program?
    Answer. NOAA looks forward to working with Congress to implement 
the recently passed Federal Ocean Acidification Research and Monitoring 
Act, which creates an ocean acidification program within NOAA. NOAA 
maintains a continued leadership role in this issue area, as we work 
with our interagency partners to coordinate the development of the 
required interagency working group and ocean acidification plan through 
the Joint Subcommittee on Ocean Science and Technology. NOAA is 
currently developing a coordinated plan to monitor and conduct research 
on the effects of ocean acidification on marine organisms and 
ecosystems. NOAA is also developing a set of options for evaluation, as 
we work to develop the structure of the ocean acidification program 
within NOAA. Finally, NOAA scientists met in March 2009 to draft a set 
of priorities for ocean acidification research, based on the 
anticipated ecosystem and socioeconomic impacts (at both regional and 
national scales) that will likely result from increased ocean 
acidification. Writing teams are currently drafting these priorities, 
and implementation actions will be carried via a prospective 
interagency plan.

    Question 3. Negotiations will soon take place on international 
regulations on fishing for Atlantic tuna. Many U.S. fishermen, 
including those in New Jersey, are worried that without a strong U.S. 
presence at the negotiations, our fishermen could lose substantial 
portions of long-held rights to fish for these tuna. Will you fight to 
preserve U.S. fishermen's fishing rights at upcoming meetings of the 
International Commission for the Conservation of Atlantic Tunas?
    Answer. The U.S. delegation to the International Commission for the 
Conservation of Atlantic Tunas meetings is keenly aware of the 
challenges in ensuring that our fleet's share of the global quota for 
Atlantic species such as bluefin tuna and swordfish. Working 
collaboratively through the multilateral process, the United States has 
addressed allocation issues head-on by insisting that only those 
countries who fully comply with the International Commission for the 
Conservation of Atlantic Tuna measures, who actively support an 
ecosystem approach to management, and who are members in good standing 
of the organization should have a right to fish these quotas. The 
United States has numerous bilateral consultations in advance of the 
main International Commission for the Conservation of Atlantic Tunas 
meeting, with a broad number of partners including the developing and 
developed countries. Through NOAA's efforts, the United States has 
established a stronger rapport with the member countries around the 
table, including development assistance. NOAA will prepare the U.S. 
delegation and its strategy with a view to ensuring the preservation of 
the rights of U.S. fishermen at the International Commission for the 
Conservation of Atlantic Tunas meeting in November 2009.

    Question 4. Pollution run-off is a major problem for many coastal 
states, including New Jersey. To address this problem, New Jersey 
depends on assistance from the Federal Government. This proposed budget 
fails to fund NOAA's coastal non-point pollution control program. Why 
was this program omitted?
    Answer. The Administration has not included specific funding for 
non-point pollution implementation grants within NOAA's budget. 
However, the Administration has requested funding for non-point 
pollution efforts in the budget requests for both the Environmental 
Protection Agency and U.S. Department of Agriculture.
    Within the NOAA budget, existing Coastal Zone Management Act (CZMA) 
funding mechanisms can be used to support non-point pollution efforts. 
States can use a portion of their CZMA Section 306 funding for non-
point pollution control. While there is no specific request for non-
point pollution, other programs including the National Centers for 
Coastal Ocean Science, the Coastal Services Center, and the National 
Estuarine Research Reserve System, develop and disseminate management 
tools and scientific research on non-point source pollution problems 
and responses.

    Question 5. The Magnuson-Stevens fisheries law included a provision 
I authored to protect deep-sea corals from destructive types of 
commercial fishing. The law also established a coordinated research 
program on deep sea corals, which are an essential foundation for 
healthy seas. What steps has NOAA taken under this law to protect deep-
sea corals?
    Answer. NOAA recognizes the importance of deep-sea coral ecosystems 
and is committed to enhancing their conservation. In consultation with 
the Regional Fishery Management Councils, and in coordination with 
other Federal agencies, educational institutions and non-governmental 
organizations, NOAA has taken the following actions pursuant to the 
deep-sea coral provisions of the 2006 reauthorized Magnuson-Stevens 
Fishery Conservation and Management Act:

  <bullet> In 2008, NOAA submitted the first report to Congress and the 
        public on Implementation of the Deep Sea Coral Research and 
        Technology Program. The report included an initial list of 
        deep-sea coral areas in the U.S. exclusive economic zone with 
        limited protection from interactions with fishing gear.

  <bullet> In 2009, NOAA received $1.5 million to begin implementation 
        of the Deep Sea Coral Research and Technology Program 
        (Program). First year activities focused on the following 
        areas:

    <ctr-circle> Targeted field research and mapping expeditions off 
            the Southeast U.S. in the South Atlantic Fishery Management 
            Council Region. Three cruises are planned to map and 
            characterize deep-sea coral habitats and conduct research 
            on the ecology of deep-sea corals and associated faunal 
            assemblages, including those associations between corals 
            and managed fish stocks to address the most pressing 
            information needs for management. Research will be 
            conducted during an August 2009 submersible cruise and 
            August/September deep Remotely Operated Vehicle cruise, 
            followed by a November 2009 ship-based mapping cruise. The 
            science program is designed to inform the final design of 
            the Council's proposed deepwater Coral Habitat Areas of 
            Particular Concern and reduce potential conflict with users 
            of bottom-tending fishing gear.

    <ctr-circle> A workshop in July 2009 on deep-sea coral exploration 
            and research priorities for Southeast Region, designed to 
            guide subsequent scientific activities under the Program.

    <ctr-circle> Integrating and managing deep-sea coral data in 
            Geographic Information System databases, with a goal of 
            making information available in usable formats to the 
            science and management communities and the general public.

    <ctr-circle> Using data from fisheries and other sources to map the 
            distribution and intensity of fishing with gears that may 
            damage deep-sea corals and improving the reporting and 
            analysis bycatch of deep-sea corals caught in fishing 
            activities.

    <ctr-circle> Analyzing priority existing data sets on deep-sea 
            corals and associated species to inform management and 
            enhancing outreach and education on these ecosystems.

  <bullet> NOAA has requested an additional $1 million in the 
        President's FY 2010 Budget to expand major field research 
        activities under the Program to a second region, the U.S. West 
        Coast in the Pacific Fishery Management Council Region. If 
        appropriated, this funding will enable work that will support 
        the Council's five-year review of essential fish habitat as it 
        relates to deep-sea coral habitats. It will also inform 
        management plan reviews by the region's five National Marine 
        Sanctuaries, all of which have rich deep-sea coral resources.

  <bullet> This fall, NOAA will publish the NOAA Strategic Plan for 
        Deep-Sea Coral and Sponge Ecosystems: Research, Management, and 
        International Cooperation. This plan identifies goals, 
        objectives, and approaches to guide NOAA's exploration, 
        research, management, and international activities needed to 
        improve the understanding and conservation of deep-sea coral 
        and sponge ecosystems, and inform emerging ecosystem-based 
        marine spatial planning efforts.

  <bullet> NOAA is developing guidance on the use of deep-sea coral 
        discretionary provisions included in the reauthorized Magnuson-
        Stevens Fishery Conservation and Management Act, and has 
        recommended the Regional Fishery Management Councils evaluate 
        areas for protection as allowed under these provisions.

  <bullet> NOAA is working closely with Regional Fishery Management 
        Councils to incorporate deep-sea coral protection measures in 
        their management. Such measures include the following:

    <ctr-circle> The North Pacific Council's 2008 Bering Sea trawl 
            closures, which protected nearly 90,000 square miles of 
            benthic fish habitat from trawling.

    <ctr-circle> The South Atlantic Council's four proposed Deepwater 
            Coral Habitat Areas of Particular Concern covering 
            approximately 23,000 square miles and including the best 
            developed Lophelia deep-sea coral reefs known from U.S. 
            waters.

    <ctr-circle> The New England Council's proposed Essential Fish 
            Habitat Omnibus Amendment. Phase 1, completed in 2007 
            recognized 15 deep-sea canyons and portions of two 
            seamounts that contain deep-sea corals as Habitat Areas of 
            Particular Concern. The Council is expected to propose 
            management measures for some or all of these Habitat Areas 
            of Particular Concern in 2010.

    <ctr-circle> The Pacific Council's review of proposals for 
            protection for deep-sea coral and sponge areas, which began 
            in June 2009.

  <bullet> Under the Bycatch Reduction Engineering Program, in FY 2009, 
        NOAA is supporting research and technology development in the 
        Northwest and Alaska designed to reduce damage to benthic 
        invertebrates, including deep-sea corals, due to trawl 
        interactions.

  <bullet> NOAA will report on these and other activities in the 2nd 
        report to Congress and the public on Implementation of the Deep 
        Sea Coral Research and Technology Program in January 2010, as 
        required in the Magnuson Stevens Fishery Conservation and 
        Management Act.

    In addition to activities called for under the Magnuson Stevens 
Fishery Conservation and Management Act, several other NOAA programs 
actively engage in exploration and research efforts in areas that 
contain deep-sea coral and sponge habitat. The Lophelia II project is a 
prime example of a contribution being made to assist in our 
understanding of deep-sea coral ecosystems. This summer, NOAA, in 
partnership with the Minerals Management Service and U.S. Geological 
Survey, will embark on the second year of the 4-year project to enhance 
our knowledge on the distribution of deep-sea corals in the Gulf of 
Mexico. This year's work will focus on studying the community structure 
and function of deep-sea corals at both natural and man-made sites.

    Question 6. The funding for NOAA's Office of Response and 
Restoration would not allow it to respond to two major spills at the 
same time, while performing its other duties. What level of funding 
would be necessary to give NOAA the capacity to deal with at least two 
spills at the same time?
    Answer. The FY 2010 President's Request includes $19.1 million for 
the Office of Response and Restoration base. The request includes a 
$1.4 million program increase to improve innovative response tools, 
such as a 3-dimensional oil spill model. The $1.4 million will support 
critical NOAA activities mandated by the Oil Pollution Act, the 
Superfund Act, and the National Contingency Plan.
    From 2003-2008, the Office of Response and Restoration received 
appropriations below the President's Budget Request. In FY 2009, 
funding was restored to the President's request of $17.3 million and 
the Office of Response and Restoration has begun to restore the 
capacity and capabilities lost over the past several years. While NOAA 
does not currently have the capacity to respond to two simultaneous 
large oil spills, the Office of Response and Restoration continues to 
provide critical scientific support to numerous smaller oil and 
chemical spills. In FY 2008, the Office of Response and Restoration 
responded to over 170 events including the DM932 barge incident that 
spilled nearly 500,000 gallons of fuel oil in the Mississippi River in 
downtown New Orleans.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Warner to 
                           Dr. Jane Lubchenco

    Question 1. NOAA has been a key Federal partner in the Chesapeake 
Bay restoration effort since 1984. Virginia and the other Bay watershed 
states, and our scientific community at VIMS and other universities, 
rely heavily on NOAA's programs in fisheries and habitat restoration, 
its data management tools and high-tech buoy system for monitoring 
changes in the Bay's environmental conditions, and its B-WET education 
program for the science, management support and environmental education 
necessary to restore the Bay. But restoring the Bay's ecosystem has 
proven to be extremely difficult and is taking far longer than anyone 
anticipated when the restoration effort was initiated 25 years ago. 
What more can NOAA do to accelerate the restoration effort and how is 
that additional work reflected in the Fiscal 2010 Budget Request?
    Answer. In light of President Obama's Executive Order 13508, signed 
on May 12, 2009, the Department of Commerce (through NOAA), as a 
partner with several other Federal agencies, is playing a significant 
role in using the agency's expertise and resources to contribute to 
improving the health of the Chesapeake Bay. NOAA is a co-lead agency 
for several of the reports required by the Executive Order, including 
climate change impacts and adaptation, monitoring and science to 
support decisionmaking, and coordinated habitat and research activities 
to protect and restore living resources and water quality. Through the 
strategy development process of these coordinative efforts, NOAA will 
be examining the full extent of requirements and needs that the agency 
will address in executing the Executive Order.
    NOAA will leverage its core capabilities in climate science, 
observing systems, information management and decision support, and 
community-based restoration, along with fisheries science, to engage 
partner institutions in new and innovative approaches that address the 
new challenges society faces today with knowledge and lessons learned 
from past experience. For example, NOAA is using the science and 
evaluation of oyster restoration efforts to further delineate 
ecological restoration goals as discretely different from economic 
recovery goals for the oyster industry. This separation of policy 
objectives is key to developing sustainable oyster populations.
    The $3.4 million requested for NOAA's Chesapeake Bay activities in 
FY 2010 including efforts to monitor and assess the status of living 
resources and habitat in the Chesapeake Bay ecosystem, and identify 
science-based management alternatives for restoration and protection in 
the Chesapeake Bay through:

  <bullet> Researching, modeling, monitoring, and observing Bay living 
        resources.

  <bullet> Assessing oyster, blue crab, and fish populations.

  <bullet> Coordinating and partnering with other programs in the 
        region to ensure maximum effectiveness.

  <bullet> Developing policies and strategies to restore the Bay's 
        living resources.

  <bullet> Communicating and reaching out to the public.

  <bullet> Creating oyster reefs that can be ``seeded'' with hatchery-
        reared juvenile oysters.

  <bullet> Augmenting the capacity to produce oysters, placing oysters 
        where they will grow successfully, and monitoring their health 
        and survival.

    In particular, NOAA's Chesapeake Bay Office Fisheries Science 
Program supports ecosystem-based fisheries and habitat research 
important to the management of a variety of significant species 
through:

  <bullet> Competitive grants and cooperative agreements with multiple 
        academic recipients; and

  <bullet> State fishery management programs which use the data for 
        fisheries assessments to regulate commercial and recreational 
        species.

    Question 2. President Obama has issued an Executive Order calling 
for ``a new era of shared Federal Leadership with respect to the 
protection and restoration of Chesapeake Bay.'' In view of the fact 
that the Department of Commerce is charged (as a co-lead with the 
Department of Interior) with drafting reports and making 
recommendations to address climate change, expanded environmental 
research and monitoring, and coordinated habitat and research 
activities that protect and restore living resources and water quality 
of the Chesapeake Bay, how does NOAA plan to address these new 
requirements in both its Fiscal 2010 and Fiscal 2011 budgets?
    Answer. Section 205 of the Executive Order specifically calls for 
an ``Annual Action Plan and Progress Report.'' Beginning in 2010, the 
newly established Federal Leadership Committee will publish an annual 
Chesapeake Bay Action Plan describing how Federal funding proposed in 
the President's Budget will be used to protect and restore the 
Chesapeake Bay during the upcoming Fiscal Year. The Administration is 
still developing NOAA's FY 2011 Budget and will carefully consider any 
new requirements generated by the recommendations contained in the 
reports required by the Executive Order, balanced against other 
priorities.

    Question 3. For many years, Congress has appropriated additional 
funds to NOAA--above the President's Budget Request--to address urgent 
unmet needs critical to Chesapeake Bay protection and restoration, 
including native oyster restoration, fisheries research, environmental 
education, and observational buoys. Why hasn't the Administration 
incorporated these long-standing appropriations into the President's 
Budget Request particularly in light of NOAA's responsibilities to the 
Bay restoration effort and the authorization for the NOAA Chesapeake 
Bay Office?
    Answer. NOAA's Budget Requests reflect competing demands across 
multiple mandates and requirements with a limited amount of resources. 
In particular, NOAA has prioritized its investments to meet significant 
new requirements under the recently reauthorized Magnuson-Stevens 
Fishery Conservation and Management Act to end overfishing for 
federally-managed species.
    In light of the President's Executive Order for Chesapeake Bay 
Protection and Restoration, NOAA will carefully consider the heightened 
emphasis on and interest in accelerating Chesapeake Bay efforts in the 
development of future budgets.

    Question 4. As you know, I have introduced legislation in the 
Senate, S. 1224, to reauthorize the NOAA Chesapeake Bay Office. There 
is a companion bill (H.R. 1771) that has been introduced in the House. 
How will NOAA's Fiscal 2010 and 2011 budget address the programs and 
expectations set forth in this new authorization?
    Answer. NOAA will evaluate any new requirements established as the 
result of new legislative authorization for NOAA's Chesapeake Bay 
Office and determine how to best address those requirements through the 
FY 2011 planning process.

    Question 5. The GAO has criticized the Chesapeake Bay Program for 
not having an accurate means for measuring the progress of the Bay 
restoration effort, essentially relying too much on modeling forecasts 
that have proven to be overly optimistic and not enough on real-time 
monitoring data. With support from the Congress, NOAA is developing a 
network of environmental observation buoys in the Chesapeake Bay which 
provide real-time data on the health of the Chesapeake Bay. The buoys 
are part of a broader observing system in the Chesapeake Bay region and 
an important component of the U.S. Integrated Ocean Observing System 
(IOOS). But, to date, there are only six of these Chesapeake Bay 
Interpretive Buoys (CBIBS) in the Bay--three in Maryland and three in 
Virginia. Consequently huge gaps still remain in data on environmental 
conditions and water quality. What has the Agency done in its Fiscal 
2010 Budget Request to advance these important monitoring tools?
    Answer. Though the Chesapeake Bay Interpretive Buoy System (CBIBS) 
is not specifically included in the FY 2010 request, NOAA has taken a 
broad look at its observational capacity and is developing a 
recapitalization plan for all of the agency's observing assets, 
including CBIBS.
    As described above, NOAA's co-leadership role in development of the 
required Executive Order report on monitoring and decision support will 
include recommendations for ``strengthening environmental monitoring of 
the Chesapeake Bay and its watershed.'' NOAA envisions that the CBIBS, 
and integration of CBIBS into the broader framework for NOAA's 
Integrated Ocean Observing System, will be a key part of this 
strengthened capacity for improving the tools available for decision 
support.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                           Dr. Jane Lubchenco

    Question 1. The Administration initially zeroed out the PCSRF but 
after the issue was raised by West Coast Senators, funding was restored 
at $50M, far less than the $80M to $90M in recent years. This program 
has been critical in the management of west coast salmon stocks. At a 
time when many of these stocks are threatened or endangered, will the 
PCSRF be restored to levels of past years?
    Answer. The Administration's request for FY 2010 remains at $50 
million which is a $15 million increase over the requested level for FY 
2009. This amount, in combination with increases to other programs in 
NOAA and across the Federal Government in the FY 2010 Administration's 
request, represents a substantial investment in salmon recovery.

    Question 2. A recent General Counsel's opinion said PCSRF funds 
could only be used on endangered stocks of which there are none in 
Alaska. Alaska has used and wants to use PCSRF funds for research and 
management efforts to maintain salmon stocks' sustainability and 
prevent their listing. Do you intend to follow the more restrictive 
policy for administering PCSRF funds which would exclude Alaska?
    Answer. The FY 2010 Budget Request includes $50 million for Pacific 
Coastal Salmon Recovery. The program will be administered similarly to 
the FY 2009 program that was authorized by Congress, and Alaska 
projects will be eligible to compete for funds along with projects from 
other West Coast states. Eligible uses of the funds include actions 
that: (1) recover and conserve salmon and steelhead that are listed as 
threatened or endangered, or identified by a state as at-risk to be 
listed; (2) maintain salmon and steelhead populations necessary for 
exercise of tribal treaty fishing rights or native subsistence fishing; 
or (3) protect and restore habitat for salmon and steelhead.

    Question 3. The Alaska Department of Fish and Game (ADF&G) works 
cooperatively with NMFS Alaska Region to fulfill fishery management and 
research needs that arise from Federal laws and treaties including 
management of Bering Sea crab, statewide scallop and groundfish 
fisheries, and requirements under the Pacific Salmon Treaty, Marine 
Mammals Protection Act and Endangered Species Act. The ADF&G has the 
management infrastructure and expertise to efficiently perform these 
responsibilities but requires funding that is sufficient and reliable. 
Past funding levels have been neither and these programs have been 
characterized as chronically underfunded. What levels of funding are 
proposed for ADF&G management activities in support to NMFS mission? 
Will you support the fully-funding ADF&G requests to NMFS mission?
    Answer. In FY 2010, NOAA proposes that Alaska Department of Fish 
and Game receive funding for the following items totaling $7,545,000:





  Marine Mammals:
    Alaska Seals and Sea Lions State of Alaska           $1.491M
  Salmon Management Activities:
    Pacific Salmon Treaty                                 $2.96M
  Survey and Monitoring Projects:
    FMP Extended Jurisdiction                            $0.986M
    Crab Rationalization                                 $0.958M
    Bering Sea Crab                                      $1.000M
  Interjurisdictional Fisheries Grants                   $0.150M
 


    Question 4. The NOAA dock for the R/V Fairweather in Ketchikan has 
been condemned and as a result this Alaska-based vessel is now 
temporarily home ported in Seattle. Is there funding in the FY 2010 
Budget for the necessary design and other work necessary to rebuild 
NOAA's Ketchikan dock and if not, what are your plans to rebuild this 
facility and return the R/V Fairweather to Alaska?
    Answer. NOAA is currently funding an Architectural and Engineering 
study to determine the extent of damage to the dock at Ketchikan, but 
the FY 2010 Budget does not include a request for funding to rebuild 
the dock. This report is expected to be completed by December 2009, and 
will provide an estimate of the funding and level of effort required to 
repair the dock for use as a home port facility by NOAA Ship 
Fairweather. The first funding opportunity for the repair effort would 
be FY 2012.

    Question 5. NOAA's Kasitsna Bay lab near Homer is the only West 
Coast lab in NOAA's National Center for Coastal and Ocean Resources 
Program. In partnership with the University of Alaska, the facility is 
considered a key component in Alaska's marine research and education 
network. NOAA recently spent $12.5M to remodel and update the facility, 
however, it is now staffed by just a single NOAA employee and was at 
risk of closure this year for lack of $50K. Does the FY 2010 Budget 
include funding to maintain and operate the Kasitsna Bay lab?
    Answer. The FY 2010 President's Budget Request includes funding for 
the National Centers for Coastal Ocean Science, but does not 
specifically allocate funds among the various laboratories. NOAA also 
is working with our partners in Alaska to continue important research 
and education efforts at the Kasitsna Bay Laboratory.

    Question 6. The FY 2010 Budget includes a significant increase for 
marine aquaculture, a program that Alaska has voiced serious concerns 
over regarding the serious problems of the spread of disease and 
pollution from fish farms as well as escapees. How much is budgeted 
toward development and or implementation of a national marine 
Aquaculture program?
    Answer. The President's 2010 Budget requests $7.7 million for the 
NOAA Aquaculture Program: $1.6 million for NOAA's Office of Oceanic and 
Atmospheric Research and $6.1 million for NOAA's Fisheries Service, 
which includes a $2 million increase to bolster scientific research at 
NOAA's Fisheries Science Centers in Washington and Connecticut. About 
$4 million, including all of the $2 million increase, would support 
research by NOAA and its partners on a wide range of marine aquaculture 
topics, including coastal shellfish aquaculture, open ocean 
aquaculture, development of alternative aquaculture feeds, marine stock 
enhancement, and hatchery research.

    Question 7. What is your intent on moving forward with this program 
that is opposed by some states such as Alaska?
    Answer. NOAA recognizes and respects Alaska's concerns with respect 
to finfish aquaculture and Alaska's opposition to U.S. commercial 
marine finfish aquaculture. At the same time, aquaculture is something 
the U.S. Government cannot ignore. Aquaculture currently accounts for 
half of the world's seafood supply and the farming of fish, shellfish, 
and other seafood products will likely continue to expand globally. The 
Department of Commerce, working through NOAA and with partners from 
across the public and private spectrum, has a role to play in fostering 
a safe, sustainable U.S. aquaculture industry. On September 3, 2009, 
NOAA announced its intent to develop a comprehensive national policy 
for sustainable marine aquaculture in the coming months, including a 
comprehensive framework for addressing aquaculture activity in Federal 
waters. The national policy will build on NOAA's significant work to 
date to safeguard U.S. coastal and ocean environments, while enabling 
sustainable domestic aquaculture that adds to the U.S. seafood supply 
and supports important commercial and recreational fisheries. The 
policy also will include development of coordinated Federal standards 
for permitting aquaculture facilities in Federal waters and strategies 
to provide the scientific information needed for permitting decisions.
    NOAA is interested only in those aquaculture practices that are 
sustainable over the long term and will not compromise the health of 
the marine ecosystem. NOAA believes continued refinement of best 
management practices for aquaculture, coupled with information sharing 
and technology transfer, is the most effective way to ensure 
sustainable practices are the rule both domestically and abroad.
    Most states have an interest in pursuing some type of aquaculture, 
whether it is stock enhancement for commercial and recreational 
fisheries, restoration aquaculture for threatened or endangered 
species, or commercial production of finfish or shellfish. All of these 
different types of aquaculture have the potential to create new jobs, 
support working waterfronts and resilient coastal communities, and 
provide important economic opportunities for the United States as long 
as they are conducted in a sustainable fashion that does not adversely 
impact wild capture fisheries or the health of the ecosystem. A robust 
domestic aquaculture industry should be seen as a complement to wild-
catch fisheries, as both will be needed to meet the growing demands for 
seafood.
    Alaska, for example, has a long history of success with using 
aquaculture techniques to enhance its wild salmon runs through a system 
of state and privately-run salmon hatcheries. For many years, Alaska 
has been releasing hatchery-raised fish in significant numbers to 
maintain that important commercial fishery. There is also a growing 
commercial shellfish aquaculture industry in Alaska. Current NOAA Sea 
Grant and NOAA Fisheries Service activities in Alaska provide examples 
of how Aquaculture Program initiatives can be aligned with state 
priorities. NOAA's Sea Grant program is providing support to Alaska's 
existing shellfish farming industry. The Alaska Fisheries Science 
Center is collaborating with the University of Alaska-Fairbanks on 
stock-enhancement research for king crab and the Northwest Fisheries 
Science Center is partnering with the Alaska Fishery Development 
Foundation to study innovative ways to use trimmings from Alaska's 
fish-processing industry as ingredients in aquaculture feeds.
    With ties across the agency, the broad mission of the NOAA 
Aquaculture Program is to foster and manage environmentally responsible 
and sustainable marine aquaculture for food production and stock 
enhancement. We will move forward with this program in a way that 
protects the marine environment and wild stocks, complements commercial 
fishing, fosters local solutions, and helps maintain working 
waterfronts. NOAA has four main goals:

        (1) Develop a comprehensive regulatory program for marine 
        aquaculture;

        (2) Enable sustainable commercial marine aquaculture and 
        replenishment of wild stocks;

        (3) Facilitate public understanding of marine aquaculture; and

        (4) Increase collaboration and cooperation with international 
        partners.

    NOAA will continue to support Aquaculture Program activities that 
reflect the diversity of stakeholder priorities in different states and 
regions. NOAA defines aquaculture as the culturing of aquatic organisms 
for any commercial, recreational, or public purpose. This broad 
definition allows us to support both commercial aquaculture (marine 
shellfish, finfish, and algae farming) and the use of hatcheries for 
stock replenishment or restoration (e.g., salmon, king crab, redfish, 
and oysters). The NOAA Aquaculture Program and the President's Budget 
Request support all of these types of aquaculture.
    NOAA looks forward to working with Alaska and other states to 
develop appropriate forms of environmentally-sustainable marine 
aquaculture that meet their needs, so that all states can benefit from 
the technologies and techniques developed for marine aquaculture.

    Question 8. Our gaps in basic scientific data about the Arctic 
(elevations, hydrology, ice thickness, etc.) are significant. The 
Arctic is rapidly transforming and we lack baseline data, the 
instruments to even measure it, much less be able to model it. We need 
a robust system for observation resources much more significant than 
the 29 new observing stations your FY 2010 Budget proposes. Are the 29 
observing stations that are budgeted enough, and if not, what is your 
plan for funding research needed to monitor the rapidly changing 
Arctic?
    Answer. The FY 2010 President's Budget contains $1.3 million to 
begin deploying U.S. Climate Reference Network stations at 29 locations 
in Alaska over 5 years. In FY 2010, six stations will be deployed in 
Alaska. The U.S. Climate Reference Network sites in Alaska will improve 
NOAA's ability to monitor and quantify climate variation and change in 
Alaska through a network of integrated climate-observing systems, which 
will enable policymakers and resource managers to make informed 
regional, national and global policy decisions. Alaska has been 
impacted by climate change earlier and to a greater degree than other 
regions, and Alaska is projected to have the largest changes in climate 
over the next 25-50 years.
    A major concern for the Arctic is the potential for climate change 
feedbacks that could exacerbate climate change abruptly and 
irreversibly. These concerns are not remote possibilities, but 
likelihoods under current climate-change scenarios. Importantly, U.S. 
Climate Reference Network sites focus on detecting the rate of climate 
change through high-precision monitoring of properties such as 
temperature, precipitation, radiation, and wind speed. This information 
is particularly valuable in the Arctic, where climate is changing more 
rapidly (relative to temperate regions).
    In addition to the U.S. Climate Reference Network sites, a smaller 
number of sites are maintained by or operated cooperatively with NOAA, 
and take measurements to address one of these serious feedbacks--rapid 
emission of two major greenhouse gases, carbon dioxide and methane, 
associated with thawing permafrost in the region. These other six 
sites, which are part of NOAA's and the World Meteorological 
Organization's global networks, are located high in the Arctic to 
capture broad scale signals. NOAA will continue to support these 
measurement sites, and recognizes a growing need for sites near the 
edge of thawing permafrost (e.g., at locations along the Arctic Circle 
in Alaska and Canada).

    Question 9. The rapid changes in climate affecting Alaska and the 
entire nation warrants a dedicated response such as envisioned in the 
National Climate Services Act set for markup in the House committee on 
July 3. What are the Administration's views on a National Climate 
Service and how is that reflected in the FY 2010 Budget?
    Answer. NOAA envisions a National Climate Service as a partnership 
established with other Federal agencies, various levels of government, 
and the private sector. While there is no specific request for the 
National Climate Service in FY 2010, NOAA's budget request provides a 
foundation for a National Climate Service to move forward.
    NOAA requested $292 million for climate activities in FY 2010. 
NOAA's FY 2010 Budget Request includes increases for:

        (1) the National Integrated Drought Information System to 
        implement three regional early warning system pilot projects 
        and to improve climate forecast products related to drought;

        (2) development of decadal climate predictability;

        (3) ocean acidification monitoring;

        (4) implementation of a portal to generate and house model-
        based data records;

        (5) deployment of the U.S. Climate Reference Network in Alaska; 
        and

        (6) development of the Jason-3 satellite altimetry mission.

    All of these requested activities, along with existing activities, 
contribute to NOAA's integrated program of climate observations, 
research, modeling, prediction, decision support, and assessment. These 
capabilities, along with NOAA's history of data stewardship and 
service-delivery capability, will enable NOAA to provide valuable 
insight and leadership for the development of a National Climate 
Service in partnership with other Federal agencies, service providers, 
users, partners, and stakeholders.
    NOAA has taken several near-term actions within its existing 
authorities to improve how it delivers climate science and services. 
NOAA has been evaluating climate services activities within the agency, 
and has actively engaged its partners and the user community to 
determine their specific information needs and the contributions these 
groups may bring to the development of climate services. NOAA looks 
forward to engaging in these dialogues with the Office of Science and 
Technology Policy, Executive Office of the President, Congress, its 
Federal agency partners, and the range of public and private-sector 
interests in climate services, as the Administration moves forward to 
develop a National Climate Service.

    Question 10. The 33rd Center for Ocean Law and Policy held an 
international meeting in Seward in May on ``Changes in the Arctic 
Environment and the Law of the Sea'' in which the mapping of the U.S. 
Continental Shelf in Alaska's Arctic was raised as a serious need 
related to ratification of UNCLOS. What is included in NOAA' s budget 
for FY 2010 and future years toward completing mapping of the Arctic 
continental shelf?
    Answer. NOAA's FY 2010 Budget includes a request of $3.4 million 
for activities required to define the limits of the U.S. Extended 
Continental Shelf (ECS) beyond 200 nautical miles, through the Office 
of Ocean Exploration and Research. About $2 million of this is for ECS-
related seafloor mapping in the Arctic in FY 2010.
    NOAA, the Department of State, and the U.S. Geological Survey have 
been recognized as primary U.S. agencies with the capabilities to 
execute the required activities and ensure a successful submission. 
Each agency has its own respective role in the project; for example, 
NOAA is the lead for collecting bathymetric data and maintaining the 
national baseline as depicted on NOAA charts. The ECS Task Force 
(established in 2007) is developing a project plan for collaborative 
action to define the U.S. ECS. This project plan will refine out-year 
requirements for all agencies engaged in this effort.
    This work will allow the United States to delineate the area of its 
jurisdiction over its ECS, which includes an estimated $1.2 trillion 
worth of resources.\2\ The U.N. Convention on Law of the Sea sets forth 
a clear process for international recognition of the outer limits of a 
coastal nation's continental shelf and the sovereign rights over the 
associated seabed resources therein. Russia, Canada, Denmark, and 
Norway are actively pursuing submissions to the Commission on the 
Limits of the Continental Shelf in the Arctic. According to the U.S. 
Arctic Research Commission, if the U.S. were to become a party to the 
U.N. Convention on Law of the Sea, its submission could include an area 
in the Arctic of about 450,000 square kilometers--an area approximately 
the size of California. Although limited information exists pertaining 
to potential resources in this area, it is anticipated that petroleum, 
gas hydrates, and other mineral resources will be discovered, as well 
as new habitats attracting communities of fish, deep-sea coral, and 
other benthic organisms.
---------------------------------------------------------------------------
    \2\ Murton, B.J., Parson, L.M., Hunter, P. and Miles, P., Global 
non-living resources on the Extended Continental Shelf; Prospects for 
the year 2000, International Seabed Authority.

    Question 11. In April, Alaska hosted the Indigenous Peoples Global 
Summit on Climate Change, in which the impacts of climate change on 
indigenous people was detailed, as well as the challenges in adapting 
to changes in the environment and with traditional lifestyles. Many 
stressed the need to work with our indigenous people in assisting with 
adaptation strategies, in recognizing their traditional knowledge and 
wisdom, and in developing monitoring strategies and education programs 
by which we all can understand the magnitude of the challenges facing 
our residents with climate change. What is budgeted to work with 
indigenous people in assisting on adaptation strategies to climate 
change and the incorporation of local and traditional knowledge?
    Answer. NOAA has no funding specifically directed toward assisting 
indigenous people on adaption strategies to climate change. NOAA has 
several projects that incorporate local and traditional knowledge 
related to cooperative management of marine mammals. NOAA routinely 
funds projects promoting the role of Alaska Natives in marine mammal 
conservation and management efforts, as well as educating and informing 
the public about the traditional and contemporary relationship between 
Alaska Natives and marine mammals. These projects concentrate on the 
cooperative management of protected species, such as cetaceans and 
pinnipeds in Alaska. In FY 2009, NOAA anticipates spending over $2.3 
million through grants and contracts toward the cooperative management 
of marine mammals. NOAA also solicits and funds information gathering 
from indigenous people regarding fisheries management, but not for 
climate data.

    Question 12. The Arctic Marine Shipping Assessment, recently 
completed for the Arctic Council found that ``based on the information 
provided, significant portions of the primary Arctic shipping routes do 
not have adequate hydrographic data, and therefore charts, to support 
safe navigation.'' What is budgeted to improve the marine navigation 
services, including hydrographic surveys, charting and tide and current 
information in the United States Arctic, which includes the Bering Sea?
    Answer. NOAA's FY 2010 President's Request for Navigation Services, 
which include mapping and charting, geodesy, and tides and currents, is 
$155.1 million to support the Nation's navigation, positioning and 
water level requirements. Of this, roughly $31 million is allocated to 
support contract hydrographic surveys of waters critically in need of 
survey for safe navigation, which is in addition to in-house survey 
work conducted by the NOAA Hydrographic Fleet. Although a large portion 
of NOAA's hydrographic survey work occurs in Alaska each year 
(approximately 40 percent in calendar year 2008, by area), there have 
not been any major projects assigned in the Bering Sea or farther north 
in recent years. In 2010, there are plans to send the NOAA Ship 
Fairweather north to conduct hydrographic surveys in the Bering 
Straits. Survey plans in 2011 and beyond will be based on available 
resources and a review of national requirements, but may include 
additional surveys by both in-house and contract units.

    Question 13. What is NOAA's plan to address backlogs of needed 
survey work?
    Answer. NOAA is in the process of developing a strategic plan for 
the Arctic, given the significant environmental and economic impacts 
that the Arctic and Sub-arctic regions are already experiencing due to 
climate change. This includes an Arctic Hydrographic Survey priorities 
plan based on maritime and other user needs.

    Question 14. Coastal inundation and erosion are impacting our rural 
communities and is well documented through stakeholder activities with 
the Governor's Sub-cabinet on Climate Change, recommendations of the 
Alaska Climate Impact Assessment Commission, and two reports by the 
GAO, yet there is a lack of data to assess changes in the sea level 
because of limited tide stations and vertical geodetic control. What is 
budgeted to monitor and model sea-level rise in the Arctic and support 
communities in adapting to the impacts of climate change in the 
Arctic's coastal zone?
    Answer. NOAA provides the geospatial infrastructure required to 
baseline and monitor trends in sea level and land motion, primarily 
through the National Water Level Observation Network (NWLON) and 
Continuously Operating Reference Stations (CORS). There are presently 
24 NWLON and 36 CORS operating in Alaska. In addition to these 
observing networks, NOAA is working to improve the ability to use GPS 
to easily and efficiently determine accurate vertical elevations, which 
is currently not possible. NOAA's FY 2010 President's Request includes 
an increase of $4 million for the geospatial infrastructure needed to 
monitor sea-level trends around the Nation. If appropriated, this 
increase will enable NOAA to begin collecting data to improve elevation 
information as a foundation for better commerce, economic efficiencies, 
and to better protect the public from coastal hazards and flooding. 
This request supports the NOAA ``Gravity for the Redefinition of the 
American Vertical Datum'' (GRAV-D) initiative to improve elevation and 
height information through the collection of high-resolution gravity 
data. Once GRAV-D is completed, the new gravity-based vertical datum 
for the U.S. will, for the first time, provide national elevations with 
GPS to an accuracy of under one inch. According to the priorities 
defined in the NOAA GRAV-D plan, gravity collection in littoral regions 
of Alaska would be completed by FY 2012 and the rest of Alaska by FY 
2013.
    In addition, NOAA's FY 2010 Budget Request includes support for 
coastal community adaptation to climate change in the Arctic through 
scientific research, planning, and mitigation activities. NOAA 
maintains key observing systems for monitoring the ocean, atmosphere, 
and climate change. NOAA supports states, as well as local and regional 
authorities, with atmospheric, terrestrial, water, and ecosystem 
monitoring, forecasts, predictions and projections, and scientific 
support for preparedness and decisionmaking. NOAA support for climate 
adaptation science seeks not only to examine the science of climate 
change and its impacts, but also to understand the current and 
historical state of the climate, as well as socioeconomic implications. 
NOAA's adaptation planning support covers marine fisheries, coastal and 
ocean habitat, and ecosystems, and also supports and informs coastal 
planning and development efforts, maritime transportation, water 
resources and water resources management, and other government and 
private-sector adaptation issues (e.g., insurance, energy and 
agriculture).
    Through a Federal-state partnership under its Coastal Zone 
Management program, NOAA provides national leadership, technical 
assistance, and funding to state and territory coastal management 
programs to plan for and adapt to climate change. The Alaska Coastal 
Management Program (ACMP) is using enhancement grant funds provided 
through Section 309 of the Coastal Zone Management Act to support a 
hazard grant program, which supports local government projects and 
coastal management plan development and implementation. Alaska's hazard 
grant program supports coastal district and state agency efforts to 
identify and designate new natural hazard areas and establish specific 
enforceable policies applicable to the hazard. Specifically, the ACMP 
has set aside $50,000 of section 309 funds in each Fiscal Year from FY 
2006 to FY 2010 to fund activities that address the increasing risk 
from hazards related to climate change, such as sea-level rise, storm 
surge, coastal erosion, and subsidence due to permafrost melting. Using 
FY 2009 Federal coastal zone management grant funds, the ACMP will 
undertake a natural hazards resiliency effort, coordinated with a 
working group of agency and coastal district representatives. This 
project will facilitate dialogue about how to make resiliency a part of 
district policy, planning, and education efforts, as well as how to 
increase resilience in Alaska. The ACMP is expected to fund similar 
activities with its FY 2010 grant funds, which it will receive in July 
2010.

    Question 15. Digital mapping of Alaska is a very important basic 
need for Alaska's economy and managing Alaska's environment. The state 
has a Statewide Digital Mapping Initiative (SDMI) working through 
Federal agencies, and NOAA is embarking on national GRAV-D and NGS 
Height Modernization programs, of which Alaska is a priority. The 
importance of vertical data is critical to understanding changes to the 
permafrost and water levels with climate change as well as more 
accurate navigational charts for aviators and Alaska communities 
dependent on air service. Could you discuss NOAA's funding plans for 
completion of the national GRAV-D proposal as a means to provide 
critical geoid model data as support to the SDMI and in improving the 
use of GPS in determining vertical heights?
    Answer. The FY 2010 President's Budget includes an increase of $4 
million to improve elevation information as a foundation for better 
commerce, economic efficiencies, and to better protect the public from 
coastal hazards and flooding. This requested funding supports the NOAA 
``Gravity for the Redefinition of the American Vertical Datum'' (GRAV-
D) initiative, enabling NOAA to finish gravity data collection across 
the Nation by 2019 and implement a new gravity-based vertical datum in 
2020.
    The primary goal of Alaska's Statewide Digital Mapping Initiative 
is to acquire new and better maps for Alaska and make existing map 
products more easily available and to ultimately produce an accurate 
and seamless statewide base map. To reach this goal, accurate elevation 
models are required. The existing vertical datum in Alaska is in error 
by as much as 6 feet or more and digital imagery and nationally-
accepted standard elevation maps are lacking. It is the only state that 
does not have digital imagery and elevation maps at nationally accepted 
standards.
    NOAA intends to collect airborne gravity measurements in Alaska and 
across the Nation according to its 2007 Gravity for the Redefinition of 
the American Vertical Datum (GRAV-D) plan, which laid out an efficient 
process to acquire gravity measurements across the Nation and redefine 
the geoid model. According to the priorities defined in the GRAV-D plan 
and if the requested funds are appropriated by Congress in 2010 and 
beyond, gravity collection in littoral regions of Alaska would be 
completed by FY 2012 and the rest of Alaska by FY 2013. Following the 
establishment of the new vertical datum, NOAA will focus on mapping 
efforts to update shoreline. These mapping efforts will provide the 
accurate shoreline necessary for the Statewide Digital Mapping 
Initiative to provide a seamless base map for the State of Alaska.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                           Dr. Jane Lubchenco

    Question 1. I want to acknowledge the significant achievement of 
presenting the highest-ever funding request for NOAA. The Fiscal Year 
2010 proposed budget of $4.5 billion is a strong step in the right 
direction for meeting NOAA's mandated and evolving budget needs, and it 
sends a critical message to Congress that managing our oceans and 
studying our atmosphere are going to be key priorities for the Obama 
Administration. To what extent will the FY 2010 Budget Request enable 
NOAA to succeed in meeting all its mandated missions? I understand that 
you cannot officially ask for more funding, but are we likely to see 
any program performance shortfalls due to insufficient funding?
    Answer. NOAA's FY 2010 Budget provides the best balance of 
investments to meet our mandated mission. NOAA has worked hard to 
reallocate resources, identify efficiencies, and fund our highest 
priorities. NOAA does not anticipate any program performance shortfalls 
as a result of insufficient funding. At the same time, we recognize the 
growing needs for NOAA mission, especially in climate, fisheries, and 
weather forecasting. We are working within our planning and budget 
processes to ensure sufficient resources are provided to address these 
needs.

    Question 2. Given the fact that you have a finite pot of money to 
allocate among competing programs and line offices, how did you go 
about setting priorities and determining how much funding to recommend 
for those priorities?
    Answer. NOAA has implemented a planning process entitled, Planning, 
Programming, Budgeting, and Execution System (PPBES), to help set 
priorities and develop our budget allocations. The planning system 
allows NOAA to link its strategic planning and policy priorities with 
the budget formulation process. Throughout the process, we attempt to 
balance fiscal realities with our program demands to ensure our budget 
proposals meet our highest priority needs.

    Question 3. I was pleased to hear that, on April 8, 2009, you have 
pledged to provide $16 million from this year's budget to help with the 
transition to sectors in the New England Groundfishery. We understand 
that $6 million of that will go toward cooperative research, and $10 
million will be used to develop data reporting and fishery monitoring 
systems--vital components for facilitating management plan success. 
Moreover, on May 19, my staff heard you speak in Boston, in which you 
touted an extra $18.6 million in your proposed budget to help 
specifically with the New England groundfish transition. Today, more 
than 2 months after you pledged that $16 million, none of that funding 
has been released to the region . . . what can you tell me about the 
status of that money? Exactly when will it be released to the region?
    Answer. NOAA has released the funds to the region. The funds are in 
the process of being distributed. All sectors approved by the New 
England Fishery Management Council for implementation in fishing year 
2010 have received some funding and a contractor has been hired to 
assist in the preparation of the 19 documents required under the 
National Environmental Policy Act.

    Question 4. Out of the $16 million, does NOAA still plan to 
allocate $6 million to cooperative research and $10 million to data and 
monitoring? If not, what changes have you proposed? How does NOAA plan 
to spend the $18.6 million for New England groundfish in FY 2010?
    Answer. Yes, $6 million is allocated to Cooperative Research and 
$10 million is to support and build the infrastructure to monitor and 
administer the groundfish fishery.
    NOAA FY 2010 request includes $18.6 million for Northeast catch-
share implementation. The $18.6 million is requested in the following 
budget lines:

 
 
 
 
  Fisheries Research and Management Programs                    $5.4 million
  Economics and Social Sciences                                 $1.0 million
  Observers/Training                                            $3.0 million
  Enforcement                                                   $3.2 million
  Cooperative Research                                          $6.0 million
 


    Question 5. Because you have been working with the New England 
Council as they develop and review alternatives for Amendment 16, how 
much funding--in total--will be required to make this transition 
successful? How much will start-up and ongoing monitoring activities 
cost over time?
    Answer. The total costs for government and industry to implement 
the program are dependent upon decisions made by the New England 
Fishery Management Council, the level of industry participation in 
sectors, and decisions made by participants about monitoring and 
reporting alternatives. The $18.6 million requested for FY 2010 is 
sufficient for that year based on our estimate that about half of the 
Northeast groundfish fishing fleet joins sectors for the fishing year 
starting May 2010.

    Question 6. After nearly 10 years of working with NOAA to develop 
and enact legislation for a sustained ocean and coastal observation 
system, and working with my colleagues to request sufficient funding 
for this system, I am troubled to see that NOAA has requested only $21 
million for its Integrated Ocean Observing System. Ocean Commissions 
and the scientific community recommend hundreds of millions to realize 
the full potential of such a system, and I think we can't afford to not 
adequately fund ocean observations. After all, ocean data form the very 
foundation of every single NOAA mission, and they must be transformed 
into usable products to serve America's economy, protect lives and 
property, and promote marine and climate science. NOAA is missing the 
mark.
    Ocean observation buoys are being pulled out of the water, 
technical staff is being fired, and data products are not being 
delivered to end users--all due to insufficient funding for NOAA's 
observations office and its partners. What do these data gaps mean for 
NOAA's ocean and climate science, hazard prediction, and service to the 
American people?
    Answer. The NOAA Integrated Ocean Observing System (IOOS) Program 
works with other NOAA programs and its external partners to enable the 
sharing and application of data. The NOAA IOOS Program is responsible 
for developing the national framework for data integration across NOAA 
and with the Regional Associations that make up a cohesive, national 
network of regional coastal ocean-observing systems. By bringing 
together data in a way that ensures comparability with other data sets, 
IOOS makes a broader suite of data available to provide the information 
scientists need to develop a more complete characterization of our 
ocean and coastal ecosystems.
    Under the current budget request, NOAA's IOOS program will continue 
to provide a robust and consistent data stream for scientists, 
emergency responders, natural resource managers, mariners, and the 
American public, and enable informed decision-making to produce 
economic, environmental, and societal benefits for the Nation.

    Question 7. What are the barriers to developing an adequate funding 
request for NOAA's coastal and ocean observations?
    Answer. It is important to balance the Nation's competing 
priorities for NOAA's diverse services when developing its annual 
budget request. Funding recommendations are made on an annual basis and 
submitted to Congress in the President's Budget Request.

    Question 8. How do you intend to meet NOAA's missions with an 
insufficient and underfunded ocean observations system?
    Answer. The NOAA Integrated Ocean Observing System (IOOS) Program 
continues to manage IOOS development in partnership with the national 
network of regional coastal ocean-observing systems and the Interagency 
Working Group on Ocean Observations. The IOOS Program has made great 
progress in enabling the delivery of ocean and coastal observation data 
through the development of a data integration framework. NOAA will 
continue to focus on building a national network to improve 
coordination of observation strategies and systems, identify ways to 
improve the Nation's ocean observing capacity, and facilitate the 
exchange of information to help decisionmakers address pressing policy 
issues.
    The FY 2010 President's Budget Request includes $21 million for 
IOOS activities. This request includes $14.5 million to develop the 
regional component of IOOS through competitively awarded grants and 
cooperative agreements, and $6.5 million to guide development of the 
national network. NOAA must balance many competing priorities within 
each budget request. The requested funds will enable NOAA to begin 
implementing new requirements under the Integrated Coastal and Oceans 
Observation Act.

    Question 9. As the guardian and leader of NOAA's scientific 
integrity, what is your vision for how NOAA should organize and 
implement its ocean and coastal observation mandate? It must be more 
than a simple data management system; can you offer a revolutionary new 
paradigm for elevating and invigorating this program so it can reach 
its full scientific and economic potential?
    Answer. The NOAA Integrated Ocean Observing System (IOOS) Program 
is actively working with seventeen Federal agency partners through the 
Interagency Working Group on Ocean Observations to collaborate and 
develop the IOOS from a shared vision to ensure it responds to a 
variety of information needs. As a part of the larger effort to develop 
a Global Earth Observation System of Systems, IOOS contributes valuable 
coastal information.
    The NOAA IOOS Program includes a national network of regional 
coastal and ocean-observing systems, which share the goal of building 
and sustaining an IOOS that is focused on interoperable ocean 
observation data. By bringing together data in a way that ensures 
comparability with other data sets, IOOS makes a broader suite of data 
available to provide the information scientists need to develop a more 
complete characterization of our ocean and coastal ecosystems.
    NOAA has made significant progress since first conducting a peer-
reviewed, competitive grants process for regional IOOS awards in FY 
2007. The passage of the Integrated Coastal and Oceans Observation Act 
in March 2009, provides NOAA and its Federal and regional partners an 
important opportunity to advance the development of a national IOOS 
capability with the support of both Congress and the Administration. 
NOAA is dedicated to implementing the requirements contained in the Act 
to continue building a system to enhance Federal agency missions as 
well as regional priorities and needs, and is actively working with the 
Interagency Working Group on Ocean Observations, National Federation of 
Regional Associations for Coastal and Ocean Observing, and others to 
reach the vision for IOOS established in this important statute. NOAA's 
IOOS Program is also committed to working across NOAA's line offices 
and goal teams, to better leverage agency assets.

    Question 10. Would you be willing to work with your partners in the 
Office of Science and Technology Policy, the Office of Management and 
Budget, and other key White House offices to develop a new ocean 
observations vision that can be adequately funded in future requests? 
Can you report back to me on your progress with this effort?
    Answer. By establishing the Integrated Ocean Observing System 
(IOOS) Program in 2007, NOAA has demonstrated a commitment to building 
a national integrated system for ocean observations. NOAA's IOOS 
Program was included in the President's Budget for the first time in FY 
2008, with a request of $14 million.
    In March 2009, IOOS was given formal authorization through the 
Integrated Coastal and Ocean Observation System Act of 2009 (P.L. 111-
11). NOAA has been named the lead of this interagency effort and is 
already working with other agency partners to coordinate budgets and 
leverage each other's assets.
    NOAA and the Department of Commerce will work with the Office of 
Management and Budget, and other key White House offices to develop 
future budget requests.

    Question 11. Today we have a remarkable opportunity for attacking 
global climate change, but this will require coordinated research from 
the Department of Commerce, NASA, and the National Science Foundation. 
Earlier this year, the University of Maine issued a report, ``Maine's 
Climate Future,'' which assessed the economic and ecosystem 
implications on Maine and concluded that climate change will have far 
reaching impacts on our forestry industry, our fishing industry, as 
well as our ecosystems that support our agricultural products. The 
report provided policymakers a preview of how to respond to climate 
changes and should be lauded for its vision. Yet, I am concerned that 
the report was done without Federal assistance, and the Maine 
scientists were asked by the Governor to provide this research without 
compensation. Federal agencies must provide technical support, and 
financial assistance to support this proactive research. I strongly 
believe that we must build scientific research at the Department of 
Commerce, the National Science Foundation, and NASA to provide States 
that take this project are supported with all pertinent data. Does 
NOAA's FY10 budget allow for research support at local universities to 
assess climate change risks and potential adaptation opportunities?
    Answer. NOAA's FY 2010 Budget does allow for research support at 
local universities to assess climate change risks and potential 
adaptation opportunities. NOAA's Competitive Research Program, within 
the Office of Oceanic and Atmospheric Research (OAR), sponsors 
scientific research aimed at improving predictions and assessments of 
climate variability over a variety of time scales in an effort to 
better understand how society can best adapt and respond to climate 
variability and change. Local universities and other institutions can 
submit proposals for consideration in annual competitions held by the 
OAR Climate Program Office that include a broad range of research 
priorities and objectives.
    The FY 2010 request for the Climate Competitive Research Program is 
$144.2 million, an increase of $12.1 million over the FY 2009 enacted 
level. This increase includes:

  <bullet> $4.5 million for the National Integrated Drought Information 
        System, to support implementation of the early warning system 
        pilot project and to improve climate forecasts;

  <bullet> $2.6 million to support work on decadal climate predictions 
        and abrupt climate change; and

  <bullet> $4.0 million to support work on ocean acidification and 
        regional climate impacts on living marine resources.

    Question 12. I do agree that it is critical that this Committee 
also move forward with action on streamlining research at NOAA in order 
to support local research such as the University of Maine's work over 
the last year. Do you believe that there should be a specific 
authorization for support of regional climate change research?
    Answer. NOAA currently has authority to support regional climate 
change research through the National Climate Program Act (15 U.S.C.  
2901 et seq.); through this measure, NOAA is granted authority to enter 
into contracts, grants, or cooperative agreements for climate-related 
activities.

    Question 13. In your official budget request for FY2010, NOAA 
proposed replacing the Pacific Coastal Salmon Recovery Fund with an 
alternative program of Species Recovery Grants, which would be funded 
at $60 million. Under the new grant program, all entities would be 
eligible to compete for salmon recovery funding--even those states, 
tribes, and other groups that previously benefited from the dedicated 
Pacific salmon funding. However, in the time since the release of the 
budget, NOAA amended this portion of the budget, indicating that it 
will severely scale back its new grant system and return to the Pacific 
Fund as the primary means for funding salmon recovery.
    Could you please clarify NOAA's plans on this matter? Why are you 
willing to abandon the $60 million request for the Species Recovery 
Grants? From a policy point of view, do you think that the Pacific 
Coastal Salmon Recovery Fund was inherently superior as a way to fund 
species' recovery?
    Answer. Although the Pacific Coastal Salmon Recovery Fund is an 
established and effective program, at the time NOAA believed a 
nationwide grant program would be the most effective approach for 
recovering all of the threatened and endangered species managed by 
NOAA. The amended request includes a significant increase for the 
Cooperation with States program (to $11 million). This program has been 
funded at just under $1 million since 2003.
    An increase of $3 million is requested for Atlantic Salmon Recovery 
in the President's FY 2010 Budget Request. In addition, under the 
American Recovery and Reinvestment Act of 2009, two projects totaling 
$7.8 million are being funded for Atlantic Salmon Recovery in Maine. 
The Great Works Dam Removal (Great Works, Maine) project will receive 
$6.1 million to remove the Great Works Dam, which is part of a greater 
initiative to eventually restore and open more than 1,000 miles of 
river for endangered Atlantic salmon and other fish species. The Maine 
Atlantic Salmon Habitat Restoration (Washington County, Maine) project 
will receive $1.7 million to remove fish passage barriers throughout 
the Machias River watershed, opening 66 miles of habitat for endangered 
Atlantic salmon and other migratory fish species.

    Question 14. I am concerned that Maine cannot benefit from a 
region-specific program like the Pacific Coastal Salmon Recovery Fund. 
If NOAA severely cuts its request for the Species Recovery Grants to 
merely $11 million, how can you assure me that Atlantic salmon will 
receive sufficient funding in the FY2010 Budget--assuming that Atlantic 
salmon will have to compete with proposals to recover other species as 
well? Even if combined with the $9 million for Atlantic salmon in the 
FY10 Budget, the total funding may be insufficient for the potentially 
expanded endangered listing for Atlantic salmon.
    Answer. NOAA's request represents a significant increase in its 
Conservation and Recovery with States species recovery grant program, 
and Maine is eligible for funds under the expanded program. Section 6 
of the Endangered Species Act envisions that states will be partners 
with the Federal Government in the conservation of listed species, and 
it provides a mechanism to assist the states with funding. Unlike the 
U.S. Fish and Wildlife Service, NOAA did not have a line item in its 
budgets for cooperation with the States until 2003, when slightly less 
than $1 million was added. In response to that funding, NOAA was able 
to attract interest from additional states, expanding the program from 
6 to 14 states and to fund small research and management projects.
    Recovery of listed species is dependent on collaboration and 
cooperation from the states. However most states do not have adequate 
resources to address necessary recovery actions, and Federal assistance 
is necessary to ensure their ability to engage in an effective 
partnership. NOAA's Conservation and Recovery with States Program 
leverages additional funding in support of listed species recovery. 
NOAA's budget request focuses on strategically leveraging funding for 
the recovery of protected species by working with the widest possible 
range of partners with interests in species and ecosystem health.

    Question 15. Currently, decisions about the status of Atlantic 
salmon under the Endangered Species Act are made jointly between NOAA 
and the U.S. Fish and Wildlife Service. Yet, in similar decisions about 
Pacific salmon, NOAA is clearly established as the lead agency. This 
seems incongruous, and with Atlantic salmon in three Maine rivers--the 
Penobscot, Kennebec, and Androscoggin, with watersheds encompassing 
two-thirds of Maine's land area--on the cusp of possibly being listed 
as endangered or threatened, perhaps as soon as next week, this issue 
becomes significant. Industries will need to have timely access to 
permitting decisions that will affect literally tens of thousands of 
jobs in Maine, and it seems that for this reason alone, a single agency 
must have the clear lead in such permitting decisions.
    Why is jurisdiction shared among NOAA and the U.S. Fish and 
Wildlife Service regarding Atlantic salmon, when no such shared 
jurisdiction exists on the West Coast? Do you agree that this 
responsibility should be so bifurcated?
    Answer. When NOAA and the U.S. Fish and Wildlife Service (USFWS) 
were first petitioned to list Atlantic salmon under the Endangered 
Species Act (ESA) in the early 1990s, both agencies had programs 
addressing aspects of Atlantic salmon conservation and recovery. NOAA 
was working internationally and focusing on the marine environment and 
USFWS had an active conservation hatchery program underway for the 
species. Because Atlantic salmon are anadromous and were caught 
commercially when more abundant, jurisdiction would have fallen under 
NOAA per Reorganization Plan No. 4 of 1970. However, the decision was 
made at the time to take advantage of the resources available in both 
agencies, work cooperatively to conduct a status review, and consider 
whether ESA protection was warranted for the species.
    While joint jurisdiction worked very well initially, it has become 
more difficult in recent years due to a number of new or changed 
conditions including an expanded geographic range of the listing. Time 
delays and lack of clarity on some positions resulted due to the need 
to have two Federal agencies agree on such issues. To resolve these 
issues but maintain the strength of cooperative jurisdiction, in 2006, 
the agencies entered into a Statement of Cooperation to attempt to more 
cleanly define roles. Additionally, a new Statement of Cooperation was 
signed March 2009, which goes a step further to separate roles and 
responsibilities between the two agencies in order to increase 
efficiency and effectiveness. Our goal is to significantly reduce the 
number of joint activities, particularly in light of the expanded 
geographic range of the listing, in order to ensure we could be as 
responsive to the affected public as possible. For section 7 
consultations and permitting activities, this new Statement of 
Cooperation assigns one agency jurisdiction by issue so there is a 
clear lead and no obligation for joint review or signature.
    The new Statement of Cooperation reinforces our belief that it is 
critical to the successful recovery of the species that the expertise 
and knowledge of staff from both agencies continue to be made 
available. The USFWS conservation hatchery program is providing a 
critical service to ensure persistence of the species and conservation 
of genes. NOAA research and management activities are providing 
insights into the threats affecting the species, and tools to avoid and 
reduce identified threats. The cooperative work involving the State of 
Maine, NOAA, and the USFWS is improving our understanding of hatchery 
product success as well as freshwater survival.

    Question 16. If this system remains in place, how will you ensure 
that the agencies will be able to work together in a timely, accurate 
fashion to prevent undue restrictions on industrial activities?
    Answer. The 2009 Statement of Cooperation between USFWS and NOAA 
significantly reduces the number of potentially overlapping joint 
activities. Recovery planning and oversight is identified as a joint 
activity moving forward, but USFWS is designated as the administrative 
lead for this activity. A single lead agency is designated for section 
7 consultations and section 10 permits depending on where these 
activities occur or what area they cover. For activities with a single 
lead agency, the responsible agency has control over all aspects of the 
action and is the sole signatory. We believe this change will avoid 
duplication in the consultation and permitting processes by providing a 
single point of contact for other Federal agencies and private 
individuals, and the review and approval of those activities stays 
within a single agency.

    Question 17. The economic impacts of endangered species listing can 
exacerbate an already fragile economy and has the potential to have a 
drastic impact in rural economies. This is especially true with our 
country's businesses located adjacent to our river ecosystems, where a 
substantial amount of country's industry is centered. Clearly, we must 
protect our endangered species and live up to the intent of the 
landmark Endangered Species Act, at the same time I think we can all 
agree that it is incumbent on Federal agencies that they provide the 
resources to implement the species recovery plans. Yet, I am very 
concerned that NOAA and the U.S. Fish and Wildlife Service are not 
preparing for the potential endangered listing and add the three 
largest rivers in the State of Maine--the Penobscot, the Kennebec, and 
the Androscoggin Rivers. By adding the three largest rivers in the 
State of Maine this would encompass nearly two-thirds of the State, 
changing the geographic scope from its current 2,000 square miles to 
19,000 square miles. Is NOAA planning on expanding their budget by the 
same magnitude? If not, how do you justify the increased regulatory 
burden and economic impacts the people of Maine and local industries 
will incur?
    Answer. There is a $3 million increase for Atlantic salmon in the 
FY 2010 President's request. This would increase NOAA's direct Atlantic 
salmon funding from $6 million to $9 million. In addition to these 
Atlantic salmon specific funds, NOAA has been able to direct other 
funding to the conservation and recovery of Atlantic salmon and their 
ecosystems through other programs including habitat restoration 
granting programs. The additional funds in the President's Budget 
Request would provide support for conducting critical research to 
improve our understanding of habitat needs and salmon survival at sea.

    Question 18. As you know, NOAA is currently managing a budget of 
$5.2 billion--the sum of the FY09 enacted levels plus the $860 million 
in stimulus funding from the American Recovery and Reinvestment Act. At 
the same time, we can see that the FY2010 Budget Request, if fully 
funded, will be--in effect--a $700 million cut from total NOAA funding 
for this current Fiscal Year. While we can appreciate the temporary and 
one-time funding boost that comes from the stimulus bill, what steps 
are you taking to prepare for a significant budget cut for FY2010, 
should the enacted levels be similar to the requested levels?
    Answer. The FY 2010 requested level is an increase of $110 million 
over the FY 2009 enacted level (excluding one-time American Recovery 
and Reinvestment Act (ARRA) funds). The total appropriation for NOAA in 
ARRA was $830 million. NOAA has utilized the funding consistent with 
the intent of the ARRA to ``preserve and create jobs and promote 
economic recovery'' while ``commencing expenditures and activities as 
quickly as possible consistent with prudent management''. ARRA funds 
are being expended as quickly as possible as stipulated in the bill and 
not utilized on long-term projects and investments that required 
increased capacity at NOAA in future years. Many of the projects NOAA 
has chosen to fund use stimulus money to accelerate the project to 
completion earlier than originally planned. Other projects are ongoing 
and essential to NOAA's mission and would continue to receive regular 
appropriations.

    Question 19. While the stimulus funding is intended for ``shovel 
ready'' projects, NOAA is using it to address a backlog of research, 
restoration, navigation, conservation, and management activities--
including Endangered Species Act consultations, vessel maintenance, and 
climate modeling. . . since so many internal NOAA functions are 
benefiting from the stimulus funds, is that not a clear message that 
NOAA's budget has been woefully inadequate in the past? And that at 
least $5 billion--perhaps much more--is a justifiable request?
    Answer. NOAA has selected its projects based on several factors: 
Congressional intent, job creation, ``shovel readiness'', and those 
that address NOAA's needs of long-term infrastructure. Many of these 
projects already existed and therefore have been accelerated to meet 
the intent of the American Recovery and Reinvestment Act. With the 
stimulus funds, several of the internal projects will be completed 
earlier than originally planned.

    Question 20. As you know, since April, the lobster industry has 
been operating under new rules mandating that they use sinking rope to 
connect their strings of pots rather than the floating rope they have 
used for generations, in order to reduce the likelihood of entangling 
large whales. The Maine Lobstermen's Association has estimated that our 
fishermen will each have to pay $10,000-$15,000 to swap out their gear, 
and it remains to be seen how significant annual replacement costs will 
be. And yet, according to a GAO study I commissioned in 2007, NMFS 
cannot estimate the benefit that these new regulations will provide. 
The Large Whale Take Reduction Team has already begun meeting to 
determine what additional restrictions may need to be imposed for the 
next round of regulations in 2014. I will vociferously oppose any new 
restrictions on our fishing industry unless NMFS can provide 
incontrovertible evidence that such rules will provide a measurable 
benefit to endangered whale populations. With that in mind, can you 
shed any light on your agency's financial commitment to this work?
    Answer. We recognize that information on entanglements and large 
whales is limited; however, we do know that entanglements occur and 
they result in serious injuries and mortalities of large whales, 
including endangered North Atlantic right whales. Under the Endangered 
Species Act (ESA), we are required to ensure that commercial fishery 
operations we authorize are not likely to jeopardize listed whales. In 
addition, under the Marine Mammal Protection Act (MMPA), we are charged 
with reducing injuries or mortalities in commercial fishing gear to 
levels below the potential biological removal, which in the case of the 
North Atlantic right whale is zero. Therefore, we have a clear mandate 
under both the ESA and MMPA to reduce interactions. Reducing the amount 
of line in the water column, by requiring the use of sinking instead of 
floating groundline, reduces the opportunity for entanglement and 
therefore reduces the likelihood of takes in support of our mandates 
under the ESA and MMPA. NOAA has an extensive history of seeking 
additional information for management purposes by providing funding to 
researchers, academia, state agencies, and fishermen to support large 
whale conservation efforts. In FY 2009, NOAA is providing approximately 
$972,000 for gear research projects designed to reduce entanglement 
risk associated with vertical lines. The projects funded are consistent 
with the research needs discussed with the Atlantic Large Whale Take 
Reduction Team at its April 2009 meetings. These projects include:

        1. Examining the feasibility of fishing without vertical lines 
        using trap/pot fishing gear. This project will take place in 
        both the Mid-Atlantic region (off the coast of Maryland) and 
        the Gulf of Maine (Jeffrey's Ledge area). The gear without 
        vertical lines will be fished similarly and compared to 
        traditional fishing gear (with vertical lines). Information 
        will be collected and recorded on data logs, including, but not 
        limited to, bottom type, temperature, depth, setting and 
        hauling duration, position of the gear, and gear loss/conflicts 
        (project cost: approximately $150,000).

        2. Conducting a study in the Gulf of Maine to examine the 
        operability of a device that allows gear to switch from a weak 
        mode to a strong mode (project cost: approximately $128,000). 
        If a whale were to encounter this weak line, they would be less 
        likely to suffer serious injury or mortality and more likely to 
        escape the gear without major injury. The gear must, however, 
        be strong enough to allow it to be hauled to the surface 
        without breaking. This device is placed at the bottom of the 
        vertical line, and while fishing is in a weak link mode to 
        reduce entanglement risk to a large whale should it encounter 
        the line. When it is time to haul the gear, an acoustic deck 
        unit is used to switch the bottom link to the strong link mode 
        to allow for hauling of the gear.

        3. Investigating methods to mark fixed fishing gear to help 
        identify the gear that is recovered from entangled whales. NOAA 
        is working with manufacturers to develop an adhesive tape that 
        can be placed on fishing lines that contains information on the 
        origin and type of fishing gear (project cost: $100,000). 
        Increasing the amount of information we can obtain from gear 
        taken off entangled whales is significant because it can help 
        us understand where, when, and how entanglements occur, which 
        can inform future management actions to increase the likelihood 
        of their success.

        4. Assessing the risks of entanglement through an assessment of 
        entanglement injuries (project cost: $150,000).

        5. Collecting data on large-whale distribution and fixed-gear 
        densities in the Mid-Atlantic region (project cost: up to 
        $300,000); and examination of how whales become entangled in 
        fixed fishing gear through the use of models (project cost: 
        $144,000).

    In addition to supporting research designed to reduce entanglement 
risk associated with vertical lines, NOAA FY 2009 funding will also 
support several gear buyback programs to help offset the cost 
associated with converting from floating groundline to sinking 
groundline. Approximately $4.8 million in FY 2009 funds were allocated 
for gear buyback programs from Maine through New Jersey.

    Question 21. This budget requests $47 million for marine mammals. 
How much of that funding will go to whale research in the Gulf of 
Maine, and what specific work will be funded?
    Answer. Of the $47 million for marine mammals included in the 
President's FY 2010 Budget Request, approximately $8.2 million or 17.4 
percent, is dedicated to right whale funding initiatives. $1.5 million 
of the right whale funding is for cooperative state funding. The $8.2 
million includes funding for several whale research initiatives that 
will provide a better understanding of the relationship between fixed-
gear fisheries and large whales throughout the range of the species, 
including in the Gulf of Maine. Specifically, NOAA will continue to 
support right whale scarification analysis; aerial survey efforts, 
joint enforcement agreements; gear research; and continued development 
of a vertical line analysis model to support NOAA's Vertical Line 
Reduction Strategy for the Atlantic Large Whale Take Reduction Plan. 
The goal of the scarification analysis is to understand how frequently 
whales are encountering gear and the effects of those entanglements on 
individuals and the population overall. The vertical line analysis 
model is designed to address spatial questions fundamental to species 
conservation and fisheries management. The continued development of 
this model will help NOAA answer specific management questions such as:

  <bullet> Where do particular fisheries operate?

  <bullet> Where are concentrations of vertical line the greatest?

  <bullet> Which areas have the highest concentration of vertical lines 
        and the greatest concentration of whales?

    These questions are critical in developing meaningful conservation 
measures that focus on vertical line measures in areas of highest co-
occurrence between fixed gear and right whales.

    Question 22. In recent years, the lobster fishery has landed nearly 
$300 million worth of lobster, and while 2007 saw an increase of nearly 
5 million pounds over 2007, the value of that catch declined by over 
$50 million due to dockside prices which fell to levels not seen since 
the 1980s. On top of this, our lobster dealers are soon to be hit with 
an additional cost from NOAA--a fee for certificates required by the 
European Union for exported fishery products. Recently the program for 
issuing EU export certificates for live lobster was transferred from 
the FDA to NMFS and I have heard a number of complaints about this 
transfer. The primary issue is now exporters must pay for these paper 
certificates where the FDA provided them for free. I am concerned that 
the cost of these certificates will add costs to our lobster exports 
and that we will lose market share to Canada. I understand that NOAA's 
seafood inspection program is based on a fee-for-service model, 
however, these EU export certificates are not required by U.S. law, but 
rather a financial burden placed on our lobster industry by the EU. How 
can we offset this cost so that the entire burden doesn't rest on the 
lobster industry? Is there any money in this budget to alleviate these 
concerns?
    Answer. NOAA is making every effort to keep the costs of the export 
certificate as low as possible. We have developed several pricing 
options that can significantly reduce the cost of an EU health 
certificate below the $69 price for non-participants. Firms willing to 
enter into a formal contract may be able to obtain certificates for 
about the same price as charged by the Canadian government. If a 
seafood producer has regular and recurring inspection needs from NOAA, 
they can work with NOAA to develop a contract for a specified amount of 
hourly service at a less expensive rate. This allows NOAA to better 
plan the use of inspection resources. NOAA is aware of the industry's 
concerns and has been working with them collaboratively to discuss 
their concerns and identify a resolution. Since January 17, 2009, NOAA 
has held seven public meetings and worked with many firms individually 
to better understand their business needs in shipping live and fresh 
product to Europe. Firms who are concerned about cost should contact 
the NOAA Fisheries Service Seafood Inspection Program directly so we 
can determine how best to deliver this service as economically as 
possible.
    NOAA does not provide funding to offset fees charged to administer 
its programs.

    Question 23. NOAA is preparing to take over this program on June 
17, 2009, but as with any transition to a new system, there are likely 
to be snags, delays, and kinks that need to be worked out. Will NOAA 
compensate the lobster industry for any loss of business caused by an 
inability to access certificates?
    Answer. NOAA adopted most of the methodology the Food and Drug 
Administration employed to provide EU health certificates to the 
industry in a timely manner, consistent with our regulations. So far, 
there have not been any significant problems getting certificates to 
the applicant before airplane shipments depart. NOAA is committed to 
understanding industry's needs and business practices so trade to 
Europe continues in an unfettered fashion. We will continue to closely 
monitor our EU health certificate program over the next few months and 
will modify our practices as we learn more. It is not anticipated NOAA 
will compensate the industry for any loss of business and so far there 
has not been any significant problems.

    Question 24. The International Convention on the Conservation of 
Atlantic Tunas, or ICCAT, is an international body responsible for 
managing highly migratory fish species that cross national boundaries, 
and in many cases, migrate throughout the Atlantic Ocean. In recent 
years, the United States has been a global leader in conservation of 
these fish, including swordfish and bluefin tuna. But our fishermen 
have consistently been unable to land their allocated quota of these 
species. In 2008, we caught just 24 percent of our bluefin quota and 
just 36 percent of our swordfish quota despite the fact that the 
swordfish stock is now healthy. If we do not show legitimate attempts 
to bolster these figures, the U.S. will almost certainly lose some of 
its hard-earned ICCAT quota to other fishing nations which do not 
impose similar conservation requirements. This would be a lose-lose 
proposition: a loss for the U.S. economy, and a loss for the fish. I 
understand that earlier this month NMFS issued an advance notice of 
proposed rulemaking to adjust swordfish regulations. Do you anticipate 
that this will ultimately result in increased landings of domestic, 
sustainably caught fish?
    Answer. NOAA expects that sustainable landings of domestic 
swordfish and bluefin tuna may increase as a result of the rulemaking 
process. The purpose of the advanced notice of proposed rulemaking is 
to inform the public of industry requests for regulatory changes for 
Atlantic swordfish and bluefin tuna fisheries and to obtain broad 
public comment on those requests and their potential impacts. 
Consistent with the objectives of ending overfishing, rebuilding 
overfished stocks, and minimizing bycatch to the extent practicable, 
NOAA will evaluate industry requests as well as other potential changes 
and intends to pursue additional rulemaking as appropriate in an effort 
to increase domestic landings of bluefin tuna and swordfish in a 
sustainable manner.

    Question 25. NOAA has been on the forefront of recognizing 
widespread benefits of environmental restoration on our fisheries 
habitat and has pursued large-scale environmental restoration. In 
addition, the vibrancy of our wetlands, river watersheds and coast 
lines has long-term economic benefits to tourist industries and 
expanded recreational use. Furthermore, North America's fisheries 
stocks developed from a symbiotic relationship with our river systems. 
Our coastal regions have experienced the detrimental effects of 
mismanaged river systems, and we must provide resources to correct 
this. I commend NOAA for its past leadership in supporting the 
Penobscot River Restoration Project, which will provide a restored 
river to more than 10,000 adult salmon and millions of other sea-run 
fish. This project will certainly be a tremendous boon to New England's 
fisheries and illustrates the ability of NOAA to provide the expertise 
to restore essential habitat and the environment, including Atlantic 
salmon. Do you believe in large-scale environmental restoration 
projects, like the Penobscot River Restoration project? Will you 
continue to make this project a priority for NOAA's habitat restoration 
program?
    Answer. NOAA is supportive of large-scale restoration projects that 
can have watershed or regional benefits for coastal and marine 
resources, such as endangered species, and commercial and recreational 
fisheries. NOAA received $167 million in funding through the American 
Recovery and Reinvestment Act (ARRA) to direct toward restoration 
efforts. The projects selected after a competitive solicitation process 
focus on efforts with regional and ecosystem level benefits, as well as 
creating jobs. One example is the Great Works Dam Removal Project, 
through which NOAA is funding the removal of the Great Works dam on the 
Penobscot River. This project is one step in the effort to remove 
barriers in the Penobscot watershed for the recovery of Atlantic salmon 
and open more than 1,000 miles of habitat. ARRA has allowed NOAA to 
make investments in these types of large-scale projects, which allow us 
to maximize the amount of habitat restored to benefit coastal and 
marine ecosystems. In addition to projects funded through the ARRA, 
NOAA's habitat restoration programs (e.g., Community-based Restoration 
Program, Open Rivers Initiative) have contributed smaller amounts of 
funding and technical assistance to larger-scale restoration efforts. 
For example, these programs have participated in the Bahia Grande 
restoration project in Corpus Christi, TX, which re-opened thousands of 
acres to natural tidal flow; and the Elwha River restoration in 
Washington State, which will open spawning habitat to Pacific salmon 
and other anadromous fish.

    Question 26. I have worked with the Coastal States Organization and 
other constituencies to evaluate strategies for reauthorizing the 
Coastal Zone Management Act. The CZMA is vital for enabling coastal 
states to manage and fund coastal conservation activities, and it 
provides them with a critical tool for weighing in on Federal actions 
that affect their coastal waters. To be effective, however, we must 
adequately fund the grant programs at the same time that we consider 
legislation to renew and improve NOAA's oversight function. I am 
concerned that the FY 2010 Budget Request, with flat funding of $66 
million to states, will not be sufficient to facilitate success with 
our state partners. Does the FY 2010 Budget Request suggest that NOAA 
thinks current grants to states are adequate? Has NOAA been working 
with its state partners to evaluate the impacts of recent funding 
shortfalls?
    Answer. The Coastal Zone Management Act (CZMA) is a vital tool for 
dealing with the pressing issues such as sea-level rise and climate 
change facing our Nation's oceans and coasts. NOAA looks forward to 
working with you to revitalize the CZMA and strengthen state and 
Federal capabilities.
    NOAA's FY 2010 Budget Request strives to balance the Nation's 
competing priorities for NOAA's diverse services within available 
funds, and includes $66.1 million for state coastal zone management 
grants to enable coastal states to manage and fund coastal conservation 
activities.

    Question 27. How does NOAA intend to meet the Nation's need for 
coastal management activities at the state and local level with this 
funding level, considering the increasing needs for climate change 
adaptation and offshore energy development?
    Answer. NOAA alone cannot meet all of the needs expressed at the 
state and local levels, but we are working to ensure state funding 
required by the Coastal Zone Management Act is maintained. In addition, 
NOAA is working on ways to provide improved, non-monetary support to 
coastal managers. Within NOAA we are continuing to look at ways to 
better integrate our programs and abilities to deliver needed products, 
services, and assistance to our state partners.

    Question 28. What is the Coastal Communities Task Force, which 
would receive $2 million in your budget? NOAA has just emerged from a 
coastal communities scoping and visioning initiative with the Coastal 
States Organization, so how would this differ?
    Answer. The Coastal Communities Task Force (CCTF) will be composed 
of leaders from around the country who are actively engaged in issues 
related to coastal communities and the coastal economy. The CCTF will 
help communities manage the use of land and water resources, expand 
economic opportunities, and protect and improve the quality of life, 
resulting in a more resilient and vibrant future for our Nation's 
coasts. The CCTF, in partnership with NOAA, will assist communities as 
they improve their environmental and economic health by working across 
governmental jurisdictions and at the appropriate scale to address 
community problems. Through direct technical and management assistance, 
training and collaboration, the CCTF will help to assess coastal 
resource conditions and economic health, identify key issues and goals, 
establish coordination mechanisms, collect and integrate locally 
relevant information into decision-making processes, and develop 
recommendations on planning and implementation strategies.
    The CCTF differs significantly from the coastal management scoping 
and visioning effort done in partnership with the Coastal States 
Organization. The ``Envisioning the Future of Coastal Management'' 
effort was designed to identify shortcomings with existing coastal 
planning and management efforts and to learn of techniques that had 
been used successfully to resolve coastal and ocean resource use 
conflicts. The result was a set of principles to be used as the basis 
for Coastal Zone Management Act reauthorization. The CCTF is an 
implementation tool to provide specific assistance to communities in 
regions around the Nation's coasts to resolve these and similar 
conflicts. Because the vast majority of land-use decisions in the U.S. 
are made by local governments, the CCTF has been designed to build 
capacity with state and local decisionmakers.

    Question 29. I am now considering alternative proposals for 
language to reauthorize the Coastal Zone Management Act, and I would 
like to know NOAA's position as soon as possible. When can you provide 
Congress with proposed legislation?
    Answer. Drawing on the set of principles developed through the 
``Envisioning the Future of Coastal Management'' effort, NOAA's Office 
of Ocean and Coastal Resource Management has drafted a proposal to 
reauthorize the Coastal Zone Management Act. NOAA leadership has not 
yet had the opportunity to review this proposal and make a 
determination as to whether the Administration will submit legislation.

    Question 30. For more than a decade, I have authored and overseen 
the implementation of NOAA's programs for addressing harmful algal 
blooms and hypoxia research and control. On May 1 of this year, I 
introduced S. 952, the second reauthorization of the original Snowe-
Breaux Act of 1998. My goal is to continue to promote vital research 
into these outbreaks, but to also equip regions with rapid response 
plans to minimize economic and ecological impacts. I also want to 
promote interagency efforts to further develop methods for preventing 
algae blooms and hypoxia. But for any legislation to work, it must be 
adequately funded, and I again am concerned about the numbers in the 
FY2010 Budget Request for this issue.
    The last reauthorization bill authorized up to $28 million annually 
to carry out research and projects under the Act, but NOAA's actual 
request and spending has traditionally fallen quite short of that. 
Exactly how much is NOAA requesting to implement the Act in FY2010? 
Under what accounts and line items?
    Answer. The FY 2010 President Budget Request includes support for 
implementation of the reauthorized Snowe-Breaux Act of 1998 (Harmful 
Algal Bloom and Hypoxia Research and Control Act) within the funds 
requested for the National Centers for Coastal Ocean Science (NCCOS) 
and Competitive Research under the NCCOS line item in the National 
Ocean Service request in the operations, research, and facilities 
account.
    The request for NCCOS ($36.2 million) includes support for internal 
NOAA research on harmful algal blooms (HABs), as well as a $2.7 million 
increase dedicated to expanding NOAA's HAB forecasting capabilities on 
the west coast of Florida into a national system of operational 
forecasts with an event response capability. A portion of the 
Competitive Research request (approximately $8.9 million of the $15.8 
million request) is used to fund the five national competitive programs 
authorized by the Snowe-Breaux Act and administered by the NCCOS Center 
for Sponsored Coastal Ocean Research:

  <bullet> Ecology and Oceanography of Harmful Algal Blooms

  <bullet> Monitoring and Event Response for Harmful Algal Blooms

  <bullet> Prevention, Control, and Mitigation of Harmful Algal Blooms

  <bullet> Coastal Hypoxia Research Program, and

  <bullet> Gulf of Mexico Ecosystems and Hypoxia Assessment

    Question 31. Since the frequency and severity of algal blooms and 
hypoxia are increasing, will this funding level enable NOAA to 
adequately meet this critical mission? What research and control needs 
would most likely be shortchanged?
    Answer. In coordination with our Federal partners, NOAA has made 
considerable progress in the ability to detect, monitor, assess, and 
predict harmful algal blooms and hypoxia in coastal ecosystems. This 
progress has been accomplished through a mix of extramural and 
intramural research, long-term regional ecosystem-scale studies 
supported by short-term targeted studies, collaborations between 
academic and Federal scientists, and multiple partnerships with 
Federal, state, and tribal managers. These advances are helping coastal 
managers undertake short- and long-term efforts to reduce, and 
ultimately to prevent, the detrimental effects of these phenomena on 
human health and valuable coastal resources. The FY 2010 request will 
enable NOAA to continue successful programs supporting ongoing and 
future advances in this field. It will also support the initiation of 
the Prevention, Control, and Mitigation of Harmful Algal Blooms 
program, and the national system of operational harmful algal bloom 
forecasts.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                           Dr. Jane Lubchenco

    Question 1. I am pleased that VT Halter Marine shipyard of Moss 
Point, MS, is building a number of NOAA fisheries research and mapping 
vessels. In December 2008, NOAA launched the fisheries research vessel 
PISCES, with a planned homeport of Pascagoula, MS. When is the planned 
commissioning and activation date of PISCES and how many permanent 
crewmembers will it have?
    Answer. NOAA took delivery of Pisces on June 8, 2009. NOAA plans to 
have this new fisheries vessel activated by the end of Fiscal Year 
2009, after all testing is complete. The planned commissioning date for 
Pisces is October 30, 2009. Once fully operational, Pisces will have a 
crew compliment of 24 crew and officers with space for 15 scientists. 
Total complement will be a maximum of 39.

    Question 2. The Gulf of Mexico Alliance is a partnership among 
state and Federal agencies across the states of Mississippi, Alabama, 
Louisiana, Texas and Florida with the goal of significantly increasing 
regional collaboration to enhance the environmental and economic health 
of the Gulf of Mexico. I'm pleased to see a $1M increase in the budget 
request for this important collaboration from $4 to $5 million. What 
specific environmental or economic programs will this increased funding 
support?
    Answer. The Gulf of Mexico Alliance established six Priority Issue 
Teams to work toward implementing the Governors' Action Plan for a 
Healthy and Resilient Coasts with each of the five Gulf states serving 
as the lead for at least one issue. The State of Mississippi is serving 
as lead on two Priority Issue Teams: Nutrient Reduction and Coastal 
Community Resilience. The remaining four teams are: Water Quality for 
Healthy Beaches and Shellfish (Florida lead), Environmental Education 
(Alabama lead), Habitat Conservation and Restoration (Louisiana lead), 
and Ecosystem Integration and Assessment (Texas lead). The increased 
funding will go toward providing additional competitive grants to 
support each team as they work to implement the recently updated 
Governors' Action Plan.

    Question 3. What are some of the benefits funding for the Gulf of 
Mexico Alliance has brought about so far?
    Answer. Year one of the NOAA grants to the Gulf of Mexico Alliance 
Priority Issue Teams began on October 1, 2008. During these first 9 
months, the Alliance has benefited from increased coordination and 
collaboration within and between the different priority issue teams. 
For example, the Water Quality and Nutrient Reduction teams held joint 
meetings in April of 2009 to develop strategies for improving water 
quality, monitoring information collection, and sharing. Additionally, 
the Coastal Community Resilience Team developed the ``Storm Smart Coast 
Network.'' This website is a place for coastal decisionmakers to find 
and share the latest information on protecting communities from storms, 
floods, sea-level rise, and climate change. The State of Mississippi's 
page is the first to be posted on the network 
(ms.stormsmartcoasts.org). The Dauphin Island Sea Lab is representing 
the State of Alabama as the Lead for Environmental Education Priority 
Issue Team activities. During the first 6 months, the Dauphin Island 
Sea Lab issued twenty sub-awards to support education and outreach 
activities. From these twenty, two represent regional activities: the 
Gulf of Mexico Foundation Science and Spanish Club Network and the 
National Estuarine Research Reserve Coastal Training Program 
facilitated through the Mississippi Department of Marine Resources 
Grand Bay Reserve. An additional award went to the Florida Department 
of Environmental Protection Office of Education and their Learning in 
Florida's Environments program.

    Question 4. The University of Mississippi and University of 
Southern Mississippi are pleased to be members of the National Sea 
Grant College Program. I understand the FY 2010 President's Budget 
Request has an increase of $88,000 for this valuable college grant 
program. What are some of NOAA's research or educational outreach 
priorities for this increased funding?
    Answer. The President's Fiscal Year (FY) 2010 Budget requests 
approximately $55 million for the National Sea Grant College Program. 
Sea Grant is NOAA's primary university-based program in support of 
coastal resource use and conservation. Sea Grant's research and 
outreach programs promote better understanding, conservation, and use 
of America's coastal resources, addressing issues from local to global 
concerns.
    The $88,000 increase is an Adjustment to Base (ATB) for Sea Grant, 
and is part of a larger NOAA ATB request within the President's Budget 
Request for FY 2010. Across NOAA, increases for ATBs will enable NOAA 
to fund the estimated FY 2010 Federal pay raise of 2.0 percent and 
annualize the FY 2009 pay raise of 3.9 percent. This request is 
critical to sustain the current operations level and support the 
estimated number of full-time employees in 2010. Without these funds, 
NOAA will not be able to support inflation for labor and non-labor 
activities including service contracts, utilities, field office leases 
and rent charges from the General Services Administration.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. David Vitter to 
                           Dr. Jane Lubchenco

    Question 1. How much of NOAA's budget is annually allocated toward 
recreational fisheries?
    Answer.

 
------------------------------------------------------------------------
                                                               Estimated
       Line Item Name          FY 2007    FY 2008    FY 2009    FY 2010
------------------------------------------------------------------------
Fisheries Research and             $700     $4,200     $4,200     $4,200
 Management Programs
RecFIN                           $2,900     $2,900     $2,900     $2,900
Gulf FIN                         $2,600     $2,600     $2,600     $2,600
Fishery Statistics                 $700       $500     $3,200     $5,700
Fish Stats--Atlantic States      [$700]     [$500]     [$500]     [$500]
 Marine Fisheries Commission
Stock Assessments                $3,000     $3,000     $3,000     $3,000
------------------------------------------------------------------------
Total                            $9,900    $13,200    $15,900    $18,400
------------------------------------------------------------------------


    The budget support for marine recreational fisheries surveys of 
fishing effort and catch is about $15.9 million in FY 2009. The FY 2010 
President's Budget Request includes a proposed increase of $2.5 million 
for a total of $18.4 million. If appropriated, this funding will 
greatly improve marine recreational fisheries data collections.
    As noted in the table above, NOAA has been directing additional 
funding toward marine recreational surveys for several years. The 
increases provided in FY 2008 and FY 2009 are being used to support a 
substantial re-design of NOAA recreational fisheries surveys to 
incorporate more efficient and statistically valid sampling and 
estimation methods. A significant amount of those funds are being 
invested in the development and implementation of a National Saltwater 
Angler Registry Program. The Registry Program is a cooperative state-
Federal program for the registration of recreational fishing 
participants that will build angler and for-hire vessel operator phone/
address directories needed to support more efficient and cost-effective 
surveys of fishing effort. The re-design work has included investments 
in expert evaluations of possible sampling and estimation improvements, 
well-designed pilot studies to test those improvements, and phased 
implementation of improved survey designs that will allow evaluation of 
possible biases in current and past surveys. As more statistically 
sound and cost-effective components of a new survey program are 
developed and implemented, the overall costs of the redesign work will 
be directed to increase sample sizes for the surveys of fishing effort 
and catch. Such increases allow NOAA to provide the higher levels of 
statistical precision and spatio-temporal resolution required for 
accurate stock assessments and effective fisheries management.
    An additional $2.5 million is requested in FY 2010 to support the 
development of state registration and/or licensing programs that will 
meet the requirements for development and maintenance of a complete and 
regularly updated National Registry of marine recreational fishing 
participants. Some states already have licensing or registration 
programs in place that exempt some participants, and several of those 
states do not have registry information management systems that would 
meet all of the requirements for supporting the National Registry. Many 
additional states are working to implement registration or licensing 
programs that will obtain the telephone numbers and mailing addresses 
needed for more efficient surveys of all recreational fishing 
participants. Funding will be allocated to the states to develop and 
maintain registry information management systems that will be 
compatible with the National Registry system and will deliver updated 
information on all anglers and for-hire boat operators within the 
timeframe required for use in improved telephone surveys of fishing 
effort.
    NOAA currently collaborates with state agencies and interstate 
commission partners to conduct the surveys needed to monitor marine 
recreational fishing catch and effort. NOAA currently supports four 
survey programs:

  <bullet> Marine Recreational Fishery Statistics Survey in the 
        Atlantic, Gulf of Mexico, Caribbean, and Hawaii. This is a 
        survey program to monitor shore and private/rental boat fishing 
        effort and catch.

  <bullet> For-Hire Survey in the Atlantic, Gulf of Mexico, and 
        California. This is a survey program to monitor fishing effort 
        and catch on for-hire vessels.

  <bullet> Large Pelagic Survey in the Atlantic from ME to VA. This is 
        a specialized survey program for monitoring offshore fishing 
        effort and catch of large pelagic species.

  <bullet> Pacific Coast Surveys on the coasts of Oregon, Washington, 
        and California. These are telephone and on-site surveys of 
        shore, private/rental boat, and for-hire boat fishing that are 
        run by state agencies, with NOAA support.

    Question 2. Please elaborate on why recreational fishermen are not 
considered in ITQ decisions.
    Answer. To date, most catch-share programs, including Individual 
Transferable Quota (ITQ) programs, have been developed for commercial 
fisheries. The primary reasons is that participation in commercial 
fisheries has already been limited through a limited access permit 
system, so allocating shares of the overall commercial sector quota to 
those participants is relatively straightforward. There has been 
consideration of a program for the guided sport sector in the Alaska 
halibut fishery, and NOAA expects there will be additional interest in 
catch-share programs, including ITQs, for recreational fisheries in the 
future. Because of the nature of the fisheries, a catch-share program 
for guided sport (charter) fishing seems more likely than one for 
individual recreational anglers. Support for catch-share programs by 
the affected participants is essential, and NOAA believes the fishery 
planning process, involving the Regional Fishery Management Councils, 
will be responsive to interest in catch-share programs by the 
recreational sector.

                                  <all>

</pre></body></html>
